<html>
<title> - FAA REAUTHORIZATION: AVIATION SAFETY AND GENERAL AVIATION</title>
<body><pre>[Senate Hearing 114-226]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-226

                         FAA REAUTHORIZATION: 
                  AVIATION SAFETY AND GENERAL AVIATION

=======================================================================

                                HEARING

                               BEFORE THE
                               
       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                         U.S. GOVERNMENT PUBLISHING OFFICE
99-710 PDF                     WASHINGTON : 2016                         

________________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f786f705f7c6a6c6b777a736f317c707231">[email&#160;protected]</a>  
    
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

KELLY AYOTTE, New Hampshire,         MARIA CANTWELL, Washington, 
    Chairman                             Ranking
ROGER F. WICKER, Mississippi         AMY KLOBUCHAR, Minnesota
ROY BLUNT, Missouri                  RICHARD BLUMENTHAL, Connecticut
MARCO RUBIO, Florida                 BRIAN SCHATZ, Hawaii
TED CRUZ, Texas                      EDWARD MARKEY, Massachusetts
DEB FISCHER, Nebraska                CORY BOOKER, New Jersey
JERRY MORAN, Kansas                  TOM UDALL, New Mexico
DAN SULLIVAN, Alaska                 JOE MANCHIN III, West Virginia
RON JOHNSON, Wisconsin               GARY PETERS, Michigan
DEAN HELLER, Nevada
CORY GARDNER, Colorado
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 28, 2015...................................     1
Statement of Senator Ayotte......................................     1
Statement of Senator Cantwell....................................     3
Statement of Senator Nelson......................................     4
    Prepared statement...........................................     5
Statement of Senator Wicker......................................    58
Statement of Senator Klobuchar...................................    59
Statement of Senator Moran.......................................    61
Statement of Senator Manchin.....................................    64
Statement of Senator Fischer.....................................    68
Statement of Senator Daines......................................    69
Statement of Senator Sullivan....................................    72
Statement of Senator Peters......................................    75
    Letter to Hon. Gary Peters from Faye Malarkey Black, Interim 
      President, Regional Airline Association....................    76
Statement of Senator Blumenthal..................................    78

                               Witnesses

Margaret Gilligan, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration................................     5
    Prepared statement...........................................     7
Hon. Christopher A. Hart, Chairman, National Transportation 
  Safety Board...................................................    10
    Prepared statement...........................................    12
Chesley B. ``Sully'' Sullenberger III, Aviation Safety Expert and 
  Captain of Flight 1549, The Landing on the Hudson..............    30
    Prepared statement...........................................    31
Faye Malarkey Black, Interim President, Regional Airline 
  Association....................................................    36
    Prepared statement...........................................    38
Mark Baker, President and CEO, Aircraft Owners and Pilots 
  Association....................................................    46
    Prepared statement...........................................    47

                                Appendix

Thomas L. Hendricks, President and CEO, National Air 
  Transportation Association, prepared statement.................    81
Response to written question submitted to Margaret Gilligan by:
    Hon. Roger F. Wicker.........................................    83
    Hon. Marco Rubio.............................................    83
    Hon. Steve Daines............................................    84

 
                         FAA REAUTHORIZATION: 
                  AVIATION SAFETY AND GENERAL AVIATION

                              ----------                              


                        TUESDAY, APRIL 28, 2015

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Kelly Ayotte, 
Chairman of the Subcommittee, presiding.
    Present: Senators Ayotte [presiding], Wicker, Fischer, 
Moran, Sullivan, Gardner, Daines, Cantwell, Nelson, Klobuchar, 
Blumenthal, Schatz, Booker, Manchin, and Peters.

            OPENING STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Good afternoon, and welcome. Thank you all 
for being here.
    Today's hearing is one in a series we are holding in 
preparation for this year's Federal Aviation Administration's 
reauthorization effort. And last week, we heard from experts 
and stakeholders on the certification process and airport 
infrastructure financing.
    Today, we have the opportunity to discuss the single most 
important underlying issue for any reauthorization effort, and 
that's safety, the safety of our national airspace system and 
the safety of the flying public.
    With that, I want to take a moment to recognize the family 
members of the victims of Colgan Flight 3407, which crashed 
near Buffalo in 2009, who I understand are here in the audience 
today. So, your sustained efforts to improve safety of our 
skies are very admirable, and we appreciate your coming to this 
hearing today.
    Safety is, and must remain, our top priority. The United 
States national airspace system remains one of the safest in 
the world, even while being one of the most complex systems in 
the world. The safety record we enjoy is a product of hard work 
of both government and industry alike, but it requires vigilant 
and dedication to ongoing improvement and assessment.
    Today's hearing covers a broad array of important issues, 
and I appreciate all of our witnesses for being here today.
    In 2010, Congress enacted the Airline Safety and Federal 
Aviation Administration Extension Act. In 2012, Congress 
enacted the FAA Modernization and Reform Act. Today, I look 
forward to hearing from our witnesses about the safety 
improvements that have been implemented since these laws were 
enacted, and what still remains to be done.
    The FAA has made significant progress in implementing 
reforms mandated by the Airline Safety Act. And yet, some 
initiatives are left undone. In particular, I'd like to focus 
on the agency's progress in implementing the Pilot Records Data 
base. This is an important tool to make sure airlines have all 
the information needed to assess pilots applying for positions 
in the cockpit. And I urge the FAA to move quickly in 
implementing this reform.
    More recently, some have noted a concern about the supply 
of pilots. Acknowledging there is some point of disagreement 
here, particularly with regard to the root cause of any real or 
perceived shortage, I hope to hear from each witness today on 
this issue so we can properly assess and understand the 
situation.
    As we review the issue, I'm confident that no one on this 
committee, including me, wants to compromise passenger safety. 
We want to make sure that we have, obviously, well-qualified 
pilots to serve in our air system.
    I also look forward to testimony on the mental and physical 
fitness of airline pilots. Tragically, the recent Germanwings 
crash has brought the aviation community's attention to the 
mental health of pilots as well as safety measures with respect 
to access to the flight deck. And we must learn from this 
incident. And certainly, any thoughts you have today for us to 
understand, we'd appreciate.
    We will also have an opportunity to discuss safety 
management systems, pilot commuting, commercial aircraft 
tracking, flight data, recorder requirement modifications, and 
airport surface movement safety. We all know the airports and 
runways are complex areas with many moving parts. Again, 
vigilance is required, and I look forward to hearing from the--
about the agency's ongoing efforts here to ensure the safety of 
our runways.
    We will also examine issues affecting the general aviation 
community. General aviation is an important part of our civil 
aviation system, and encompasses aviation enthusiasts, 
recreational flyers, but, for a lot of rural communities, it 
also serves as a key link for businesses and first responders, 
especially in rural communities. And also, I know, for some of 
my colleagues, for example, in Alaska and Hawaii, this is a 
very important issue.
    There are several pilots in my family, and I can certainly 
attest to the enthusiasm for flying and dedication to safety 
shown by the general aviation community.
    A recent Government Accountability Office report indicated 
that total general aviation operations and annual hours flown 
by general aviation decreased between 2000 and 2010. Today, I 
want to better understand the reasons for these declines and 
what is happening in the general aviation industry, as well.
    Today, we will hear from five witnesses: Ms. Margaret 
Gilligan, Associate Administrator for the Aviation Safety--for 
Aviation Safety at the FAA; the Honorable Christopher Hart, 
Chairman of the National Transportation Safety Board; Captain 
Chesley Sullenberger, retired pilot and safety consultant and, 
I think, well known to many of us as to--of his accomplishments 
and background--we're honored to have you here, Captain; Ms. 
Faye Malarkey Black, Interim President at the Regional Airline 
Association; and Mr. Mark Baker, President and CEO of the 
Aircraft Owners and Pilots Association.
    Thank you for being here. I look forward to your testimony.
    And, with that, I would like to turn it over to my Ranking 
Member, Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Chairman Ayotte.
    And thank you, to all the witnesses, for being here today. 
I look forward to hearing your testimony.
    I would especially like to acknowledge the families and the 
victims of the Colgan Air Flight 3407 who are with us here 
today. Thank you for your consistent advocacy and tireless work 
on behalf of a safer aviation system.
    The FAA has implemented a number of safety improvements in 
the last 5 years, including pilot training, safety management 
systems, flight and duty time requirements, and pilot 
professionalism initiatives. We have moved the ball forward on 
aviation safety, but we cannot be complacent with the progress 
we've made. We've built on efforts from the past, leveraged 
science and data and technology to make aviation safer, but we 
have more work to do.
    One area of work that remains is in the development of a 
comprehensive Pilot Records Database, which was mandated by the 
2010 Airline Safety FAA Reauthorization. This is an important 
component of a data-driven safety regime to help prevent future 
tragedies. And I hope the FAA can move the development of these 
key safety tools forward more quickly.
    The FAA's mission is to provide the safest, most efficient 
airspace system in the world. As we engage with the aviation 
stakeholders on the FAA reauthorization bill and discuss how to 
balance and allocate limited resources, we must prioritize 
safety above all else. There will always be competing 
priorities for aviation and business, and government's 
responsibility is to set and maintain the highest standards to 
protect passengers, pilots, and the public.
    This is important and necessary. And we can see, from 
issues like the pilot fatigue rules, which will be discussed 
today--and, unfortunately, in Seattle last week, we had a 
maintenance crewmember fall asleep in the cargo hold of an 
airplane that also caused somebody to return. These rules on 
fatigue, and the latest research on sleep science and how 
various work and rest schedules impact performance, are very 
important. We've had hearings on this in the past, Madam Chair. 
We want our pilots to benefit from this research. And, 
unfortunately, the final regulations carved out cargo pilots. 
In the last two Congresses, I've worked with many others here 
to correct this divide between pilots, whether they're flying 
passenger or cargo planes, and I hope this year we can bring 
this to safety in our skies as we move forward on the FAA bill.
    As we think about the national airspace's interconnected 
system, we also need to look at general aviation and how to 
make aviation safer. Next Gen will provide us with good data on 
weather and traffic, but we also have to look for opportunities 
in other ways for safety. One area we hope to see progress for 
general aviation is improved certification of safety-related 
equipment and technology. If we're able to accelerate the 
certification timeline and reduce cost to operators, we can 
help enable operators to equip the aging general aviation fleet 
with cutting-edge safety technology and state-of-the-art 
components.
    At our manufacturing and air certification hearing last 
Tuesday, we discussed the rewriting of the certification 
purposes for general aviation aircraft, part 23. And I want to 
underscore the potential safety benefits of this action for 
general aviation, in addition to the economic and logistical 
benefits.
    As the FAA develops new general aviation certification 
rules, we should consider other areas to improve existing 
regulations. The FAA's reauthorization provides an opportunity 
to identify areas where we can enhance and streamline and 
refocus regulations into safety.
    The National Transportation Safety Board has studied the 
issue of medical requirements. And I'm sure that we're going to 
hear about that today, as well, and recommendations to 
strengthen medical certification of operators. This committee 
engages in a conversation about ways to change pilot medical 
standards. We should consider ways to strengthen and improve 
those requirements, as well.
    The FAA continues to study ways to improve safety through 
its research programs. And I know that they're studying 
everything from product on the plane, as well, like lithium ion 
batteries. Airlines, air manufacturers, administration, all 
have expressed concern over incendiary properties of lithium 
batteries. And, despite leading in the global community in 
research into hazardous fire proposed by bulk shipments of 
batteries, U.S. regulation has lagged behind. So, fortunately, 
the International Civil Aviation Organization has provided some 
base guidelines in this area.
    Another field where the international community is 
directing significant attention is on flight tracking and 
flight data records. The disappearance of Malaysia Flight 370 
underscored the gaps in the flight tracking system, as well as 
challenges posed in trying to locate a flight data recorder. 
Without understanding what happened, we are disadvantaged to 
try to prevent another situation. The NTSB has also studied 
this area, so I look forward to hearing NTSB Chairman Hart, his 
testimony on that.
    Obviously, the security of our system is integral to the 
backbone of aviation, so I hope we can move forward with more 
safety, more implementation of Next Gen, and making sure that 
we have the properly trained pilots to foster growth in 
aviation.
    So, thank you, Madam Chair, for holding this important 
hearing.
    And again, thank you, to the witnesses.
    Senator Ayotte. Thank you so much, Senator Cantwell.
    And we're very fortunate to have the overall Ranking 
Member, Senator Nelson, here for this hearing.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. And let's get on with the witnesses. I'll 
enter a statement in the record.
    And, Madam Chairman, I'm very proud of the work of this 
subcommittee. It's doing important stuff. And the subject 
matter of this hearing underscores the importance of the work 
of this subcommittee.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you to the witnesses for being here today to discuss safety 
and general aviation. I want to acknowledge the Colgan Air Flight 3407 
Families. Thank you for your contribution to aviation safety, and for 
your continued commitment to protecting passengers.
    Safe air transportation has enabled tremendous growth in this 
nation, connecting communities large and small to each other, and to 
the flow of Commerce.
    Since the first commercial flight from Tampa to St. Petersburg in 
1914, there have been tremendous advances in aviation that have 
dramatically improved safety. Improved technology, pilot training, and 
data-driven decision making have contributed to the safest period in 
aviation history.
    Our aviation system has grown even safer by thoroughly 
investigating accidents so that we might learn from past mistakes and 
find a way to prevent them in the future. The tragic Colgan Air Crash 
in 2009 prompted an examination of the systems and circumstances that 
led to that accident.
    Since that time we have improved pilot training, updated 50 year 
old fatigue rules, and mandated a comprehensive database for all 
pilots.
    But work remains, and we must continue to strengthen our safety 
regime to protect lives.
    The disappearance of Malaysia Air Flight 370 over a year ago and 
the Germanwings Flight 9525 crash last month are somber reminders of 
how critical this is.
    I look forward to hearing from the witnesses about ways to make our 
system even safer whether through improved flight tracking, commercial 
pilot qualifications and medical evaluation, preventing lithium battery 
fires, or helping reduce the accident rate in the general aviation 
community.
    Safety is the foundation upon which the entire aviation system is 
built, and it is our responsibility to protect and strengthen that 
foundation.

    Senator Ayotte. Well, thank you so much, Senator Nelson.
    And, with that, I would like to call on our witnesses. And 
our first witness is Ms. Margaret Gilligan. Ms. Gilligan is the 
Associate Administrator for Aviation Safety at the Federal 
Aviation Administration.
    Miss Gilligan.

                STATEMENT OF MARGARET GILLIGAN,

          ASSOCIATE ADMINISTRATOR FOR AVIATION SAFETY,

                FEDERAL AVIATION ADMINISTRATION

    Ms. Gilligan. Thank you, Senator Ayotte, Senator Cantwell, 
and members of the Subcommittee, not just for your commitment 
to aviation safety, but for holding this series of hearings and 
focusing on an issue of national importance.
    Your guidance has had a tangible result. The United States 
of America enjoys the world's safest and most efficient 
aviation safety system.
    We've been working for years to build on the trust that 
you've exhibited in our efforts. Indeed, the United States is 
doing much more than just holding steady at historically low 
accident rates. Aviation safety cannot rest on the status quo, 
regardless of how well things are going. By establishing strong 
safety partnerships, we're accelerating the state of aviation 
safety at a pace that is perhaps unrivaled in any industry.
    The Airline Safety and FAA Extension Act of 2010 has 
certainly contributed to our progress. With the support of the 
Colgan families, and at your direction, we issued a final rule 
to prevent pilot fatigue which became effective more than a 
year ago. This sent a very clear message to industry that every 
airline must provide pilots sufficient time to get the rest 
needed for safe flight, and it underscored the point that every 
pilot has a personal responsibility to arrive at work fit for 
duty.
    The Act triggered other rules, as well. With some very 
limited exceptions, we required airline pilots to have 1500 
hours of flight-time experience. We strengthened the 
requirements for taking the Airline Transport Pilot Test, 
requiring applicants to have completed additional training in 
high-altitude operations and adverse weather. We published a 
final rule that advances the way pilots are trained, and added 
a requirement for training in the prevention and recovery from 
full stalls and upset conditions. That rule also made air 
carriers put remedial programs in place to track pilots with 
performance deficiencies.
    In a system as safe as ours, with an industry as safety 
conscious as ours is, it is an extraordinary challenge to find 
a game changer, an approach that really has the potential to 
raise the safety bar even further. The requirement in the 2010 
Act to publish a rule requiring Safety Management Systems did 
just that.
    Safety Management Systems are the next great frontier for 
aviation safety. Until now, technology has driven safety 
improvements, from radar to jet engines to collision avoidance 
and now satellite navigation. SMS changes that landscape. SMS 
is a comprehensive approach to managing safety throughout an 
organization. It requires an organization-wide safety policy. 
It has formal methods for identifying hazards, mitigating and 
controlling risks, and continually assessing safety 
performance. SMS stresses not only compliance with technical 
standards, it puts increased emphasis on the overall safety 
performance of the organization. SMS is not a slogan. It 
requires establishing a safety culture, a culture that assures 
hazards are identified, actions are taken, and results are 
measured, and then it repeats the process again. In the 
business of aviation, safety cannot be an add-on, it must be 
built in through SMS. The airlines have learned that, and we 
thank this committee for its support.
    Safety Management Systems have become the foundation for 
risk-based decisionmaking. Our resources will always be finite. 
FAA must put those resources where they're needed most. Risk-
based decisionmaking allows us to make aviation safer and 
smarter. Because commercial accidents are so rare, we're 
focusing on mitigating risk that could lead to an accident. 
Risk-based decisionmaking lets us tackle the highest risk 
first, using our resources to improve safety where they will be 
the most effective.
    The lynchpin for risk-based decisionmaking is the safety 
data shared throughout the industry. Safety data can come from 
any of the dozens of public and proprietary data bases, such 
ask the Air Traffic Control System, the airplane itself, or the 
people who are involved in the operation. These data are fed 
into the Aviation Safety Information Analysis and Sharing 
System. And it works. Safety professionals recognize that there 
can be no secrets. This is a voluntary effort. And we, in 
industry, are working with data that now represents 99 percent 
of U.S. air carrier commercial operations.
    Before closing, I wanted to acknowledge our outstanding 
safety partnership with the general aviation community. GA 
pilots are known for their love of aviation, but they are 
equally committed to advancing safety. Their participation in 
the General Aviation Joint Steering Committee is of particular 
note. The Steering Committee meets quarterly to review accident 
trends, establish areas of special emphasis, and share 
information. In the past year alone, this group developed 29 
separate safety enhancements to address loss-of-control 
accidents, which is the most prevalent category of accidents 
facing this community. Based on their recommendations, FAA has 
made it easier to install angle-of-attack indicators and allow 
pilots to better monitor stall margins. In short, they actively 
pursue ways to enhance safety, and that's what this partnership 
is all about.
    This committee has given the FAA the authority to provide 
the level of safety we enjoy today. We look forward to working 
with you on the upcoming reauthorization to build on America's 
enviable aviation safety record. I'd be pleased to answer any 
questions you may have.
    [The prepared statement of Ms. Gilligan follows:]

 Prepared Statement of Margaret Gilligan, Associate Administrator for 
         Aviation Safety, Federal Aviation Administration (FAA)
    Senator Ayotte, Senator Cantwell, Members of the Subcommittee:

    Thank you for inviting me to appear before you today to discuss the 
current state of aviation safety in the national airspace system. 
Aviation safety is the FAA's top priority and, while commercial 
aviation in the United States is holding steady at historically low 
accident rates, we remain focused to ensure we continue to identify and 
address risks to our system. Our progress over the last twenty years 
has been impressive. In the past, our philosophy was 100 percent 
compliance equals 100 percent safe but we were having accidents. We 
needed more than regulations. Today, we're proactive and identify and 
address risk to prevent accidents.
    Our success in addressing risk and improving safety in aviation 
over the past two decades is the result of strong safety partnerships 
between government and industry to pursue safety improvement 
collaboratively and in a proactive manner.
    In 1997, the White House Commission on Safety and Security set a 
goal of an 80 percent reduction in the fatal accident rate within 10 
years and identified the need for strong government-industry 
partnerships to enhance safety and support the aviation system of the 
future. The National Civil Aviation Review Commission followed up with 
a strong recommendation that the Federal Aviation Administration (FAA) 
and industry work together to develop a comprehensive, integrated 
safety plan to implement existing safety recommendations. The 
Commission recommended performance measures and milestones be developed 
to assess progress in meeting the safety goal. The Commission also 
recognized the global nature of aviation demanded that aviation safety 
also be addressed worldwide.
    The FAA, National Aeronautics and Space Administration (NASA), and 
industry determined their safety advocacy work was complementary, 
because they all use accident data to determine top safety areas. As a 
result, the Commercial Aviation Safety Team (CAST) was formed in 1998. 
The CAST model intended to use data to develop an understanding of the 
best actions or interventions to prevent accidents. The goal was to 
collaborate on identifying the top safety areas through the analysis of 
past accident and incident data, charter joint teams of experts to 
develop methods to understand the chain of events leading to accidents, 
identify effective interventions to address these safety areas, and 
remain focused on implementing these critical interventions.
    The work of CAST has been extremely successful in the United 
States. Safety experts report that by implementing the most promising 
safety enhancements, along with new aircraft, improved regulations, and 
other activities, the fatality risk for commercial aviation in the 
United States was reduced by 83 percent from 1998 to 2008.
    CAST is currently co-chaired by the Vice-President of Safety, 
Security and Environment at American Airlines and me. Members include 
domestic and international government and industry organizations.
    Today, CAST has evolved and the group is moving beyond the 
``historic'' approach of examining past accident data to a more 
proactive approach that focuses on detecting risk and implementing 
mitigation strategies before accidents or serious incidents occur. CAST 
uses a disciplined, data driven approach to analyze safety information, 
identify hazards and contributing factors and uses that knowledge to 
continually improve the aviation system. Using data from non-accident 
sources and voluntary reporting programs, CAST has adopted nearly 100 
safety enhancements. CAST aims to further reduce the U.S. commercial 
fatality risk by 50 percent from 2010 to 2025.
    The work of this organization has been recognized with prestigious 
awards, including the Robert J. Collier Trophy and the Laurel Award 
from Aviation Week and Space Technology respectively.
    The collaboration between government and industry, at all levels, 
has been instrumental in the success we have achieved in the 
improvement in aviation safety. Our continued success in advancing 
aviation safety depends on these strong safety partnerships built on 
trust and the ability to share safety information. As the work of CAST 
has evolved, so has the agency's ability to collect and analyze safety 
information for aviation.
    In 2007, the FAA launched the Aviation Safety Information Analysis 
and Sharing (ASIAS) program to help transform safety analysis from a 
forensic approach, looking at accidents and incidents after they 
occurred, to a risk management approach, allowing for proactive 
discoveries of safety concerns before they lead to significant events.
    ASIAS is a voluntary collaborative information sharing program 
supported by the aviation community. It collects data from broad and 
extensive sources of aviation safety information for the purposes of 
advancing safety initiatives and discovering vulnerabilities in the air 
transportation system. It took years to establish voluntary safety 
programs and build trust within the aviation community. Congress has 
been an important advocate in helping us protect vital safety 
information. These safety information protections are imperative so 
that we can continue to provide the environment in which personnel with 
safety critical responsibilities are confident in voluntarily providing 
safety information so that carriers and government have real-time 
insight into potential systemic safety issues.
    ASIAS partners with CAST to monitor known risk, evaluate the 
effectiveness of deployed mitigations and detect emerging hazards. 
There are currently 46 part 121 member air carriers, nine corporate/
business operators, two manufactures and two maintenance, repair and 
overhaul organizations participating in ASIAS. It continues to evolve, 
but has matured to the point that the FAA and industry can leverage 
voluntarily provided safety data from operators that represent 99 
percent of U.S. air carrier commercial operations. ASIAS has 
established metrics that enable CAST to evaluate the effectiveness of 
mitigations. It is also expanding to support other areas in aviation.
    In another related effort, the FAA is working to reduce safety 
challenges in general aviation (GA). Much like the CAST, the General 
Aviation Joint Steering Committee (GAJSC), which was established in the 
mid-1990s, established a data-driven, aviation-safety strategy to 
reduce general aviation fatal accidents. The FAA's goal is to reduce 
the GA fatal accident rate by 10 percent over a 10-year period (2009-
2018). Loss of control--mainly stalls--accounts for the most GA fatal 
accidents.
    Through GAJSC, the general aviation community is realizing the 
benefits of collaboration. It is the key government-industry group 
working to reduce GA accidents. It is working to obtain broader data 
sources from the GA community to help better identify safety risks and 
implement enhancements to mitigate hazards. GAJSC participants include 
FAA, National Aeronautics and Space Administration (NASA), the National 
Transportation Safety Board (NTSB)--as an observer-Aircraft Owners and 
Pilots Association (AOPA), Experimental Aircraft Association (EAA), 
General Aviation Manufacturers Association (GAMA), National Business 
Aviation Association (NBAA) and National Air Transportation Association 
(NATA).
    The group meets quarterly to review GA accident trends, establish 
areas for special emphasis, and share information. In the past year, 
the group developed 29 safety enhancements to address loss of control 
accidents, the most prevalent category of fatal GA accidents. For 
example, GAJSC efforts are making it easier to install some types of 
angle of attack indicators in GA aircraft, and allowing pilots to 
better monitor the stall margins of the aircraft they are flying. The 
GAJSC is also working on resources to help pilots better understand the 
effects of over-the-counter and prescription medication and better 
understand how long they should wait prior to flying after taking 
different types of medication. As part of its continuing work, the 
GAJSC is focusing its efforts on engine related accidents and is 
working to adopt a set of safety enhancements aimed at these events.
    The concept of collaborative, voluntarily shared safety information 
has evolved a great deal since its inception. The FAA explored the SMS 
concept as a component of system safety and collaborated closely with 
the International Civil Aviation Organization (ICAO) and other 
international stakeholders on the development of the SMS standards.
    SMS is a formal, top-down, organization-wide approach to managing 
safety risk and assuring the effectiveness of safety risk controls. It 
includes systemic procedures, practices, and policies for managing 
safety risk. System safety is the application of both technical and 
managerial principles and skills to identify hazards and control risk. 
Most traditional regulations address technical issues. While these are 
important and have formed the basis of current successes, we're now 
increasing emphasis on how these technical processes are being managed. 
Risk Based Decision Making (RBDM) is central to the processes of SMS.
    The evolution of SMS is the RBDM strategic initiative, one of the 
FAA Administrator's four strategic initiatives over the next five 
years. The vision for RBDM is that decisions are made with a full 
understanding of the safety impacts on the aerospace system. This means 
collecting and using data, analyzing that data and sharing it with the 
right people to ensure our decisions are better informed and take into 
account who they will impact and how. We will use RBDM and our other 
safety management activities to focus around high risk areas, 
leveraging our resources around those high-risk areas. We must take 
steps now to make sure that we are paying attention to the most 
important things first.
    In order to realize our vision for RBDM, we have activities focused 
on ensuring that decision makers have the information regarding safety 
risk necessary to make well-informed decisions. These activities are 
necessary to increase data collection, sharing, and analysis to support 
decision makers. We are developing processes and tools to support 
decision makers and enable them to make better safety-informed 
decisions. We will also ensure that the information is properly aligned 
with and incorporated into FAA governance structures and processes 
through which decisions are made. Finally, there is an initiative 
focused on the FAA oversight model and implementation of SMS in 
industry. This initiative will complete the picture to ensure that FAA 
decisions affecting industry are made with safety risk fully considered 
and that oversight models are properly aligned with SMS in industry 
organizations.
    Once we complete the activities that make up the RBDM strategic 
initiative, we will have instituted the approach within our SMS that 
will improve how we make decisions based on safety risk. The SMS will 
further provide the structure to make and manage those decisions.
    A challenge we faced with SMS was our collaboration with 
stakeholders. We needed to evolve beyond the perception that the FAA 
was an enforcer of safety or the ``Aviation Police.'' While enforcement 
is a tool to ensure compliance, it is not a panacea. Enforcement, by 
itself, can and does in many situations inhibit the open exchange of 
information. This in turn leads to ineffective solutions to safety 
problems. We must use our resources for oversight activities as 
effectively as possible, and need to change our oversight approach as 
we are limited in our ability to catch all safety hazards in the 
system. For carriers that want to operate at the highest level of 
safety, they know they will be able to get there more effectively with 
SMS. Commercial operators have an incentive to invest in SMS because, 
by addressing root causes of hazards before they occur, carriers can 
avoid the stigma and financial consequences of accidents. In all cases, 
though, we want to be sure that safety problems are fully addressed in 
the most effective manner. We feel that this is best addressed through 
coordinated and cooperative efforts on the part of both FAA and 
industry.
    The FAA recognizes our role in assuring the public of a safe 
system, and we will not hesitate to use strict enforcement where 
necessary. As a safety oversight organization, stakeholders that are 
unwilling or unable to comply with our safety standards and pose an 
unmitigated safety risk cannot be overlooked under the assumption that 
collaboration should control in all circumstances. Regulations cover 
broad areas of risk that are common to all aviation operations or large 
sectors of these operations in the NAS. However, the product or service 
providers are also faced with risks that are unique to their individual 
situations and operational environments. Their safety management 
systems, whether formally mandated in regulations or not, must develop 
and implement approaches to identify hazards and control both types of 
risks.
    SMS is ubiquitous, it is a safety policy that brings benefits to 
the aviation industry because it requires safety promotion to be put in 
place and requires safety assurance measures, as well as risk 
management application to succeed. While the vast majority of part 121 
carriers voluntarily complied with SMS concepts, in January, FAA issued 
a final rule that required all part 121 operators to develop and 
implement SMS. This was done in response to Congressional direction, 
and we appreciate that you agree that the concept is yielding the 
desired results. As safety management systems mature and are 
implemented, our reliance on sound safety analysis to identify risks to 
the aviation system, mitigate hazards and track safety enhancements, 
will be the core to sustaining a safe and efficient national airspace 
system. This type of capability is achieved only through sustained 
safety partnerships and the reporting of critical safety information 
among aviation stakeholders. We must collaborate on safety analysis and 
best practices, and monitor safety performance and implementation of 
mitigation strategies. SMS, RBDM, and collaborative transparent 
information sharing between the FAA and industry will be the 
cornerstone for future FAA oversight and industry's management of the 
safety risks that affect their operations.
    The FAA SMS Executive Council is responsible for setting the 
strategic direction for SMS implementation across the FAA. It provides 
executive-level guidance for FAA SMS-related issues. The FAA SMS 
Committee reports to the FAA SMS Executive Council and implements the 
Executive Council's strategic direction and guidance. As key milestones 
are met in the RBDM strategic initiative, the FAA SMS Executive Council 
and the FAA SMS Committee will incorporate RBDM outputs into the 
agency's safety management activities.
    I understand that the series of hearings this Committee has been 
having are in support of your drafting a bill reauthorizing FAA's 
programs, which expire at the end of the Fiscal Year. I appreciate the 
opportunity the FAA has been given to offer our views on the various 
hearing topics. We look forward to working with your staff to provide 
any assistance as you proceed to the drafting process.
    This concludes my statement. I will be happy to answer any of your 
questions at this time.

    Senator Ayotte. Thank you.
    I would now like to call on the Honorable Christopher Hart, 
the Chairman of the National Transportation Safety Board.
    Mr. Hart.

   STATEMENT OF HON. CHRISTOPHER A. HART, CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Hart. Thank you. Good afternoon, Chairman Ayotte, 
Ranking Member Cantwell, and members of the Subcommittee. Thank 
you for inviting the NTSB to testify this afternoon on the 
important topic of FAA reauthorization.
    At the same time that we are enjoying an exemplary and 
improving safety record for commercial aviation, as you've 
heard from Ms. Gilligan, general aviation has not experienced 
the same improvements. Through 2012, NTSB investigators 
gathered facts and issued probable cause determinations in 
about 1,500 general aviation accidents each year. The good news 
is that, in 2013, the number was reduced to 1224 crashes. But, 
221 of them were fatal and killed 387 people. Each of these 
accidents is tragic, and we have a duty to learn from them to 
help prevent other families from experiencing this loss.
    Our 2015 Most Wanted List includes several important 
priorities relating to aviation safety. These include 
distraction, public helicopter operations, loss of control in 
general aviation, procedural compliance, medical fitness for 
duty, and ending substance impairment in transportation. Each 
of these topics is discussed in more detail in my written 
statement. Today I will focus, first, on the importance of 
medical fitness for duty.
    We have investigated accidents in every mode of 
transportation that resulted from medical disorders. In 
aviation, some medical conditions may result in the denial of 
an Airman Medical Certificate, but many others can be treated 
so that pilots can continue to fly. In order to help ensure 
that disabling medical conditions can be distinguished more 
reliably from those that are not, we have issued 
recommendations asking for a more comprehensive medical 
certification system in aviation and other modes of 
transportation. In aviation, this review is conducted, in the 
first instance, by a physician who is certified by the FAA to 
be an Aviation Medical Examiner, or AME.
    For example, we have recommended pilot screening for 
obstructive sleep apnea (OSA). Experience has demonstrated that 
pilots who are diagnosed with OSA and are receiving treatment 
can operate safely.
    Fatigue is a medical issue that can be caused by OSA or 
other factors. The FAA has taken strong steps to institute 
hours of service for commercial passenger pilots, but they have 
not done the same for cargo pilots. Fatigue can affect 
everyone, and all air operations should be treated the same, 
whether carrying passengers or pallets.
    Another issue that relates to our ability to learn safety 
lessons from accidents and incidents is updating airplane 
recorder technology. Recorders significantly enhance our 
ability to determine what happened, and, from that, to make 
recommendations to prevent recurrences. From the early days of 
the NTSB, we have recommended that recorders be more robust 
because of the lessons learned in safety investigations. And 
today, more than 40 years later, we are again asking for more 
improvements to recorder technology. In January, we asked the 
FAA to require that commercial aircraft operating more than 50 
nautical miles from shore be equipped to transmit their 
location within 6 nautical miles in the event of a crash, and 
to require that these aircraft be equipped with a low-frequency 
location device that would transmit their underwater location 
for at least 90 days. We also recommended a way to recover data 
without requiring underwater retrieval, and that all these new 
requirements should be harmonized internationally.
    Also, accidents such as Silk Air, in 1997, Egypt Air, in 
1999, and Air France, in 2009, remind us that seeing what is 
happening in the cockpit would help us know more about what 
caused an accident. So, the NTSB also recommended that cockpits 
have image recorders to capture that information for at least 2 
hours. The concern that image recorders may be abused is a 
reminder of the unease from years ago that cockpit voice 
recordings would be abused. But, the industry has abundantly 
demonstrated its willingness and ability to use these 
recordings to improve safety rather than to punish.
    Finally, there has been some discussion about the NTSB 
appeals process. We are committed to providing fair and speedy 
hearings for individuals and entities facing FAA enforcement 
actions. We have successfully implemented the changes to our 
system, passed by Congress in the 2012 Pilot's Bill of Rights. 
Among the changes are the removal of deference to the FAA and 
the adherence by our law judges to the Federal Rules of 
Evidence and Federal Rules of Civil Procedure, to the extent 
practicable. The safety of our airspace system depends on a 
thoughtful, experienced, and timely review of the cases that 
are brought before us, and I pledge to you that the NTSB will 
continue to provide all of these.
    This concludes my statement. I am happy to respond to your 
questions. Thank you for inviting us.
    [The prepared statement of Mr. Hart follows:]

       Prepared Statement of Hon. Christopher A. Hart, Chairman, 
                  National Transportation Safety Board
    Good afternoon Chairman Ayotte, Ranking Member Cantwell, and the 
Members of the Subcommittee. Thank you for inviting the National 
Transportation Safety Board (NTSB) to testify before you today.
    The NTSB is an independent Federal agency charged by Congress with 
investigating every civil aviation accident and significant incidents 
in the United States and significant accidents and incidents in other 
modes of transportation--railroad, highway, marine and pipeline. The 
NTSB determines the probable cause of accidents and other 
transportation events and issues safety recommendations aimed at 
preventing future accidents. In addition, the NTSB carries out special 
studies concerning transportation safety and coordinates the resources 
of the Federal Government and other organizations to provide assistance 
to victims and their family members impacted by major transportation 
disasters.
    Since its inception, the NTSB has investigated more than 140,500 
aviation accidents and thousands of surface transportation accidents. 
On call 24 hours a day, 365 days a year, NTSB investigators travel 
throughout the country and internationally to investigate significant 
accidents and develop factual records and safety recommendations with 
one aim--to ensure that such accidents never happen again. The NTSB's 
annual Most Wanted List highlights safety-critical actions that the 
U.S. Department of Transportation (DOT), United States Coast Guard, 
other Federal entities, states, organizations, and others need to take 
to help prevent accidents and save lives.
    To date, we have issued over 14,000 safety recommendations to 
nearly 2,300 recipients. Because we have no formal authority to 
regulate the transportation industry, our effectiveness depends on our 
reputation for conducting thorough, accurate, and independent 
investigations and for producing timely, well-considered 
recommendations to enhance transportation safety.
    In January, the NTSB released its Most Wanted List for 2015.\1\ It 
identifies our top 10 areas for transportation safety improvements. 
Each year, we develop our Most Wanted List based on safety issues we 
identify as a result of our accident investigations. This year our 
priority areas include three multimodal items that affect aviation 
safety as well as three aviation-specific issues----
---------------------------------------------------------------------------
    \1\ See www.ntsb.gov/mostwanted for more details.

---------------------------------------------------------------------------
  <bullet> Preventing Loss of Control in Flight in General Aviation

  <bullet> Strengthening Crewmembers' Procedural Compliance

  <bullet> Requiring Medical Fitness for Duty

  <bullet> Ending Substance Impairment in Transportation

  <bullet> Disconnecting from Deadly Distractions

  <bullet> Enhancing Public Helicopter Safety

    Each of these Most Wanted List issues emphasizes the need for 
critical actions by the aviation safety regulator--the FAA- 
manufacturers, operators, pilots, and airport authorities. The NTSB 
readily acknowledges the impressive work and oversight performed by the 
FAA, and its track record in ensuring that this country's aviation 
system is the safest in the world. Yet, there will always be room for 
improvement, and the accidents and incidents that the NTSB investigates 
attest to the fact that safety improvements are still necessary to 
prevent future accidents.
General Aviation Safety
    The U.S. commercial aviation system is experiencing an 
unprecedented level of safety. With regard to general aviation (GA) 
accidents, there has been a decrease in all measures. The total number 
of general aviation accidents decreased by 249 in 2013, bringing the 
number to 1,222.\2\ The number of fatal accidents (221) and fatalities 
(387) also declined from the previous year; however, the accident rate 
per 100,000 flight hours (5.85) has remained relatively the same. 
Although GA represented almost 50 percent of the estimated total flight 
time of all U.S. civil aviation in 2013, it accounted for 94 percent of 
fatal accidents. As required by statute, the NTSB determines the 
probable cause of all aviation accidents, and one thing we have learned 
is that unfortunately, the same factors continue to cause most of the 
accidents.
---------------------------------------------------------------------------
    \2\ http://www.ntsb.gov/investigations/data/SiteAssets/Pages/
Accident-data-review/2013%20
Preliminary%.
---------------------------------------------------------------------------
    The leading causes of GA accidents are loss of control, engine 
failure, flying in conditions that are beyond the pilot or aircraft's 
abilities, and collision with terrain. GA is essentially an airline of 
one, which means the entire aviation community must work harder to 
reach each pilot or mechanic who populates this community to address 
these issues and prevent accidents. Preventing Loss of Control in 
Flight in GA is on the NTSB's 2015 Most Wanted List in order to bring 
attention to the issue.\3\
---------------------------------------------------------------------------
    \3\ http://www.ntsb.gov/safety/mwl/Documents/
MWL_2015_Factsheet_07.pdf.
---------------------------------------------------------------------------
    Last month, the NTSB issued four Safety Alerts, which are included 
with my testimony, and last week we issued a Video Safety Alert.\4\ The 
NTSB's purpose in issuing these safety alerts and video is to increase 
awareness, education, and training for private pilots and aviation 
maintenance technicians. The alerts are brief information bulletins 
that pinpoint particular safety hazards and offer practical remedies to 
address these risks. They also serve to focus the NTSB's GA outreach 
efforts during the coming year. Three of the safety alerts are geared 
towards pilots and address mountain flying skills and survival 
equipment considerations, transition training before flying an 
unfamiliar aircraft with different flight characteristics or avionics, 
and performing thorough and advanced preflight checks on aircraft that 
have just received flight control or trim system maintenance. The 
Safety Alert aimed at mechanics discusses flight control and trim 
system misrigging problems. Each Safety Alert includes accident 
summaries from some of our accident investigations and the role the 
safety issue played in those accidents. The Video Safety Alert titled, 
Airplane Misrigging: Lessons Learned from a Close Call, highlights an 
inflight emergency that occurred near St. Louis in December 2014. The 
video features interviews with the two pilots who experienced reversed 
trim system control in a Cessna T182T and the mechanic who performed 
the maintenance. Both the pilots and the mechanic provide important 
insight to help other pilots and mechanics avoid becoming involved in a 
similar situation. I'm pleased to report that within the first 24-hours 
after we posted the video on the NTSB public website, the video 
received over 44,000 separate ``hits.'' The Safety Alerts and video 
provide general guidance on how to apply the lessons learned from 
accidents and incidents and provide pilots and mechanics with free 
educational resources to learn more about prevention strategies.
---------------------------------------------------------------------------
    \4\ Mastering Mountain Flying, SA-039; Understanding Flight 
Experience, SA-040; Pilots: Perform Advanced Preflight After 
Maintenance, SA-041; and Mechanics: Prevent Misrigging Mistakes, SA-
042.
---------------------------------------------------------------------------
    Additionally, over the past five years, the NTSB has conducted 
several GA safety studies. In 2014, we examined the prevalence of drug 
use by all pilots who died in crashes and found an upward trend in the 
use of both potentially impairing medications and illicit drugs.\5\ 
Almost all of the crashes--96 percent--were in general aviation. I will 
discuss this study in more detail later. Last year, NTSB also issued a 
Special Investigation Report on the Safety of Agricultural Aircraft 
Operations.\6\ As a result of the safety issues identified in the 
study, the NTSB issued safety recommendations to the FAA and the 
National Agricultural Aviation Research & Education Foundation urging 
the two organizations to work together to develop and distribute 
agricultural operations-specific guidance on fatigue management, risk 
management, aircraft maintenance, and pilot knowledge and skills tests. 
In 2012, we examined the safety of experimental amateur-built aircraft, 
which represent about 10 percent of the GA fleet but are involved in a 
higher proportion of GA accidents.\7\ The NTSB recommended expansion of 
documentation requirements for initial aircraft airworthiness 
certification, verification of the completion of Phase I flight 
testing, improvement of pilots' access to transition training, 
encouragement of the use of recorded data during flight testing, 
ensuring that buyers of used experimental aircraft receive necessary 
operating and performance documentation, and improvement of aircraft 
identification in registry records. In a study of airbag restraints in 
GA aircraft, the NTSB concluded that aviation airbags can mitigate 
occupant injuries in some severe but survivable crashes.\8\ In 2010, 
the NTSB looked at ``glass cockpits'' in GA, which are the newer 
electronic displays in some planes.\9\ The results of this study 
suggested at the time that the introduction of glass cockpits had not 
yet resulted in a measurable improvement in safety when compared to 
similar aircraft with conventional instruments. There is a need to 
ensure pilots have system specific knowledge to safely operate aircraft 
with glass cockpit avionics and to capture maintenance and operational 
information to assess the reliability of glass cockpit avionics.
---------------------------------------------------------------------------
    \5\ NTSB, Drug Use Trends in Aviation: Assessing the Risk of Pilot 
Impairment, No. NTSB/SS-14/01 (September 9, 2014).
    \6\ NTSB, Special Investigation Report on the Safety of 
Agricultural Aircraft Operations, No. NTSB/SIR-14/01 (May 7, 2014).
    \7\ NTSB, The Safety of Experimental Amateur-Built Aircraft, No. 
NTSB/SS-12/01 (May 22, 2012).
    \8\ NTSB, Airbag Performance in General Aviation Restraint Systems, 
No. NTSB/SS-11/01 (January 11, 2011).
    \9\ NTSB, Introduction of Glass Cockpit Avionics into Light 
Aircraft, No. NTSB/SS-10/01 (March 9, 2010).
---------------------------------------------------------------------------
    We will continue our efforts to improve the safety record of 
general aviation, and we look forward to finding new and innovative 
ways to communicate this message to more pilots and mechanics.
Strengthening Procedural Compliance
    The NTSB continues to seek new ways to strengthen procedural 
compliance, from identifying inadequate procedures, to ensuring 
comprehensive training, to reemphasizing practices that reinforce crew 
compliance. Recent accidents underscore the importance of procedural 
compliance. In 2013 there were two major controlled flight into terrain 
accidents in which crews did not follow standard operating procedures--
Asiana flight 214 in San Francisco, California, and UPS flight 1354 in 
Birmingham, Alabama. The NTSB is examining whether procedural 
compliance may have played a role in a number of other ongoing air 
carrier accident and incident investigations as well. Over the last 10 
years, the NTSB has investigated more than a dozen airline or 
commercial charter accidents involving procedural, training or 
compliance issues.
    Sometimes crews do not comply with air carriers' standard operating 
procedures, such as flying stabilized approaches, making required 
callouts, maintaining quiet (or sterile) cockpits, and monitoring 
critical flight parameters like airspeed. But other times, the 
procedures themselves aren't good enough. For example, an airplane ran 
off the end of the runway in a case in which an airline did not require 
crews to calculate landing distance on arrival.\10\ This is only one of 
many such cases. In other cases, training does not adequately prepare 
crews.\11\
---------------------------------------------------------------------------
    \10\ NTSB, Runway Overrun and Collision Southwest Airlines Flight 
1248, Boeing 737-7H4, N471WN, Chicago Midway International Airport, 
Chicago, Illinois on December 8, 2005, Rpt. No. AAR-07-06 (October 2, 
2007).
    \11\ See e.g., NTSB, Runway Overrun During Rejected Takeoff, Global 
Exec Aviation,Bombardier Learjet 60, N999LJ, Columbia, South Carolina 
on September 19, 2008, Rpt. No. AAR-10-02 (April 6, 2010); NTSB, Loss 
of Control and Crash, Marlin Air, Cessna Citation 550, N550BP, 
Milwaukee, Wisconsin on June 4, 2007, Rpt. No. 09-06 (October 14, 
2009).
---------------------------------------------------------------------------
    Aviation accidents and incidents can be prevented through 
collaborative efforts by crews, operators, and regulators. Working 
together, they can develop effective procedures and training, and 
ensure that crews do what they are trained to do. I am a strong 
believer in the power of collaboration to produce continuous 
improvement because of the amazing safety improvement that this 
industry has enjoyed as a result of its collaborative process known as 
CAST, the Commercial Aviation Safety Team. The core of the CAST process 
is very simple: everyone who is involved with this issue--in this case, 
further reducing the risk of aviation fatalities and improving a safety 
record that is already very good--should be involved in developing the 
solution, including industry, organizations representing employees, and 
government agencies. This model has more recently been extended to the 
general aviation community through the General Aviation Joint Steering 
Committee (GAJSC) which uses the CAST processes to improve GA safety 
through data-driven risk reduction efforts that focus on education and 
training. Similarly, GAJSC participants include the FAA and industry 
stakeholders such as pilot organizations, instructors, mechanics, 
builders and manufacturers. Collective and collaborative leadership is 
needed to promote and reinforce a culture of continuous safety 
improvement beyond mere compliance--a culture essential to safety.
Pilot Training and Professionalism and Disconnecting from Distractions
    Colgan Air flight 3407 crashed on approach to the Buffalo Niagara 
International Airport in Buffalo, NY on February 12, 2009.\12\ As a 
result of that accident investigation, the NTSB issued recommendations 
to address pilot and crew training, maintaining detailed training 
records, making this information available to other airlines that are 
considering hiring a pilot, and mentoring and professionalism 
programs.\13\ Congress enacted some of these recommendations into law 
in the Airline Safety and Federal Aviation Administration Extension Act 
of 2010 (the 2010 Act), such as the requirement that FAA create a new 
centralized database of FAA and air carrier pilot records that are 
retained for the life of a pilot and that airlines review those records 
during the hiring process.\14\ These recommendations \15\ remain open 
as the FAA works to develop a notice of proposed rulemaking (NPRM) to 
create a pilot records database (PRD), and we will determine if the 
rulemaking meets the intent of the recommendations. While some of the 
NTSB's recommendations have been or are being addressed by FAA, other 
recommendations concerning pilot leadership training and 
professionalism remain open with unacceptable responses.\16\ Also, in 
the Colgan Air flight 3407 accident investigation, we found that 
industry changes, including two-pilot cockpits, had resulted in 
opportunities for pilots to upgrade to captain without having 
accumulated significant experience as a first officer in a Part 121 
operation. Without important opportunities for mentoring and 
observational learning, which characterize time spent in journeyman 
pilot positions, it was difficult for a pilot to acquire effective 
leadership skills to manage a multicrew airplane.
---------------------------------------------------------------------------
    \12\ NTSB, Loss of Control on Approach: Colgan Air, Inc. Operating 
as Continental Connection Flight 3407, Bombardier DHC-8-400, N200WQ, 
Clarence Center, New York on February 12, 2009, Rpt. No. AAR-10-01 
(February 2, 2010).
    \13\ A-10-10 through -34; reiterated recommendations A-05-1, A-05-
14, and A-07-13.
    \14\ Pub. L. 111-216, August 1, 2010.
    \15\ A-10-17 through -20.
    \16\ Recommendations A-10-10, -16, and -30 have been closed with 
unacceptable action. Recommendations A-10-13, -14, -15, and -22 remain 
open with unacceptable responses.
---------------------------------------------------------------------------
    The 2010 Act included a mandate for the FAA to develop regulations 
to encourage and promote airline flight crew professionalism and 
mentoring. The FAA developed an NPRM and submitted it to the Office of 
Management and Budget in May 2011. Three years later, in April 2014, 
the NPRM was returned to the FAA for revisions. As of today, despite 
the 2010 Act, the NPRM has not yet been published.
    In addition to Colgan Air, we have seen other accidents and 
incidents that are tragic reminders that more needs to be done to 
improve aviation safety. As we have learned through our accident 
investigations, when flight crews and controllers deviate from standard 
operating procedures and established best practices, the consequences 
can be tragic.

  <bullet> In the March 15, 2012, fatal crash following an in-flight 
        fire involving a Convair CV-440-38, N153JR, operated by Fresh 
        Air, Inc, the flight crew's failure to maintain adequate 
        airspeed after shutting down the right engine due to an in-
        flight fire resulted in either an aerodynamic stall or a loss 
        of directional control.\17\
---------------------------------------------------------------------------
    \17\ NTSB, Crash Following In-Flight Fire Fresh Air, Inc. Convair 
CV-440-38, N153JR, San Juan, Puerto Rico on March 15, 2012, Rpt. No. 
AAR-14-04 (November 17, 2014).

  <bullet> In the July 31, 2008, accident involving East Coast Jets 
        flight 81, a Hawker Beechcraft Corporation 125-800A, N818MV, 
        crashed while attempting to go around after landing on runway 
        30 at Owatonna Degner Regional Airport, Owatonna, Minnesota. 
        The two pilots and six passengers were killed, and the airplane 
        was destroyed by impact forces. The captain allowed an 
        atmosphere in the cockpit that did not comply with well-
        established procedures, and this atmosphere permitted 
        inadequate briefing of the approach and monitoring of the 
        current weather conditions; inappropriate conversation; 
        nonstandard terminology; and a lack of checklist discipline 
        throughout the descent and approach phases of the flight.\18\
---------------------------------------------------------------------------
    \18\ NTSB, Crash During Attempted Go-Around After Landing, East 
Coast Jets Flight 81, Hawker Beechcraft Corporation 125-800A, N818MV, 
Owatonna, Minnesota on July 31, 2008 7, Rpt. No. AAR-11-01 (March 15, 
2011).

  <bullet> An engine fire on an American Airlines MD-80 in 2007 
        involved a crew engaged in non-pertinent discussion during taxi 
        and after landing ``indicating that a casual atmosphere existed 
        in the cockpit.'' This casual atmosphere ``before takeoff 
        affected and set a precedent for the pilots' responses to the 
        situations in flight and after landing, eroding the margins of 
        safety provided by the SOPs and checklists, and increased the 
        risk to passengers and crews.'' \19\
---------------------------------------------------------------------------
    \19\ NTSB, In-Flight Left Engine Fire American Airlines Flight 
1400, McDonnell Douglas DC-9-82, N454AA, St. Louis, Missouri on 
September 28, 2007, Rpt. No. AAR-09-03 (April 7, 2009).

  <bullet> In the 2006 fatal wrong runway takeoff accident in 
        Lexington, KY, involving Comair, it was ``the flight crew's 
        noncompliance with standard operating procedures [which] . . . 
        most likely created an atmosphere in the cockpit that enabled 
        the crew's errors.'' Contributing to the probable cause was 
        ``the flight crew's non-pertinent conversation during taxi, 
        which resulted in a loss of positional awareness.'' \20\
---------------------------------------------------------------------------
    \20\ NTSB, Attempted Takeoff From Wrong Runway, Comair Flight 5191 
Bombardier CL-600-2B19, N431CA, Lexington, Kentucky on August 27, 2006, 
Rpt. No. AAR-07-05 (July 26, 2007).

    Another concern for the NTSB is the mode confusion that can result 
from increasing automation. A classic accident of this type was the 
crash of Asiana Airlines flight 214 in 2013 when it struck a seawall 
while on approach to San Francisco International Airport.\21\ The 
pilots relied too much on automation that they didn't fully understand 
and mismanaged the landing as it went wrong. As the airplane reached 
500 feet above the airport elevation, the approach was not stabilized 
as the airplane was slightly above the desired glidepath. The descent 
rate was too high, and the airspeed was decreasing. Based on these 
indications, the flight crew should have determined that the approach 
was unstabilized and initiated a go-around, but they did not do so. The 
crew did not become aware of the problem until the airplane reached 200 
feet, and did not initiate a go-around until the airplane was below 100 
feet, at which point the airplane did not have the performance 
capability to accomplish a go-around. The flight crew's insufficient 
monitoring of airspeed indications during the approach resulted in part 
from over reliance on automation. Unfortunately, this manifests a 
problem that is industry-wide, and not just limited to these pilots 
having a bad day. The bottom line is that automation is very 
beneficial, and it has a demonstrated history of improving safety, 
reliability, and productivity. Unfortunately, however, the industry 
still has a way to go to achieve a better understanding of the human/
automation interface.
---------------------------------------------------------------------------
    \21\ NTSB, Descent Below Visual Glidepath and Impact With Seawall, 
Asiana Airlines Flight 214 Boeing 777-200ER, HL7742, San Francisco, 
California on July 6, 2013, Rpt. No. AAR-14-01 (June 24, 2014).
---------------------------------------------------------------------------
    Last but not least, while new connectivity has enabled new safety 
technologies, it has also enabled new forms of distraction, leading to 
accidents, even in the most strictly regulated transportation 
enterprise of aviation. As a result of the NTSB's investigation of both 
Northwest Flight 188 that overflew its Minneapolis destination because 
the pilot and co-pilot were distracted by their laptops and Colgan Air 
Flight 3407, where the first officer sent a text message on her 
personal cell phone during the taxi phase of the accident flight, we 
issued a safety recommendation to the FAA to amend the Federal Aviation 
Regulations (FAR) to require Part 121, 135, and 91 subpart K operators 
to incorporate explicit guidance to pilots prohibiting the use of 
personal portable electronic devices on the flight deck.\22\ In 
addition, Congress mandated that the FAA promulgate a rule which would 
prohibit the use of personal wireless communications devices and laptop 
computers by flight crewmembers during all phases of flight in Part 121 
operations. The FAA issued an NPRM for this requirement in January 
2013.\23\ The NTSB submitted comments to the docket in support of the 
proposed rule but recommended that the final rule incorporate the 
broader scope of its February 2010 safety recommendation by expanding 
the proposed rule to Part 135 and 91 subpart K operators. The final 
rule, published in February 2014,\24\ limited the prohibition to flight 
crew members in operations under Part 121. While the final rule is a 
step in the right direction, it is not enough and more needs to be done 
to expand the applicability of the rule to Part 135 and 91 subpart K 
operators. Accidents like that on August 26, 2011, near Mosby, 
Missouri, involving an Emergency Medical Service helicopter and a 
distracted pilot drive this fact home. All on board that helicopter 
were killed in the accident.\25\
---------------------------------------------------------------------------
    \22\ A-10-30.
    \23\ 78 Fed. Reg. 2912 (January 15, 2013).
    \24\ 79 Fed. Reg. 8257 (February 12, 2014).
    \25\ NTSB, Crash Following Loss of Engine Power Due to Fuel 
Exhaustion Air Methods Corporation Eurocopter AS350 B2, N352LN, Near 
Mosby, Missouri, August 26, 2011, Rpt. No. AAR-13-02 (April 9, 2013).
---------------------------------------------------------------------------
Requiring Fitness for Duty, Ending Substance Impairment, and Addressing 
        Human Fatigue
    Requiring Medical Fitness for Duty is on the NTSB's 2015 Most 
Wanted List in order to bring attention to this critical issue in all 
modes of transportation.\26\ Medical conditions and treatments that 
impair transportation professionals' performance directly affect 
safety. To mitigate the risk to the public, the NTSB has made 
recommendations for a comprehensive medical certification system for 
safety-critical transportation personnel, including these features:
---------------------------------------------------------------------------
    \26\ http://www.ntsb.gov/safety/mwl/Documents/
MWL_2015_Factsheet_08.pdf.

  <bullet> a complete medical history of the applicant, taken at 
        prescribed intervals, that includes medications, conditions, 
---------------------------------------------------------------------------
        and treatments as well as a physical examination

  <bullet> specific historical questions and physical examination 
        procedures to identify applicants at high risk for sleep 
        disorders

  <bullet> identification of specific conditions, treatments, and 
        medications that initially disqualify applicants for duty, with 
        certification contingent on further testing (specific to each 
        condition)

  <bullet> explicit and uniform processes and criteria for determining 
        when the applicant has a treated but otherwise disqualifying 
        condition

  <bullet> certificates that are good only for a limited time for 
        applicants with conditions that are currently stable but known 
        to be likely to deteriorate, to ensure appropriate retesting

  <bullet> medical examiners who

    <ctr-circle> are licensed or registered to both perform 
            examinations and prescribe medication in a given state;

    <ctr-circle> are specifically trained and certified to perform 
            medical certification exams; and

    <ctr-circle> have ready access to information regarding 
            disqualifying conditions and required further evaluation

  <bullet> a review system for medical examiners' work product(s) with 
        both the information and capacity to identify and correct 
        errors and substandard performance

  <bullet> the capacity to prevent applicants who have been deferred or 
        denied certification from finding another provider who will 
        certify them

  <bullet> a process for dealing with conditions which could impair 
        safety and are diagnosed between certification exams.

    The medical requirements for pilots are robust. These standards are 
important because of the impact that accidents can have on public 
safety and passengers, and we find in all modes that adverse health 
conditions can lead to accidents. Some pilots are not medically fit to 
operate aircraft, and those suffering from impairing medical disorders 
should not be at the controls unless and until they receive medical 
treatment that mitigates the risk to the public.
    In addition, NTSB investigations have found impairment by various 
substances as a cause or a contributing factor in transportation 
accidents, and use of over-the-counter (OTC) and prescription 
medications as well as illicit drugs is generally increasing. Since 
there is a great amount of overlap among these groups--the same 
substance may be available by prescription or over the counter and many 
medications are also used illicitly by people without a prescription 
for their psychoactive effects--I will use the term ``drugs'' broadly 
to mean any of these substances. Aircraft are complex machinery that 
require pilots to be at their best--not impaired by alcohol or drugs. 
In September 2014, the NTSB issued a safety study that examined trends 
in the prevalence of drugs identified by toxicology testing of fatally 
injured pilots between 1990 and 2012.\27\ The goals of the study were 
to describe the prevalence of OTC, prescription, and illicit drug usage 
among fatally injured pilots over time and evaluate the need for safety 
improvements related to pilots' use of drugs. Study results showed the 
prevalence of potentially impairing drugs increased from an average of 
11 percent of fatally-injured accident pilots during the period from 
1990-1997 to an average of 23 percent of accident pilots during the 
period 2008-2012. During the same time periods, positive marijuana 
results increased from 1.6 percent to 3.0 percent. But the most 
commonly found impairing substance in fatal crashes was 
diphenhydramine, a sedating antihistamine and an active ingredient in 
many OTC allergy formulations, cold medicines, and sleep aids. Of note, 
96 percent of the pilots in this study were flying in general aviation 
operations when their fatal accident occurred.
---------------------------------------------------------------------------
    \27\ NTSB, Drug Use Trends in Aviation: Assessing the Risk of Pilot 
Impairment, No. NTSB/SS-14/01 (September 9, 2014).
---------------------------------------------------------------------------
    As a result of this safety study, the NTSB recommended that FAA: 
(1) develop, publicize, and periodically update information to educate 
pilots about the potentially impairing drugs identified in FAA 
toxicology test results of fatally injured pilots, and make pilots 
aware of less impairing alternative drugs if they are available; (2) 
obtain information about the number and flight hours of pilots flying 
without medical certificates because the FAA identifies ``active 
pilots'' as those who maintain their medical certification; (3) develop 
and distribute a clear policy regarding any marijuana use by airmen 
regardless of the type of flight; and (4) conduct a study to assess the 
prevalence of OTC, prescription, and illicit drug use among flying 
pilots not involved in accidents, and compare those results with 
findings from pilots who have died from aviation accidents to assess 
the safety risks of using those drugs while flying.\28\ In addition, 
the NTSB recommended that the 50 states, the District of Columbia, and 
the Commonwealth of Puerto Rico: (1) include in all state guidelines 
regarding prescribing controlled substances for pain a recommendation 
that health care providers discuss with patients the effect their 
medical condition and medication use may have on their ability to 
safely operate a vehicle in any mode of transportation and (2) enhance 
communication among prescribers, pharmacists, and patients about the 
transportation safety risks associated with some drugs and medical 
conditions.\29\
---------------------------------------------------------------------------
    \28\ A-14-92 through -95.
    \29\ I-14-1 and -2.
---------------------------------------------------------------------------
    In addition, fatigue remains an issue of concern. For more than 20 
years, the issue of reducing accidents caused by fatigue was on the 
NTSB's Most Wanted List of safety improvements. Since 1972, the NTSB 
has issued more than 200 human fatigue-related safety recommendations 
in all modes of transportation, including more than 53 recommendations 
addressing fatigue in aviation.\30\ For example, we have recommended 
that all pilots be appropriately evaluated for obstructive sleep apnea 
and treated, if necessary.
---------------------------------------------------------------------------
    \30\ See, e.g., A-06-10, A-08-44, and A-09-61 through -66.
---------------------------------------------------------------------------
    We removed fatigue from our Most Wanted List in November 2012 to 
acknowledge the new flight and duty time rules for commercial passenger 
operations promulgated by the FAA. For the first time, the new rules 
recognize the universal factors that lead to human fatigue such as time 
of day, length of duty day, workload, whether an individual is 
acclimated to a new time zone and the likelihood of being able to sleep 
under different circumstances. However, flight and duty time rules 
cannot control what employees do on their own time. In addition, we 
remain concerned that the new rule does not apply to cargo pilots, nor 
to Part 135 operations. Fatigue is fatigue, whether passengers or 
pallets are being transported; it degrades every aspect of human 
capability. Another fatigue issue not addressed by the new rules is 
pilot commuting; a concern the NTSB identified in the Colgan Air 
accident. We have seen the effects of fatigue in too many of our 
accident investigations. We will continue working toward one level of 
safety throughout the industry.
Enhancing Public Helicopter Safety
    On September 27, 2008, a Maryland State Police (MSP) helicopter, 
Trooper 2, received a medevac flight request to pick up two patients 
involved in an automobile accident. Trooper 2 reached the accident 
site, loaded the patients, but never reached the hospital. On June 9, 
2009, a New Mexico State Police (NMSP) helicopter pilot received a 
request for an aerial search for a lost hiker. The NMSP pilot landed 
the helicopter, located the hiker, departed from the mountain, but did 
not make it back to base. A very similar situation occurred on March 
30, 2013. The Alaska Department of Public Safety (ADPS) helicopter 
pilot received a request to rescue a stranded snowmobiler. The pilot 
landed the helicopter, located the snowmobiler, departed from the 
frozen lake, but did not reach the designated landing zone. Prior to 
accepting their missions, both the MSP and NMSP pilots expressed 
concern about weather conditions. Although the pilot of the ADPS 
helicopter did not discuss the weather with anyone, he should have been 
aware of the deteriorating conditions. However, all three pilots 
accepted and attempted to complete the missions even when faced with 
poor weather at night. And tragically, the helicopters crashed before 
reaching their destinations, killing a total of nine people. Crashes 
involving public helicopters are not just limited to those used by law 
enforcement agencies. On August 5, 2008, a U.S. Forest Service (USFS) 
helicopter conducting firefighting missions in California impacted 
trees and terrain during the initial climb after takeoff. The pilot, 
the safety crewmember and seven firefighters were killed in this 
accident.
    As a result of the 2008 USFS accident in California, the NTSB 
recommended that FAA develop and implement a surveillance program 
specifically for Part 135 civil aircraft operators that provides 
contract support to government entities in order to maintain continual 
oversight to ensure compliance with Part 135 requirements.\31\ The NTSB 
also recommended the FAA take appropriate actions to clarify FAA's 
authority over public aircraft and identify and document where such 
oversight responsibilities reside in the absence of FAA authority.\32\ 
In 2014, the FAA published an Advisory Circular \33\ which sought to 
clarify oversight responsibilities for civil aircraft operators 
providing contract support to government entities, as recommended. 
However, the Advisory Circular does not provide for continual FAA 
oversight of the airworthiness of aircraft that hold civil 
airworthiness certificates and that operate part of the time as public 
aircraft and part of the time as civil aircraft--a position that is 
contrary to current guidance in FAA Order 8900.1. We strongly encourage 
FAA to revise the Advisory Circular to provide for this oversight.
---------------------------------------------------------------------------
    \31\ A-10-149.
    \32\ A-10-150.
    \33\ FAA, Advisory Circular 00-1.1A: Public Aircraft Operations 
(February 12, 2014).
---------------------------------------------------------------------------
    Since 2004, the NTSB has investigated more than 130 accidents 
involving federal, state, and local public helicopter operations, 
including the 4 mentioned above. Fifty people lost their lives and 
nearly 40 were seriously injured in these accidents. The lessons 
learned as a result of these investigations have the potential to make 
federal, state, and local public helicopter operations safer.
Aircraft Recorder Recommendations
    Notwithstanding the NTSB's nearly 50 years of aviation accident 
investigations and role in securing improvements in recorder 
capabilities and locator technologies, the NTSB clearly recognizes that 
sophisticated aircraft accident investigation and analysis cannot be 
accomplished without recorded flight data. In order for our important 
work to continue and make a difference in saving lives, we must ensure 
that the technologies are available to locate aircraft wreckage and 
recorders after an accident and that critical flight data can be 
recovered.
    The NTSB has long been concerned about rapid recovery of recorded 
information to guide investigations, help determine accident causes, 
and develop recommendations to prevent recurrences. To focus attention 
on this issue, the NTSB convened its Emerging Flight Data and Locator 
Technology Forum on October 7, 2014, in Washington, D.C.\34\ Forum 
discussions among government, industry, and investigative experts 
helped identify the following safety issues:
---------------------------------------------------------------------------
    \34\ Additional information about the forum is available at http://
www.ntsb.gov/news/events/Pages/2014_Flight_Data_Locator_FRM.aspx.

  <bullet> The need for improved technologies to locate aircraft 
        wreckage and flight recorders following an accident in a remote 
---------------------------------------------------------------------------
        location or over water

  <bullet> The need for timely recovery of critical flight data 
        following an accident in a remote location or over water

    Other noteworthy information provided at the forum includes the 
following:

  <bullet> Deployable recorder technologies: These technologies can be 
        used to recover flight data without the delay of a long and 
        expensive underwater recovery. Deployable recorders have been 
        used in military and over water helicopter applications since 
        the 1960s and are currently available from several 
        manufacturers. They combine traditional flight data recorder 
        and cockpit voice recorder functions into one unit and are 
        capable of providing a comparable amount of flight data. They 
        are designed to separate from the aircraft upon fuselage 
        structural deformation or when submersed in water. If in water, 
        they float indefinitely on the surface. These units are also 
        equipped with emergency locator transmitters that operate on 
        the 121.5 megahertz and 406 megahertz frequencies for location 
        and recovery. Standards already exist for automatically 
        deploying flight recorders.

  <bullet> Triggered flight data transmission: A manufacturer of flight 
        data transmission technology testified that triggered flight 
        data transmission was not only feasible, but already in service 
        on some aircraft. Additionally, at this time, manufacturers and 
        operators are equipping their aircraft with commercial 
        satellite communications systems that can support broadband 
        video, voice, and data transmissions. Commercial satellite 
        systems on the market today are primarily used for passenger 
        and crew connectivity and can support speeds of 200-400 
        kilobits per second. Higher speed capability is forthcoming. 
        Such bandwidth would enable real-time parametric flight data 
        transmission to begin after a triggering event as well as 
        transmission of a limited amount of stored flight data recorded 
        before the triggering event.

    On January 22, 2015, the NTSB issued a series of safety 
recommendations to the FAA \35\ calling for improvements in locating 
downed aircraft and ways to obtain critical flight data faster and 
without the need for immediate underwater retrieval. In issuing its 
recommendations, the NTSB recognized that there are significant ongoing 
international industry and regulatory efforts to develop and adopt 
standards for enhanced aircraft position reporting and supplemental 
methods for recovering flight data. Achieving these goals on a global 
basis will demand a harmonized approach that addresses the needs of 
many stakeholders and ensures that domestic and foreign parties operate 
under equivalent standards. We also strongly support the need for 
performance-based standards for emerging technologies and data 
recovery. We applaud Ambassador Lawson and the International Civil 
Aviation Organization (ICAO) for their continued important work in 
addressing these issues.
---------------------------------------------------------------------------
    \35\ A-15-1 through -6.
---------------------------------------------------------------------------
    The NTSB recommendations urge the FAA to:

  <bullet> Require that all aircraft used in extended overwater 
        operations (i.e., operations that occur over water at a 
        distance of more than 50 nm from the nearest shoreline) and 
        operating under Part 121 or Part 135 of the FAR that are 
        required to have a flight data recorder and cockpit voice 
        recorder be equipped with

    <ctr-circle> a tamper-resistant method to broadcast to a ground 
            station sufficient information to establish the location 
            where an aircraft terminates flight as the result of an 
            accident within 6 nautical miles of the point of impact, 
            and

    <ctr-circle> an airframe low frequency underwater locating device 
            that will function for at least 90 days and that can be 
            detected by equipment available on military, search and 
            rescue, and salvage assets commonly used to search for and 
            recover wreckage.

  <bullet> Require that all newly manufactured aircraft used in 
        extended overwater operations and operating under Part 121 or 
        Part 135 of the FAR that are required to have a flight data 
        recorder and cockpit voice recorder be equipped with a means to 
        recover, at a minimum, mandatory flight data parameters; the 
        means of recovery should not require underwater retrieval. Data 
        should be captured from a triggering event until the end of the 
        flight and for as long a time period before the triggering 
        event as possible.

  <bullet> Coordinate with other international regulatory authorities 
        and ICAO to harmonize the implementation of the above-
        identified requirements recommended by the NTSB for locating 
        where an aircraft terminates flight as the result of an 
        accident and recovery of mandatory flight data parameters.

  <bullet> Identify ways to incorporate adequate protections against 
        disabling flight recorder systems on all existing transport 
        category aircraft.

  <bullet> Require that all newly manufactured transport category 
        aircraft incorporate adequate protections against disabling 
        flight recorder systems.

    In addition, the NTSB has continued to re-emphasize the need for 
cockpit image recorders on commercial airplanes. In 2000, the NTSB 
issued two safety recommendations to the FAA on cockpit image recording 
systems and protection against deactivation of recording systems in 
response to investigations of several accidents involving a lack of 
information regarding crewmember actions and the flight deck 
environment, including ValuJet Flight 592, SilkAir Flight 185, Swissair 
Flight 111, and EgyptAir Flight 990. One recommendation \36\ asked the 
FAA to require that that in-service aircraft operated under 14 CFR Part 
121, 125, or 135 be equipped with a crash-protected cockpit image 
recording system. The second recommendation \37\ asked for similar 
action for newly manufactured aircraft that would be operated under 14 
CFR Part 121, 125, or 135. Both recommendations also asked that the FAA 
require placing recorder system circuit breakers in locations the 
flight crew could not access in-flight.
---------------------------------------------------------------------------
    \36\ A-00-30. In 2006, the NTSB reiterated A-00-30 as a result of 
its investigation of a 2004 accident involving Corporate Airlines 
Flight 5966, a BAE-J3201 aircraft, in Kirksville, Missouri.
    \37\ A-00-31.
---------------------------------------------------------------------------
    In the SilkAir and EgyptAir crashes, the flight data recorder and 
cockpit voice recordings provided limited information about crew 
actions and the status of the cockpit environment. Further, in the Air 
France Flight 447 crash and the September 3, 2010, crash of a Boeing 
747-44AF, operated by United Parcel Service while attempting to return 
to Dubai International Airport following an in-flight cargo fire, the 
accident aircraft were equipped with FDRs that greatly exceeded the 
minimum parameter requirements. However, in these accidents, critical 
information related to the cockpit environment conditions (for example, 
crew actions and visibility), instrument indications available to 
crewmembers, and the degradation of aircraft systems was not available 
to investigators. Modern cockpit imaging systems can provide the 
information needed to help determine the cause of these types of 
accidents and to identify revisions needed to prevent a reoccurrence of 
the accident.
Air Transportation of Lithium Batteries
    There are two types of lithium batteries: primary and secondary. 
Primary lithium batteries are non-rechargeable and are commonly used in 
items such as watches and pocket calculators. They contain metallic 
lithium that is sealed in a metal casing. The metallic lithium will 
burn when exposed to air if the metal casing is damaged, compromised, 
or exposed to sustained heating. Secondary lithium batteries, also 
known as lithium-ion batteries, are rechargeable and are commonly used 
in items such as cameras, cell phones, laptop computers, and hand power 
tools. Secondary lithium batteries contain electrically charged lithium 
ions, and a flammable liquid electrolyte. External damage or 
overheating of the battery can result in thermal runaway or the 
discharge of flammable electrolyte. Another type of secondary battery, 
known as lithium polymer batteries, contains a flammable polymeric 
material rather than a liquid, as the electrolyte. Halon suppression 
systems, the only fire suppression systems certified for aviation, can 
be used to help control flames in lithium battery fires but will not 
extinguish the fire.
    The demand for primary and secondary lithium batteries has 
skyrocketed since the mid-1990s as the popularity and use of electronic 
equipment of all types has grown. As the use of lithium batteries has 
increased, the number of incidents involving fires or overheating of 
lithium batteries, particularly in aviation, has likewise grown. The 
NTSB has investigated three such aviation accidents: Los Angeles, 
California (1999); Memphis, Tennessee (2004); and Philadelphia, 
Pennsylvania (2006). In addition, the NTSB has participated in the 
investigations of two accidents involving fires that may be related to 
lithium batteries that occurred on cargo airline flights operating in 
foreign countries: Dubai, United Arab Emirates (2010), and Jeju Island, 
Republic of Korea (2011).
    The fires in these accidents included both primary and secondary 
lithium batteries, and the NTSB issued several recommendations as a 
result of these investigations. As a result of its investigation of the 
Los Angeles and Memphis incidents, the NTSB recommended that the 
Pipeline and Hazardous Materials Safety Administration (PHMSA), with 
the FAA, evaluate the fire hazards posed by lithium batteries in an 
aviation environment and require that appropriate safety measures be 
taken to protect the aircraft and occupants. The NTSB also recommended 
that packages containing lithium batteries be identified as hazardous 
materials, including appropriate labeling of the packages and proper 
identification in shipping documents when transported on aircraft. 
These recommendations have been closed with acceptable action by the 
regulators.
    Following the Philadelphia accident, the NTSB issued six safety 
recommendations urging PHMSA to address the problems with lithium 
batteries on a number of fronts, including reporting all incidents; 
retaining and analyzing failed batteries; researching the modes of 
failure; and eliminating regulatory provisions that permit limited 
quantities of these batteries to be transported without labeling, 
marking, or packaging them as hazardous materials. In January 2008, the 
NTSB issued additional recommendations to PHMSA and the FAA to address 
the NTSB's concerns about the lack of public awareness about the 
overheating and ignition of lithium batteries. PHMSA issued an NPRM 
\38\ in January 2010 to address some of these recommendations, and the 
final rule was issued in August 2014.\39\ The final rule is discussed 
in further detail below.
---------------------------------------------------------------------------
    \38\ 75 Fed. Reg. 1302 (January 11, 2010).
    \39\ 79 Fed. Reg. 46012 (August 6, 2014).
---------------------------------------------------------------------------
    In September 2010, a Boeing 747-400F, operated by UPS, crashed on a 
military base in Dubai, United Arab Emirates (UAE), while the crew was 
trying to return to the airport for an emergency landing due to a fire 
in the main deck cargo compartment. Both crewmembers died as a result 
of injuries sustained during the crash, and the aircraft was a total 
loss. The UAE led this investigation,\40\ and issued a final report on 
July 24, 2013.\41\ The report found that at least three shipments of 
lithium ion battery packs that meet Class 9 hazardous material 
designation were onboard. In addition, in July 2011, a Boeing 747-400F, 
operated by Asiana Cargo and transporting a large quantity of lithium 
batteries, crashed about 70 miles west of Jeju Island, Republic of 
Korea, after the flight crew declared an emergency due to a cargo fire 
and attempted to divert to Jeju International Airport. Again, both 
crewmembers died as result of injuries sustained during the crash, and 
the aircraft was a total loss.
---------------------------------------------------------------------------
    \40\ Foreign investigative entities have authority equivalent to 
the NTSB under ICAO Annex 13. For this accident, in particular, the 
NTSB has been involved as the accredited representative as the State of 
Operator, Registration, and Manufacturer. The operator, manufacturers, 
and regulator (FAA) are technical advisors to the NTSB accredited 
representative. The NTSB plans to issue recommendations based on the 
findings of the UAE investigation.
    \41\ General Civil Aviation Authority of the United Arab Emirates, 
Uncontained Cargo Fire Leading to Loss of Control Inflight and 
Uncontrolled Descent into Terrain, (July 24, 2013). Available at http:/
/www.gcaa.gov.ae/en/ePublication/admin/iradmin/Lists/Incidents%20Inves
tigation%20Reports/Attachments/40/2010-
2010%20%20Final%20Report%20%20Boeing%20747-
44AF%20%20N571UP%20%20Report%2013%202010.pdf
---------------------------------------------------------------------------
    The NTSB held a public forum in April 2013 on lithium ion batteries 
in transportation.\42\ We learned that lithium ion batteries are 
becoming more prevalent in the various transportation modes, national 
defense, and space exploration. Panelists stated that because of their 
high energy density and light weight, these batteries are natural 
choices for energy. These benefits, however, also are the source of 
safety risks. We also heard about manufacturing auditing, robust 
testing, and monitoring and protection mechanisms to prevent a 
catastrophic event.
---------------------------------------------------------------------------
    \42\ Additional information about the forum is available at http://
www.ntsb.gov/news/events/Pages/2013_Lithium_Batteries_FRM.aspx.
---------------------------------------------------------------------------
    When Congress enacted the FAA Modernization and Reform Act of 2012, 
it included a provision (section 828) that U.S. hazardous materials 
regulations (HMR) on the air transportation of lithium metal cells or 
batteries or lithium ion cells or batteries could not exceed the ICAO 
Technical Instructions for the Safe Transport of Dangerous Goods by 
Air. Consequently, in January 2013, PHMSA published an NPRM stating 
that it was considering harmonizing requirements in the HMR on the 
transportation of lithium batteries with changes adopted in the 2013-
2014 ICAO Technical Instructions and requested additional comments on 
(1) the effect of those changes, (2) whether to require compliance with 
the ICAO Technical Instructions for all shipments by air, both domestic 
and international, and (3) the impacts if PHMSA failed to adopt 
specific provisions in the ICAO Technical Instructions into the 
HMR.\43\ In the NTSB's comments on the NPRM, we noted the disparity 
between requirements in the HMR, which had weaker standards at the 
time, and the ICAO Technical Instructions. We explained that failure to 
require domestic shipments of lithium batteries to comply with 
regulations equivalent to the ICAO Technical Instructions would place 
the United States in an inexplicable position of having weaker safety 
standards at a time when it should be leading the way in response to 
serious safety concerns about transporting these materials. PHMSA's 
final rule harmonized the HMR with the ICAO Technical Instructions as 
well as with applicable provisions of the United Nations Model 
Regulations and the International Maritime Dangerous Goods (IMDG) 
Code.\44\
---------------------------------------------------------------------------
    \43\ 78 Fed. Reg. 1119 (January 7, 2013).
    \44\ 79 Fed. Reg. 46012 (August 6, 2014).
---------------------------------------------------------------------------
    The NTSB notes the DOT has for some years worked to ensure that the 
HMR are compatible with international standards and, accordingly, has 
been very active in the development of international standards for the 
transportation of hazardous materials. However, the DOT has never 
relinquished its rulemaking authority to an international body. The 
NTSB concurs with that position and firmly believes the DOT should 
implement more stringent standards in U.S. regulations if deemed 
necessary.
Update on Crash of Scaled Composites' SpaceShip Two
    On October 31, 2014, Scaled Composites' SpaceShip Two crashed in 
the Mojave Desert during a test flight. The NTSB launched a go team 
under our authority to investigate the accident. This is not the first 
commercial space investigation the NTSB has conducted, and we believe 
there are important safety lessons to learn as a result of this 
investigation. Our final report, which we expect to release later this 
summer, will cover topics such as human factors, vehicle systems, and 
operations. We will inform Congress and the public of our findings when 
the investigation is completed.
Closing
    Madame Chairman, the NTSB has a long record of support for 
improving aviation safety. As you know, our mission is to promote 
safety, and the implementation of our recommendations in these areas 
would help promote and improve safety.
    Thank you for the opportunity to testify before you today. I look 
forward to responding to your questions.
                                 ______
                                 

        NTSB Safety Alert, National Transportation Safety Board

Mechanics: Prevent Misrigging Mistakes
Verify correct directional travel of controls and trim
The problem
  <bullet> Incorrect rigging of flight control and trim systems has led 
        to in-flight emergencies, accidents, and even deaths.

  <bullet> Four such mishaps within a 2-year span share common safety 
        issues:

    <ctr-circle> Maintenance personnel who serviced or checked the 
            systems did not recognize that the control or trim surfaces 
            were moving in the wrong direction.

    <ctr-circle> Pilots who flew the airplanes did not notice the 
            control anomalies during their preflight checks.

  <bullet> Anyone can make mistakes. In some cases, the mechanics who 
        performed the work incorrectly were highly experienced.
Related incident and accidents:
  <bullet> In December 2014, the pilot of a Cessna T182T airplane 
        experienced extreme nose-down control forces on the yoke 
        shortly after takeoff. The airplane had just undergone 
        maintenance on the elevator trim system, and the mechanic 
        briefed the pilot about the work before the flight. Both the 
        pilot and the pilot-certificated passenger needed to pull hard 
        aft on the yoke to prevent the airplane from pitching down, 
        even though the elevator pitch trim indicator showed a nearly 
        full nose-up trim position. The pilot remembered that work had 
        been done on the elevator trim system, and he thought that 
        there might be some kind of control-reversal problem. While 
        maneuvering for the emergency landing, the pilot applied nose-
        down trim control inputs and found that the extreme control 
        forces lessened, and he successfully landed the airplane. The 
        elevator trim control cables were misrigged such that the 
        elevator trim control was reversed. The mechanic who performed 
        the work had 26 years of experience and described that he had 
        carefully checked the trim tab deflection angles. However, he 
        did not recognize that the trim tab moved in the wrong 
        direction. The mechanic who checked the work had 24 years of 
        experience and noted that the cable rigging problem could not 
        be clearly visually identified through the airplane's access 
        panel. The maintenance manual provided the following 
        information: ``Make sure that the trim tab moves in the correct 
        direction when it is operated by the trim wheel. NOTE: Nose 
        down trim corresponds to the tab UP position.'' (CEN15IA079) 
        \1\
---------------------------------------------------------------------------
    \1\ These pilots and the mechanic are featured in the NTSB's safety 
video, ``Airplane Misrigging: Lessons Learned from a Close Call,'' 
which is available on the NTSB's safety videos web page at http://
www.ntsb.gov/safety/safety-alerts/Pages/Safety-Videos.aspx.

  <bullet> In May 2013, the pilot of a Schweizer SGS 2-33A glider 
        received serious injuries after the glider crashed due to 
        improper rigging of the rudder control cables. The glider had 
        just received an annual inspection, and its rudder had been 
        removed and reinstalled. The mechanic who conducted a flight 
        control check after the annual inspection with assistance from 
        another pilot seated in the cockpit stated that he confirmed 
        movement of the rudder while at the rear of the glider; 
        however, he did not see which pedal the pilot was pushing and 
        did not verbally confirm the corresponding position of the 
        rudder pedals. The mechanic had 35 years of experience and had 
---------------------------------------------------------------------------
        assembled hundreds of gliders. (ERA13LA229)

  <bullet> In October 2013, the private pilot and passenger in a Piper 
        PA-22 received serious injuries when the airplane crashed 
        during takeoff on its first flight since an annual inspection 
        in which frayed elevator control cables were replaced. During 
        the takeoff roll, when the pilot applied forward stick controls 
        to raise the tail, the tail did not rise, and the airplane 
        instead ``jumped'' off the runway. The pilot reduced engine 
        power and attempted to control the airplane's pitch, but it 
        responded abnormally and crashed. The elevator control cables 
        were installed incorrectly such that the elevator moved in the 
        direction opposite to that commanded. (ERA14LA015)

  <bullet> In July 2014, the pilot of a Piper PA-12 airplane was 
        fatally injured after his airplane pitched up steeply during 
        takeoff and crashed after the airplane had undergone extensive 
        maintenance. The elevator control cables were installed 
        incorrectly such that the elevator moved in the direction 
        opposite to that commanded. (ANC14FA050)
What can maintenance personnel do?
  <bullet> Become familiar with the normal directional movement of the 
        controls and surfaces before disassembling the systems. It is 
        easier to recognize ``abnormal'' if you are very familiar with 
        what ``normal'' looks like.

  <bullet> Carefully follow manufacturers' instructions to ensure that 
        the work is completed as specified. Always refer to up-to-date 
        instructions and manuals--including airworthiness directives, 
        maintenance alerts, special airworthiness information 
        bulletins, and unapproved parts notifications--when performing 
        a task.

  <bullet> Be aware that some maintenance information, especially for 
        older airplanes, may be nonspecific. Ask questions of another 
        qualified person if something is unfamiliar.

  <bullet> Remember that well-meaning, motivated, experienced 
        technicians can make mistakes: fatigue, distraction, stress, 
        complacency, and pressure to get the job done are some common 
        factors that can lead to human errors. Learn about and adhere 
        to sound risk management practices to help prevent common 
        errors.

  <bullet> Ensure that the aircraft owner or pilot is thoroughly 
        briefed about the work that has been performed. This may prompt 
        them to thoroughly check the system during preflight or help 
        them successfully troubleshoot if an in-flight problem occurs.
Interested in more information?
    The reports for the accidents referenced in this safety alert are 
accessible by NTSB accident number from the Accident Database and 
Synopses web page at http://www.ntsb.gov/_layouts/ntsb.aviation/
index.aspx.\2\ Each accident's public docket is accessible from the 
NTSB's Docket Management System web page at http://dms.ntsb.gov/
pubdms/.
---------------------------------------------------------------------------
    \2\ Less-recent fatal accidents that may also be of interest are 
CHI05FA038, CHI08MA270, and DCA03MA002.
---------------------------------------------------------------------------
    Education and training are critical to improving GA safety. The 
Federal Aviation Administration (FAA) Safety Team (FAASTeam) provides 
access to online training courses, seminars, and webinars to provide 
mechanics with recurrent training that focuses on accident and incident 
causal factors, special emphasis items, and regulatory issues. The 
courses listed below (and many others), as well as seminar and webinar 
information, can be accessed from the FAASTeam website at 
www.faasafety.gov. (Course access requires login through an existing 
free FAASTeam account or creating a new one.)

  <bullet> Dirty Dozen: Human Error in Aircraft Maintenance

  <bullet> Human Factors Primer for Aviation Mechanics

  <bullet> Failure to Follow Procedures: Installation

  <bullet> Failure to Follow Procedures: Inspections

  <bullet> Aircraft Maintenance Documentation for AMTs

  <bullet> Fatigue Countermeasure Training

    ``Aviation Maintenance Technician Handbook--General'' (FAA-H-8083-
30) includes an ``Addendum/Human Factors,'' which discusses the human 
factors-related conditions behind most maintenance errors. The addendum 
(which is also called chapter 14) can be accessed from the FAA's 
website at www.faa.gov.
    ``Acceptable Methods, Techniques, and Practices--Aircraft 
Inspection and Repair'' (FAA Advisory Circular 43-13-1B) contains a 
Personal Minimums Checklist in chapter 13 that lists actions to reduce 
maintenance errors.
    Aircraft Safety Alerts, including airworthiness directives, 
maintenance alerts, special airworthiness information bulletins, and 
unapproved parts notifications, can be accessed from www.faa.gov/
aircraft/safety/alerts.
    This NTSB safety alert and others can be accessed from the NTSB's 
Safety Alerts web page at http://www.ntsb.gov/safety/safety-alerts/
Pages/default.aspx or searched from the NTSB home page at http://
www.ntsb.gov/Pages/default.aspx.
                                 ______
                                 

        NTSB Safety Alert, National Transportation Safety Board

Pilots: Perform Advanced Preflight After Maintenance
Be vigilant for flight control and trim anomalies
The problem
  <bullet> In-flight emergencies, accidents, and deaths have occurred 
        after pilots flew aircraft with incorrectly rigged flight 
        control or trim systems.

  <bullet> Four such mishaps within a 2-year span share common safety 
        issues:

    <ctr-circle> Maintenance personnel who serviced or checked the 
            systems did not recognize that the control or trim surfaces 
            were moving in the wrong direction.

    <ctr-circle> Pilots who flew the airplanes did not detect the 
            control anomalies during their preflight checks.

  <bullet> In many cases, although maintenance personnel made mistakes, 
        the pilots could have prevented the accidents by performing 
        thorough or advanced preflight checks.
Related incident and accidents:
  <bullet> In December 2014, the pilot of a Cessna T182T airplane 
        experienced extreme nose-down control forces on the yoke 
        shortly after takeoff. The airplane had just undergone 
        maintenance on the elevator trim system, and the mechanic 
        briefed the pilot about the work before the flight. Both the 
        pilot and the pilot-certificated passenger needed to pull hard 
        aft on the yoke to prevent the airplane from pitching down, 
        even though the elevator pitch trim indicator showed a nearly 
        full nose-up trim position. The pilot remembered that work had 
        been done on the elevator trim system, and he thought that 
        there might be some kind of control-reversal problem. While 
        maneuvering for the emergency landing, the pilot applied nose-
        down trim control inputs and found that the extreme control 
        forces lessened, and he successfully landed the airplane. The 
        elevator trim control cables were misrigged such that the 
        elevator trim control was reversed. The airplane's checklist 
        for the exterior inspection of the empennage during preflight 
        included ``Trim Tab--CHECK security.'' (CEN15IA079)\1\
---------------------------------------------------------------------------
    \1\ These pilots and the mechanic are featured in the NTSB's safety 
video, ``Airplane Misrigging: Lessons Learned from a Close Call,'' 
which is available on the NTSB's safety videos web page at http://
www.ntsb.gov/safety/safety-alerts/Pages/Safety-Videos.aspx.

  <bullet> In October 2013, the private pilot and passenger in a Piper 
        PA-22 received serious injuries when the airplane crashed 
        during takeoff on its first flight since an annual inspection 
        in which frayed elevator control cables were replaced. During 
        the takeoff roll, when the pilot applied forward stick controls 
        to raise the tail, the tail did not rise, and the airplane 
        instead ``jumped'' off the runway. The pilot reduced engine 
        power and attempted to control the airplane's pitch, but the 
        airplane responded abnormally and crashed. The elevator control 
        cables were installed incorrectly such that the elevator moved 
        in the direction opposite to that commanded. The pilot's 
        preflight check of the airplane was also inadequate. 
---------------------------------------------------------------------------
        (ERA14LA015)

  <bullet> In July 2014, the pilot of a Piper PA-12 airplane was 
        fatally injured after his airplane pitched up steeply during 
        takeoff and crashed. The investigation found that the elevator 
        control cables were installed incorrectly such that the 
        elevator moved in the direction opposite to that commanded. The 
        preflight checklist for the airplane required the pilot to 
        verify that the flight controls were free and correct. 
        (ANC14FA050)

  <bullet> In May 2013, the pilot of a Schweizer SGS 2-33A glider 
        received serious injuries after the glider crashed due to 
        improper rigging of the rudder control cables. The glider had 
        just received an annual inspection, and its rudder had been 
        removed and reinstalled. If the pilot had conducted a thorough 
        preflight inspection, he should have been able to detect that 
        the rudder control cables were rigged incorrectly. (ERA13LA229)
What can pilots do?
  <bullet> Become familiar with the normal directional movement of the 
        flight controls and trim surfaces of the aircraft you fly 
        before it undergoes maintenance. It is easier to recognize 
        ``abnormal'' if you are already very familiar with what 
        ``normal'' looks like.

  <bullet> After maintenance, check systems more thoroughly than the 
        normal preflight checklist implies. For example, if a preflight 
        checklist states, ``Trim--Set Takeoff,'' verify not only the 
        trim setting but also proper directional travel.

  <bullet> Be prepared to abort the takeoff if something does not seem 
        right.

  <bullet> Avoid interruptions and distractions during your preflight 
        inspection to ensure that you do not skip or misevaluate the 
        items you are checking.

  <bullet> If you suspect that there is a problem with a flight control 
        or trim system, ask qualified maintenance personnel to inspect 
        the aircraft. Do not attempt to perform such work yourself if 
        you are not appropriately qualified, certificated, and 
        authorized to do so.
Interested in more information?
    The accident reports for each accident summarized in this safety 
alert can be searched by accident number from the NTSB's Aviation 
Accident Database web page at http://www.ntsb.gov/_layouts/
ntsb.aviation/index.aspx.\2\ Each accident's public docket is available 
on the NTSB's Accident Dockets web page at http://dms.ntsb.gov/pubdms/.
---------------------------------------------------------------------------
    \2\ Less-recent fatal accidents that may also be of interest are 
CHI05FA038, CHI08MA270, and DCA03MA002.
---------------------------------------------------------------------------
    The Federal Aviation Administration (FAA) Safety Team (FAASTeam) 
pamphlet, ``Advanced Preflight,'' (FAA-M-001) provides guidance to help 
pilots develop the necessary knowledge and techniques to reduce the 
risk of undetected maintenance problems, including how to:

  <bullet> Conduct a complete review of maintenance-related records and 
        data

  <bullet> Develop an ``additional items checklist'' to be used in 
        conjunction with the aircraft's preflight checklist

    The pamphlet can be accessed (without login) from the FAASTeam 
website at http://www.faasafety.gov/gslac/ALC/
libview_normal.aspx?id=63083.
    The FAA's ``Pilot's Handbook of Aeronautical Knowledge'' (FAA-H-
8083-25A) discusses aeronautical decision-making and risk management in 
chapter 17. It provides basic tools to help pilots assess risk and 
manage it in a positive manner; proper preflight inspections are an 
important part of risk management and risk intervention. The ``Risk 
Management Handbook'' (FAA-H-8083-2) provides a more in-depth 
discussion of risk management principles. Both handbooks can be 
accessed from the FAA's website at www.faa.gov.
    An online article in Flight Training (an Aircraft Owners and Pilots 
Association publication), ``How to Preflight an Airplane: Understanding 
How is as Important as Actually Doing It,'' provides tips on checking 
controls and other items. It is available at http://
flighttraining.aopa.org/students/presolo/skills/howtopreflight.html.
    An online article, ``Things You Miss on Preflight,'' provides 
several anecdotes about preflight-related mishaps. Originally from 
Aviation Safety magazine, it can be found at http://www.avweb.com/news/
redundant/preflight_pilot_airplane_flight
_ntsb_inspection_207_912-091.html.
    Related regulations:

  <bullet> Title 14 Code of Federal Regulations (CFR) 91.7 states, in 
        part, that ``the pilot in command of a civil aircraft is 
        responsible for determining whether that aircraft is in 
        condition for safe flight.''

  <bullet> Title 14 CFR 91.407 states, in part, that: ``No person may 
        operate any aircraft that has undergone maintenance . . . 
        unless . . . it has been approved for return to service.'' 
        Also, ``no person may carry any person (other than crewmembers) 
        in an aircraft'' that has undergone certain maintenance until 
        the aircraft has received an operational check flight that is 
        logged in the aircraft records.

    This NTSB safety alert and others can be accessed from the NTSB's 
Safety Alerts web page at http://www.ntsb.gov/safety/safety-alerts/
Pages/default.aspx or searched from the NTSB home page at http://
www.ntsb.gov/Pages/default.aspx.
                                 ______
                                 

        NTSB Safety Alert, National Transportation Safety Board

Mastering Mountain Flying
Training is essential for mountain flying safety
The problem
  <bullet> Pilots with limited or no training in mountain flying can be 
        surprised about their aircraft's different performance at high 
        density altitude, often leading to serious or fatal accidents.

  <bullet> Wind and other weather phenomena interacting with 
        mountainous terrain often lead unsuspecting pilots into 
        situations that are beyond their capabilities.

  <bullet> Should a crash occur, a pilot who survives the crash but 
        does not have emergency or survival gear immediately accessible 
        may not survive the harsh environment until rescuers are able 
        to reach the location.
Related accidents
    The NTSB has investigated numerous accidents in which limited or no 
training resulted in accidents in mountainous terrain.

  <bullet> A pilot and two passengers of a Piper Cherokee 235 were 
        fatally injured when trying to follow an interstate highway 
        over a high mountain pass. Employees of the fixed base operator 
        (FBO) at the departure airport reported that the pilot had 
        asked about routes across the mountains. Based on the 
        conditions at the time of the accident, the airplane's climb 
        rate would have been reduced by more than 90 percent. It is 
        likely that, as the pilot attempted to cross over the 
        mountainous terrain near the pass, he raised the airplane's 
        nose to the point that he exceeded the airplane's critical 
        angle of attack. With the airplane's decreased performance, 
        this led to an aerodynamic stall and loss of control. 
        (CEN14FA328)

  <bullet> A private pilot and three passengers of a Mooney M20E were 
        fatally injured during takeoff in gusty wind conditions from an 
        airport located at an elevation of 8,380 feet. The pilot had no 
        prior experience flying out of the accident airport and limited 
        experience flying in mountainous terrain. Witnesses reported 
        that the pilot seemed confident about his ability to fly the 
        airplane and he was not concerned with the wind conditions. As 
        the airplane departed, the reported wind was 33 knots, gusting 
        to 47 knots. Later review of weather data showed mountain wave 
        activity in the area. After the airplane lifted from the 
        runway, it crabbed into the wind, and then rose and fell 
        repeatedly as its wings rocked, before coming to rest inverted. 
        (CEN13FA183)

  <bullet> The pilot and two passengers of a Cessna U206G were fatally 
        injured and two passengers sustained serious injuries when the 
        airplane collided with mountainous terrain. The pilot was 
        transporting the passengers to a remote back country airstrip. 
        As the airplane proceeded on the flight, ridgetops on both 
        sides of the valley became obscured with an overcast cloud 
        layer at 7,000 feet, and ragged clouds with mist were probably 
        present beneath the overcast. Local pilots reported that in 
        these types of weather conditions, numerous drainages can be 
        similar in appearance. Radar data showed that the airplane was 
        well short of the position reported by the pilot. Because of 
        this, the pilot misidentified the drainage he intended to reach 
        and instead turned into a drainage that ended in a box canyon. 
        After impact, all communication, survival, and foul-weather 
        gear aboard the airplane were destroyed in a postimpact fire. 
        Although the pilot's logbook indicated that the pilot had 2,723 
        hours total flight time, it showed minimal back country or 
        mountain flying experience. (SEA04GA192)
What can pilots and flight instructors do?
    Through training, pilots can develop skills and techniques that 
will allow them to safely fly in mountainous terrain. When planning 
flights in mountainous terrain, pilots and flight instructors should do 
the following to enhance safety:

  <bullet> Flight instructors should encourage their students to attend 
        a quality mountain flying course before attempting flight in 
        mountainous terrain or at high density altitudes.

  <bullet> Pilots should consult with local flight instructors before 
        planning a flight into mountainous terrain. Even experienced 
        mountain pilots may not be familiar with local conditions and 
        procedures for safe operations.

  <bullet> Pilots should be aware that weather interacting with 
        mountainous terrain can cause dangerous wind, severe 
        turbulence, and other conditions that may be unsafe for 
        aircraft, especially light GA aircraft.

  <bullet> Pilots should consider specialized emergency and survival 
        equipment (such as personal locator beacons in addition to a 
        406 emergency locator transmitter) before flying in mountainous 
        terrain, and develop a plan for immediate access to the 
        equipment in the event of a postaccident fire.

  <bullet> FBO staff should be alert for customers who appear to be 
        planning flight into mountainous terrain who could benefit from 
        mountain flying instruction.
Interested in more information?
    The reports for the accidents referenced in this safety alert are 
accessible by NTSB accident number from the Accident Database and 
Synopses web page at http://www.ntsb.gov/_layouts/ntsb.aviation/
index.aspx. Each accident's public docket is accessible from the NTSB's 
Docket Management System web page at http://dms.ntsb.gov/pubdms/.
    For an overview of mountain flying and techniques, the Federal 
Aviation Administration (FAA) published Tips on Mountain Flying (FAA-P-
8740-60). Additionally, the May/June 2012 issue of FAA Safety Briefing 
contains an article, Rocky Mountain High: The Zen of Mountain Flying 
that discusses both the beauty and dangers of mountain flying. The 
publications can be accessed from www.faa.gov.
    Additionally, the Aircraft Owners and Pilots Association (AOPA) Air 
Safety Foundation provides a Mountain Flying safety advisor that 
highlights important considerations for mountain flying, A Pilot's 
Guide to Mountain Flying that discusses weather factors and mountain 
flying techniques, and the ASF--Mountain Flying resources web page that 
lists preferred routes over mountainous terrain in addition to other 
resources. AOPA also offers a Mountain Flying online course. These 
resources can be accessed from www.aopa.org.
    The Colorado Pilots Association provides mountain flying resources 
to assist pilots when flying in Colorado. These include mountain pass 
locations and names, certified flight instructors, and available 
training. These can be accessed from http://coloradopilots.org/.
    This NTSB safety alert and others can be accessed from the NTSB's 
Safety Alerts web page at http://www.ntsb.gov/safety/safety-alerts/
Pages/default.aspx or searched from the NTSB home page at http://
www.ntsb.gov/Pages/default.aspx.
                                 ______
                                 

        NTSB Safety Alert, National Transportation Safety Board

Understanding Flight Experience
A rating alone cannot ensure safety: Training is key
The problem
  <bullet> Aircraft have different flight characteristics, performance, 
        and systems.

  <bullet> Pilots may have many hours of experience, but their 
        experience specific to the aircraft make/model and/or equipment 
        they are flying may be limited.

  <bullet> Although Federal Aviation Administration (FAA) regulations 
        allow pilots to operate aircraft that are designated by a 
        specific category and class, differences among different types 
        of aircraft within the same category and class can be 
        significant.

  <bullet> Even if operating a specific type of aircraft is allowed by 
        regulations, it does not mean the practice is safe.
Related accidents
    The NTSB has investigated many accidents in which pilots who met 
the minimum Federal requirements for flight ultimately did not have 
adequate experience and/or training in the aircraft they were flying to 
operate it safely or to deal with an inflight emergency. The following 
accident summaries illustrate some common--and preventable--accident 
scenarios:

  <bullet> A 15,150-hour airline transport pilot was fatally injured 
        after losing control of a recently purchased Beechcraft KingAir 
        B200GT airplane shortly after departure. The pilot had 
        previously flown another similar model airplane and obtained 
        about 5,075 hours, but the airplane was slightly older and had 
        a different avionics package; the accident airplane's avionics 
        and flight management system were new to the pilot. During a 
        ferry flight just before the accident, a passenger who was also 
        a pilot was pointing out the avionics features of the new 
        airplane. Due to the pilot's unfamiliarity with the avionics, 
        he allowed the airplane to slow and then descend into a house 
        during departure. (CEN13FA326)

  <bullet> A 16,000-hour airline transport pilot was conducting the 
        Phase I flight test of the experimental Mustang II tailwheel 
        airplane and lost directional control. He had 2,130 hours in 
        single-engine airplanes, and 10 hours in the make and model 
        airplane. He had accrued 6 hours in tailwheel-configured 
        airplanes in the 3 months before the accident. Although the 
        pilot had thousands of flight hours, his lack of experience in 
        the accident airplane made him more susceptible to losing 
        control of the airplane. (CEN10LA255)

  <bullet> During a water landing in a Quest Aircraft Company Kodiak 
        100, a 1,650-hour commercial pilot, with 550 hours in seaplanes 
        and 232 hours in the accident airplane lost directional 
        control. The pilot had completed one 180-degree step turn 
        during her initial training, but she had not performed any 
        during her interagency pilot evaluation/qualification check 
        even though it was required. If the pilot had received thorough 
        training in performing step turns in the accident make and 
        model airplane, she would have been less likely to lose control 
        of the airplane. (ANC12GA114)

  <bullet> A private pilot was fatally injured following a loss of 
        engine power from a Cessna P337H airplane's rear engine. The 
        pilot had obtained a private pilot certificate in 1998 and, 
        over the next 15 years, accrued minimal flight experience, with 
        a total flight time leading up to the accident of 118 hours. 
        About 1 month before the accident, he obtained a multiengine 
        rating. His total multiengine time was 40 hours, with 18 hours 
        in the accident airplane; only 3 hours were acting as pilot-in-
        command. The pilot's extended absence from flying, minimal 
        total flight time, and limited experience in high-performance 
        multiengine airplanes made him more vulnerable to errors when 
        addressing the loss of engine power. (WPR13FA289)
What can pilots do?
  <bullet> Obtain the necessary training from a flight instructor 
        experienced in the aircraft that you plan to fly so that you 
        understand the flight characteristics and emergency procedures 
        for that aircraft. Meeting the minimum requirements does not 
        mean that you are proficient.

  <bullet> Obtain refresher training if you have not flown for a long 
        period; long periods of no flying, even for high-time pilots, 
        can have an adverse impact on your ability to respond to 
        unusual situations and emergencies.

  <bullet> Seek out a qualified test pilot to assist in flight testing 
        homebuilt aircraft you are not familiar with.

  <bullet> Seek out instruction for advanced avionics and systems. 
        Identical make-and-model aircraft can have considerably 
        different cockpit panels.
Interested in more information?
    The reports for the accidents referenced in this safety alert are 
accessible by NTSB accident number from the NTSB's Accident Database & 
Synopses web page at http://www.ntsb.gov/_layouts/ntsb.aviation/
index.aspx. Each accident's public docket is accessible from the NTSB's 
Docket Management System web page at http://dms.ntsb.gov/pubdms/.
    The Aircraft Owners and Pilots Association (AOPA) Air Safety 
Institute, a division of AOPA Foundation, offers an online educational 
course, Transitioning to Other Airplanes, that provides information 
about transitioning to different airplanes and avionics. This course 
and other safety resources can be accessed from https://www.aopa.org/
Pilot-Resources/Air-Safety-Institute. (Course access requires creation 
of a free account.)
    A Personal Minimums Checklist can be a helpful tool in assessing 
your capabilities and determining your readiness for flight. This 
information can be accessed through the FAA's website at www.faa.gov.
    ``Beyond the Buttons: Mastering Our Marvelous Flying Machines'' 
published by FAA Aviation News (March/April 2007), contains valuable 
resources and information related to the multiple considerations pilots 
must take into account when moving to glass cockpit displays. This 
information can also be accessed through the FAA's website at 
www.faa.gov.
    In 2012, the NTSB published a study titled, The Safety Of 
Experimental Amateur-Built Aircraft, that led to recommendations 
related to flight testing experience and using a second qualified pilot 
during aircraft testing. Additionally, the NTSB published a study in 
2010 titled, Introduction of Glass Cockpit Avionics into Light 
Aircraft, that led to recommendations related to pilot knowledge of 
aircraft equipment operations and malfunctions. These studies can also 
be accessed through the NTSB's website at http://www.ntsb.gov/safety/
safety-studies/Pages/SafetyStudies.aspx.
    This NTSB safety alert and others can be accessed from the NTSB's 
Safety Alerts web page at http://www.ntsb.gov/safety/safety-alerts/
Pages/default.aspx or searched from the NTSB home page at http://
www.ntsb.gov/Pages/default.aspx.

    Senator Ayotte. Thank you very much, Mr. Hart.
    And now I would like to call on Captain Chesley 
Sullenberger. Captain Sullenberger is an aviation safety expert 
and was captain of Flight 1549 who was able to land on the 
Hudson. And so, we're happy to have you here, Captain.

 STATEMENT OF CHESLEY B. ``SULLY'' SULLENBERGER III, AVIATION 
 SAFETY EXPERT AND CAPTAIN OF FLIGHT 1549, THE LANDING ON THE 
                             HUDSON

    Captain Sullenberger. Chairman Ayotte, Ranking Member 
Cantwell, other members of the Committee, it's my great honor 
to appear before this subcommittee.
    As the airline pilot, as the professional pilot here, I'm 
someone who has had 20,000 hours of flying time, much of that 
as Part 121 jet captain time. Along with my first officer, Jeff 
Skiles, who is also here, I was in the cockpit of an airliner 
when we faced, suddenly, an ultimate challenge. I'm uniquely 
qualified to tell you exactly how important pilot experience 
is, and why we must not compromise it.
    I deeply understand what's at stake in questions of 
aviation safety. As you consider this FAA reauthorization bill, 
I want to say it's critical that you maintain the requirements, 
and that you not weaken them, that you not give further credits 
for beyond what has already been allowed. Because, you see, 
I've seen firsthand the real costs, the human costs, of not 
having adequate levels of safety. And no one knows better than 
that than the families of the victims of the Continental 
connection Colgan Air Flight 3407 crash in Buffalo, New York, 
on February 12, 2009, killing all 49 people aboard and one 
person on the ground. It was a terrible tragedy that resulted 
from the performance of the crew and safety deficiencies. But, 
even more concerning, the National Transportation Safety Board 
investigation into this crash revealed that these deficiencies 
reflected a systemic problem among regional carriers. It 
confirmed that the airline industry has a two-class system, 
where major airlines reflect the gold standard, while some 
regional airlines take shortcuts to save money wherever they 
can, often potentially negatively impacting safety in their 
seemingly endless race to the bottom.
    These families have advocated for improved safety measures. 
And, in the 111th Congress, in the passage of the Airline 
Safety and Federal Aviation Administration Extension Act of 
2010, Congress got it right. One of the most important elements 
of this Act was the establishment of the AT&P--ATP as a 1,500-
hour standard for airline pilots. And yet, just 2 years since 
the safety standard went into effect, airline lobbyists are 
trying to weaken the provision, because they consider it to be 
inconvenient.
    Let me correct the historical record. Let me correct some 
of the misstatements that have recently been made. It has only 
been in recent years that we have done something different in 
the airline industry, or parts of it, than we have done for the 
half-century prior to that. For much of the history of 
commercial aviation, pilot applicants often had several 
thousand hours of flying time before being considered to be an 
airline pilot. It has only been more recently that airlines, in 
their race to the bottom, have begun to recruit pilots with 
near the minimum experience.
    It's also important to note that there isn't a pilot 
shortage. So, let me say that again. There is no pilot shortage 
in this country. What there is, is a shortage of sufficient 
working conditions and wages at certain carriers to attract the 
most qualified applicants in the large numbers that they 
sometimes need.
    We have heard some of the others on the other side talk 
about how the pilot licensing statistics have changed. What we 
are seeing is statistics uncorrelated in a basis of fact. What 
we're seeing are people talking about changes in pilot 
applications, and not making a differentiation between 
recreational pilots and professional pilots.
    We also hear people talking about loss of air service to 
certain areas of the country. Again, let me give those here a 
history lesson on the history of the airline industry. Over the 
years, public companies, for a variety of business reasons 
totally unrelated to pilot supply, have changed levels of 
service around the country. Let me give you just a few examples 
from my own personal experience.
    American Airlines has reduced service to Raleigh-Durham, to 
Nashville; Northwest reduced service to Memphis; Delta reduced 
service to Cincinnati; United reduced service to Cleveland. All 
these business decisions had nothing to do with pilot supply.
    And even if there are some carriers who are having a hard 
time recruiting sufficient numbers of experienced pilots that 
they need, let me give you an analogy. If, for example, in 
parts of the country, we were having a hard time recruiting 
enough physicians to serve rural areas, would we then advocate 
having a 1-year or 2-year medical degree? Of course we would 
not.
    Those who say that we must have quality or quantity are 
posing a false dichotomy. Of course, we must, we can, we need 
to have both. Every pilot who sits in a pilot seat needs to be 
a fully qualified pilot, not an apprentice, not someone 
undergoing on-the-job training. They must be capable, at a 
moment's notice, of being the absolute master of every part of 
the airplane in every possible situation.
    So, I'd ask you, please do not allow those who are calling 
for concessions to enable them to continue to try to use an 
obviously broken economic model. Hold fast. There are no 
shortcuts to pilot experience. There are no shortcuts to 
safety. The flying public demands nothing less.
    Thank you.
    [The prepared statement of Captain Sullenberger follows:]

      Prepared Statement of Chesley B. ``Sully'' Sullenberger III
    Thank you, Chairman Thune, Ranking Member Nelson, Chair Ayotte, 
Ranking Member Cantwell, and other members of the Committee. It is my 
great honor to appear today before the Subcommittee on Aviation 
Operations, Safety, and Security.
    I have dedicated my entire adult life to aviation safety. I have 
served as a pilot for more than 40 years, logging more than 20,000 
hours of flight experience. In fact, just last month marked the 48th 
anniversary of my first flying lesson. I have served as an airline 
check airman (flight instructor) and accident investigator, and 
continue to serve as an aviation safety expert.
    And on January 15, 2009, I was the Captain on U.S. Airways Flight 
1549, which has been called the ``Miracle on the Hudson.'' On that 
flight, multiple bird strikes caused both engines to fail and, in 
concert with my crew, including of course our First Officer Jeffrey 
Skiles, I conducted an emergency landing on the Hudson River saving the 
lives of all 155 people aboard. And Jeff is with us today in the 
hearing room. Jeff, I could not have had a better colleague that day or 
since.
    I saw the birds just 100 seconds after takeoff, about two seconds 
before we hit them. We were traveling at 316 feet per second, and there 
was not enough time or distance to maneuver a jet airliner away from 
them. When they struck and damaged both engines, we had just 208 
seconds to do something we had never trained for, and get it right the 
first time.
    The fact that we landed a commercial airliner on the Hudson River 
with no engines and no fatalities was not a miracle, however. It was 
the result of teamwork, skill, in-depth knowledge, and the kind of 
judgment that comes only from experience.
    As a result of all of this, I deeply understand what is at stake in 
questions of aviation safety; and I am uniquely qualified to talk about 
what works, what doesn't, and why it is so important that we get these 
rules right. The traveling public, whose lives we literally hold in our 
hands, deserves and expects nothing less.
    I appear before you today knowing that the airline industry has 
their lobbyists and trade associations, but the traveling public does 
not. I consider it my professional responsibility and my personal duty 
to be an advocate for the safety of all air travelers. And as you 
consider the FAA Reauthorization Bill, I want to say it is critical 
that you maintain the requirement that newly hired commercial pilots--
at both major and regional airlines--have an Airline Transport Pilot 
(ATP) certificate and a minimum of 1,500 hours of flight experience, as 
Congress has mandated in Public Law. Public safety absolutely demands 
it.
    There are some who seek to roll back this requirement. They want to 
weaken it by allowing more credits for some non-flying activities or 
hours spent in flight school simulation to be counted as a substitute 
for real-world experience. They also claim that this safety standard is 
causing a pilot shortage among regional carriers and restricting 
flights to smaller cities.
    They could not be more wrong. There are no shortcuts to experience. 
There is no shortcut to safety. The standards are the standards because 
they are necessary.
    There are some in the industry who look upon safety improvements as 
a burden and a cost when they should be looking at them as the only way 
to keep their promise to do the very best they can to keep their 
passengers safe.
    As airline professionals, aviation regulators, and legislators, we 
must have the integrity and courage to reject the merely expedient and 
the barely adequate as not good enough. We must not allow profit 
motives to undermine our clear obligation to do what is right to ensure 
public safety. And I assure you that public safety demands that every 
newly hired pilot have a minimum of 1,500 hours of flying experience 
before they are entrusted with protecting the lives of the traveling 
public.
    I have seen first-hand the real costs--the human costs--of having 
inadequate levels of safety. These are costs that no family should ever 
have to bear. And no one knows this better than the families here with 
us today. These are some of the families of the victims of Continental 
Connection/Colgan Air Flight 3407, a regional flight from Newark, NJ, 
which crashed on approach to Buffalo, NY, on February 12, 2009, killing 
all 49 people onboard and one person on the ground.
    It was a terrible tragedy that resulted from the performance of the 
crew and safety deficiencies. But even more concerning, the Federal 
investigation into this crash revealed that these safety deficiencies 
reflected a systemic problem among some regional carriers that lacked 
the robust safety systems of major airlines.
    This investigation confirmed what many of us know: that we have a 
two-class system in the airline industry. Major airlines reflect the 
gold-standard in best practices, training, and safety management 
programs while some regional airlines, in a race to the bottom that 
they seem to be winning, take shortcuts to save money wherever they 
can, often potentially negatively impacting safety.
    Early this year, my wife, Lorrie, and I visited the site of the 
crash in Buffalo and met with the families of the victims, many of 
whom--in the wake of these findings, went to Capitol Hill, to advocate 
for improved safety measures. Knocking on doors at major Federal 
agencies and meeting with hundreds of people, including President 
Obama, their goal was to strengthen safety rules on behalf of all 
members of the traveling public because they didn't want anyone else to 
ever again pay the terrible price they did for lapses in regional 
airline safety. Against insurmountable odds, they succeeded--inspiring 
an overwhelming number of the 111th Congress to pass the Airline Safety 
and Federal Aviation Administration Extension Act of 2010. Every member 
of the flying public owes them a debt of gratitude. We also owe you, 
the members of Congress, our thanks for getting this right.
    One of the most important elements of this Act was the 
establishment of the 1,500-hour standard for airline pilots. Yet just 
two years since this safety standard went into effect, airline 
lobbyists are trying to weaken the provision because they consider it a 
burden or cost.
    With the immediacy of that 2009 tragedy having passed, they also 
are appealing to new members of Congress and staffers who may not 
remember the Buffalo crash. Putting self-interest over public safety, 
they are trying to gain your support in rolling back the essential 
progress that has been made for airline safety.
    Some lobbyists would like you to significantly roll back the 1,500-
hour minimum. Short of that, they want the FAA to allow simulator and 
academic training hours to count toward meeting the 1,500-hour minimum. 
They see this as an easier, more convenient, less expensive path to 
getting young pilots into regional airline cockpits.
    But there are no shortcuts to experience. There is no shortcut to 
safety. The standards are the standards because they are necessary.
    Throughout the entire 112-year history of powered flight, one thing 
has been true. The most important safety device in any airliner is a 
well-trained, experienced pilot. That is even more true today, 
especially as we transition from my generation of pilots to the next. 
We must make sure that each generation of pilots has the same well 
learned, deeply internalized fundamental flying skills, the in-depth 
knowledge, experience, and judgment. And that is why pilot preparation, 
qualifications, screening, training--and experience--are so important.
    On behalf of traveling Americans, I want to thank you for the 
Airline Safety and Federal Aviation Administration Extension Act of 
2010. You got it right, and I urge you and all members of this 
committee to continue to uphold these essential safety standards now 
and reject the claims of those who would urge you to put profits over 
the safety of the American people. We must all behave as if the victims 
of the Continental Connection/Colgan Air Flight 3407 crash are watching 
and judging our integrity and courage this very moment--as their 
families are.
    I now want to more specifically address the arguments that some 
have made for undercutting these essential safety regulations--and why 
each one is wrong, dead wrong.
    First, lobbyists are seeking to roll back the experience 
requirement that Congress wisely mandated in 2010 to protect the safety 
of the traveling public. This is preposterous.
    Let me tell you why we cannot have pilots with less than the 
required experience flying passengers. Pilots with less than the 
required experience may only have seen one cycle of the seasons of the 
year as a pilot--one season of thunderstorms, one winter of ice and 
snow. He or she may never have had a plane de-iced before, may never 
have landed with a gusty crosswind exceeding 30 knots, and may never 
have had to land on a rainy night when the glare off a wet surface 
makes it difficult to tell exactly where you are. And if they received 
all their flight training in a warm dry climate, they may never even 
have flown in a cloud before! I would not want my family members in a 
plane operated by someone with as little experience as that, and I 
don't think you would either.
    Some of these lobbyists go on to say there is nothing magical about 
the 1,500-hour standard because, to earn the hours, pilots waste their 
time, merely drag banners by the beach. This is a catchy sound bite but 
it is a big lie. In the whole country, perhaps a few hundred pilots fly 
banners; it is a miniscule percentage of the commercial aviation 
industry. There are, and always have been, good and valuable pathways 
to develop the experience required to fly a commercial airliner under a 
variety of conditions, such as flight instruction, charter and cargo 
operation, and corporate flying.
    Those who argue to reduce the flight hours required of newly hired 
pilots also imply that First Officers do not need to have the same 
level of competence as the Captain. But it has been 80 years since the 
airline industry has had apprentices in the right seat of airliners. 
For all that time, we have had qualified pilots in both seats, and we 
absolutely must continue to do so. The safety systems that the industry 
has developed and implemented over the last twenty years are based on 
the assumption of two fully trained, capable and experienced pilots in 
the cockpit, with each pilot able to be the absolute master of the 
aircraft in every possible situation at every moment. The value of 
these practices cannot be questioned. The last fatal accident of a U.S. 
carrier fully adopting these practices was in November 2001. We have 
had fourteen years of perfect safety from major carriers employing two 
fully trained and most importantly, experienced, pilots. The intent of 
the 2010 safety language was to raise the level of safety in the 
regional airline industry by requiring the adoption of proven safety 
systems. Raising the basic requirement for pilot experience was central 
to this effort.
    I can tell you that U.S. Airways Flight 1549 would have had a very 
different ending had my First Officer Jeff Skiles been a less 
experienced pilot. Like me, Jeff had more than 20,000 hours of flying 
experience when we lost the engines on that flight. His extensive 
experience is what enabled him to intuitively know what he needed to do 
in that emergency, when the work load and time pressure were so extreme 
that we did not have time to talk about what had just happened and what 
we needed to do about it, or for me to direct his every action. If he 
were a relatively inexperienced pilot, we could not have had the same 
outcome and people likely would have died. Experience is what made the 
difference between death for some and life for all.
    Recent events have also made tragically clear why it is so 
important that newly hired pilots have a minimum of 1,500 hours of 
flying experience. The First Officer on the Germanwings flight that 
crashed in the Alps last month had only about 600 hours of flying time. 
Under existing standards, he would not have qualified as an Air Carrier 
pilot in the United States and would not have been in a position to 
accomplish his dark and heinous act. By requiring more experience there 
is an opportunity to evaluate a prospective candidate over time and in 
many cases among several employers.
    The point is this: Any reduction in today's standard reduces the 
time a pilot can be observed as a competent, reliable, and trustworthy 
person before being entrusted with the controls of a commercial 
airliner full of passengers. With a 1,500-hour standard, employers are 
able to know more about new pilots, able to have more people screening 
and observing them over a longer period of time, and able to make a 
more informed decision about whether they have proven themselves worthy 
of the public's trust.
    When I served as a check airman (an instructor responsible for 
evaluating pilots) sometimes their performance would be just at the 
threshold of acceptable. In those cases, I would ask myself this 
question: When he or she is in the 14th hour of his or her duty day, 
flying at night in bad weather into an airport he or she has never seen 
before, would I want my family on that airplane? If the answer was yes, 
then he or she met the standard. If the answer was no, he or she did 
not. Those are the kinds of judgments that can only be made when there 
is adequate time to observe someone in an operational environment. And 
that is the kind of judgment that Congress made in mandating the ATP 
with 1,500 hours.
    A second tactic lobbyists are using to try to weaken the standard 
is by suggesting that more non-flying training count toward the 1,500 
hours in place of actual flying experience. Here's what's wrong with 
this line of thinking: Training experiences are highly scripted, highly 
supervised, and sterile environments where you know what is coming. 
Real world experiences are not. They are messy and ambiguous and you 
don't have anyone holding your hand every step of the way. To propose 
that training situations are a substitute for real world experience is 
like saying that studying driving in a classroom is the same as having 
driven on a busy highway in inclement weather. There is just no 
substitute for real world experience.
    Third, lobbyists who want to weaken today's safety standards say 
that they are creating a pilot shortage because regional carriers 
cannot find enough qualified applicants. They also say that the 1,500-
hour requirement is threatening air service to small communities and 
imposing an economic hardship. The implication is that you should 
reduce the safety requirement so that they can hire less qualified 
applicants.
    This flies in the face of logic. Would we allow some airlines to 
buy jet fuel that is below specification because it was too 
inconvenient or costly to buy jet fuel that fully met all the critical 
safety standards? Would we allow some airlines to underinsure because 
they didn't want to pay so much for insurance? If there were not enough 
doctors to serve rural areas, would we advocate a two-year medical 
degree? Why would we ever allow less qualified pilots to serve small 
communities? Are the lives of those from rural areas worth less than 
passengers in large cities?
    People traveling to small communities deserve to be no less safe 
than people traveling to large cities. They must not be forced to 
entrust their lives to less experienced pilots, or airlines that make 
smaller investments in training or safety management programs than 
those serving metropolitan areas.
    What is really going on is this: There is not a pilot shortage, but 
there is a shortage of pilots willing to enter, or continue employment 
in, the airline industry under the current economic model. The standard 
for entry to the airline cockpit is rightly a high bar and requires 
significant personal and financial investment to achieve the standards 
necessary to serve and protect the safety of the traveling public. 
Currently the rewards of an airline career don't match the investment 
required. This in turn makes other careers--in and outside of 
aviation--more attractive, exacerbating airline pilot recruitment.
    Worse yet, this untenable economic model turns away the best and 
brightest at the door when they are first considering a career in 
aviation. Like doctors, pilots make a significant financial investment 
in their education and training, in some cases upwards of $200,000; and 
like doctors, they should see a career path worthy of that investment.
    A doctors, however, only hold one life in their hands at any given 
moment. As the tragedy of the Germanwings accident shows, pilots hold 
the responsibility for many more. Passengers entrust their lives to 
pilots. Why would they not expect the same training and professional 
experience from their pilot as they would from their surgeon? The First 
Officer of the ill-fated Continental Connection/Colgan Air Flight 3407 
earned $16,400 a year before taxes, clearly an unbelievably low salary 
for someone who literally holds the lives of their passengers in their 
hands.
    Traditionally an airline career has attracted applicants with 
experience well in excess of even today's minimum required hours. In 
fact, pilots applying for a job with a commercial airline would 
typically have had several thousand hours of flight experience. Only 
recently have some regional carriers lowered their experience 
requirements to meet the dictates of an unsustainable economic model. 
As Gordon Bethune, former CEO of Continental Airlines said, ``You can 
make a pizza so cheap, nobody will eat it. You can make an airline so 
cheap, nobody will fly it.''
    Since the regional airline industry has insisted on trying to use 
this broken economic model, they have created their own problems. We 
must not lower the required standards to enable them to continue to do 
so.
    It is not in anyone's best interest--not regional airlines, not 
major airlines, and certainly not the traveling public--to have the 
aviation industry lower commonsense safety requirements to meet an 
unsupportable business model.
    Regional carriers often compete on the basis of cost to be the 
affiliate of major airlines. Let me tell you what that means to you as 
a passenger: It means you are flying on the lowest bidder. Would you 
want your surgeon to be the lowest bidder? But there is no shortcut to 
safety. That is what FAA minimums have been designed to ensure. And 
since many operators have lowered their standards to the FAA minimum, 
we must make sure that those minimum standards are genuinely adequate 
to protect our passengers.
    Quality vs. quantity is a false dichotomy. When it comes to airline 
safety, we need not and must not choose between quality and quantity, 
because we can and must have both. There are existing methods for 
pilots to get the requisite experience. There always have been. And 
since the 1,500-hour standard has been put in effect, flight schools, 
regional airlines and major airlines have been working together to 
create a true career path that benefits the industry and most 
importantly, the traveling public. This is being accomplished by 
creating partnerships between aviation training academies and regional 
carriers such as the career program at the aptly named ATP Flight 
School where a beginning pilot is interviewed and provisionally hired 
by a regional carrier early in their career. Once an airline makes an 
offer of employment the pilot continues on at the flight school as a 
flight instructor building time and experience while training the next 
generation of pilots to enter the field. The regional carrier even 
contributes financially to the pilot's education, and most importantly, 
the prospective airline pilot can be observed, evaluated, and nurtured 
while they attain the required flight time necessary for a restricted 
ATP.
    The second piece of the pathway is Flow Through agreements between 
regional carriers and major airlines allowing pilots from the regional 
to matriculate upwards to a major airline cockpit. Today a person 
considering a career in aviation can see a defined path forward worthy 
of the necessary personal and financial investment.
    The industry has created these healthy pathways--not in spite of 
the 1,500-hour standard--but because of it. It allows airlines the time 
to make good judgments regarding the skills and temperament of a pilot 
that are good for both pilots' career and for the safety of the 
traveling public.
    Finally, as aviation has become safer, some people seem to think 
that being a pilot has become an easier job, requiring less skill, 
knowledge, training, experience, and judgment. Nothing could be further 
from the truth.
    In spite of how commonplace air travel is today, we must never 
forget that what we are actually doing is pushing a tube filled with 
people through the upper atmosphere, seven or eight miles above the 
earth, traveling at 80 percent of the speed of sound, in a hostile 
environment with outside air pressure one-quarter that on the ground, 
and outside temperatures to 70 degrees below zero; and we must return 
it safely to the surface every time.
    Professional pilots make it look easy but it's not. It's hard. If 
it were easy, anyone, everyone could do it. And that is just not the 
case. It takes deeply internalized well-learned fundamental skills, in-
depth knowledge, and the kind of judgment that comes only from 
experience.
    When pilots enter this noble profession that I consider a calling, 
they make a tacit promise to all their future passengers that they will 
keep them safe. And every airline executive, every aviation regulator, 
every legislator who oversees aviation should feel the same obligation 
and keep that same promise.
    Honoring that promise requires us to acknowledge that there are no 
shortcuts to experience. There is no shortcut to safety. The standards 
are the standards because they are necessary. And, the traveling public 
deserves and expects one level of safety: not one level for major 
airlines, and another for regional airlines.
    I urge you to stand with me in showing the right judgment by 
upholding the 1,500-hour standard for the safety of all Americans.
    Thank you.

    Senator Ayotte. Thank you, Captain.
    And I would now like to call on Ms. Faye Malarkey Black. 
Miss Black is the Interim President of the Regional Airline 
Association.
    Ms. Black?

 STATEMENT OF FAYE MALARKEY BLACK, INTERIM PRESIDENT, REGIONAL 
                      AIRLINE ASSOCIATION

    Ms. Black. Thank you, Chair Ayotte, Ranking Member 
Cantwell, and members of the Subcommittee.
    Regional airlines safely carried about 157 million 
passengers last year, operating just under half the Nation's 
passenger flights. We serve 623 airports; and, at 394 of those, 
we provide the only source of scheduled air service. Regional 
airlines have made continuing voluntary advancements in safety, 
and have implemented or enhanced important safety programs 
that, in fact, are now universal across the major regional 
airline sector. These include gold-standard Safety Management 
Systems, like FOQA, AQP, and the Aviation Safety Action 
Program, to name a few. In fact, the most holistic safety 
innovation has been the ongoing implementation of SMS, which, 
as Ms. Gilligan reflects, ultimately focuses in an 
organization's entire culture around safety. This defines the 
modern regional airline.
    As this committee knows well, Federal regulations enacted 
in the past 6 years have brought about additional improvements. 
Among these is the First Officer Qualification Rule requiring 
airline first officers to hold an ATP. To be clear, this rule 
has provided a framework to introduce enhanced training and 
knowledge for pilots. It has carried many safety benefits. 
However, we do continue to express concern over the narrow 
provision requiring airline first officers to amass 1,500 hours 
in flight before flying in Part 121. Historically, regional 
airlines hired qualified pilots upon completion of an academic 
aviation program, or shortly thereafter. Now there is a gap in 
the path of pilot development, with pilots forced to suspend 
their training at a critical juncture to spend time building 
hours.
    Most pilots build this time in unstructured environments. 
This is generally not time spent flying under instrument flight 
rules. This is not time spent in inclement weather conditions. 
It's not time spent managing complex avionics or learning to 
work as part of a team of professional crewmembers.
    In fact, airlines are discovering that pilots with these 
backgrounds face great difficulty adapting to structured 
airline operations. Since the rule was implemented, airlines 
have needed to screen far more applicants just to find pilots 
who met their--who meet their own strict internal criteria. One 
of our airlines, for example, seeking to hire 800 pilots, 
successfully attracted 2,700 applicants. Of those, just 400 met 
the airline's own internal criteria.
    Overall, carriers report a diminishing quality of 
applicants, given the forced time-building culture, with skills 
deteriorating over time. One airline put it this way, ``We 
waste a lot of time in training breaking bad habits pilots 
acquire while trying to quickly get to 1,500 hours.''
    A University of North Dakota study, paper under review, 
highlighted these concerns, comparing pilots hired before the 
rule with those hired after. The results show pilots hired 
after the rule had a significantly higher number of total 
flight hours, but were more likely to need additional training 
and less likely to successfully complete training than those 
hired before the rule. Far from wishing to weaken these 
important safety measures, our objective is to strengthen 
first-officer qualifications and provide for even better pilot 
training.
    Regional airlines will continue to do our part. We've 
already offered wage increases, signing bonuses, enhanced 
flowthroughs, and bridge programs. Airlines will continue 
adjusting training programs and expending additional resources 
to ensure that all new-hire pilots have the skills to move from 
training into the ranks of qualified and competent line pilots.
    We can prevent the unintended consequences that have 
developed by placing pilots from accredited and structured 
training programs into the professional ranks sooner, in a 
thoughtful and intentional way. We are committed to enhancing 
the post-hire environment in a way that ensures the highest 
level of safety.
    In addition to the unintended hiring consequences we're 
seeing, airlines are reporting new constraints on flying. 
Without pilots to operate all equipment, airlines will be 
forced to up-gauge while parking smaller aircraft. As this 
committee knows well, smaller aircraft are needed for smaller 
communities. The impacts already seen are just the beginning.
    Before I close, I'd like to discuss compensation. The 
marketplace, and, to a great extent, collective bargaining, 
determine pilot pay. We are seeing the marketplace react with 
significant signing bonuses for new-hires that are increasing 
compensation throughout the sector. However, most regional 
airline wages are governed by collective bargaining agreements. 
These determine how existing salary resources are allocated 
among senior and entry-level pilots.
    Overall, regional airline wages have been increasing, but 
the problem with the availability and the quality of new pilot 
candidates persists. We are proud that regional airlines have 
contributed in important and in central ways to the 
extraordinarily safe industry that we are today. We're grateful 
for the steady oversight of this committee toward that end, and 
all of its members. And I thank you for the opportunity to 
participate today.
    Thank you.
    [The prepared statement of Ms. Black follows:]

     Prepared Statement of Faye Malarkey Black, Interim President, 
                      Regional Airline Association
Opening statement
    Good afternoon, Chairwoman Ayotte, Ranking member Cantwell and 
Members of the Subcommittee. Thank you for the invitation to testify at 
this hearing. I'm Faye Malarkey Black, Interim President of the 
Regional Airline Association (RAA).
    Regional airlines carried about 157 million passengers and served 
623 U.S. airports last year. At 394 airports, 223 in the 48 contiguous 
states, regional airlines provide the only source of scheduled air 
service. Regional airlines operate 46 percent of the Nation's passenger 
flights. I am proud that the safety of passengers and employees is the 
number one priority of the RAA's member airlines--every day, and on 
every single flight. The RAA's member airlines are constantly working 
to evolve and advance safety.
Regional Airline Safety Commitment
    Safety has progressed significantly for all airlines in the past 
decade, and regional airlines have remained on the leading edge in this 
effort. Much of the advancement in safety has been associated with the 
continued implementation of specific programs and the proactive 
implementation of safety management systems (SMS) in advance of FAA 
rulemaking. All of the RAA's part 121 member airlines have fully 
implemented Aviation Safety Action Programs (ASAP) safety reporting 
programs, which are designed to bring forward information to allow 
airlines to learn from incidents or errors in an effort to prevent 
occurrence or reoccurrence. Flight data monitoring and analysis 
programs, referred to as FOQA, are also in place at nearly all the RAA 
member airlines, and provide a powerful window into flight operations 
through aircraft data.
    The most important aspect of these programs is that the collected 
data is used in a meaningful and proactive manner to manage risk. To 
facilitate use of the data, there are sophisticated systems in place 
that promote the sharing of this safety information for the purpose of 
continuously improving aviation safety. Programs like the Aviation 
Safety Information Analysis and Sharing (ASIAS) system enable 
participants to understand and incorporate the lessons learned through 
numerous voluntary programs, creating an enriched, industry-wide safety 
culture supported by statistically significant data. This extensive 
repository of information collected from airline voluntary safety 
programs allows airlines to monitor and collaborate on known risk, 
evaluate the effectiveness of risk mitigation efforts, and detect 
emerging hazards. Today, regional airlines represent over 40 percent of 
the ASIAS participants and provide nearly 50 percent of the data 
analyzed.
    Moreover, many regional airlines have implemented Advanced 
Qualification Programs (AQP) that further enhance safety. With the goal 
of achieving the highest possible standard of individual and crew 
performance, these programs rely on multiple data sources, including 
ASAP and FOQA, to tailor airline training to be responsive to changes 
in aircraft technology, operations, and mitigations of any identified 
hazards. The RAA member airlines are also represented on the Commercial 
Aviation Safety Team (CAST) and implement the comprehensive Safety 
Enhancements developed to continue reducing the commercial aviation 
fatality rate in the United States. Additionally, the RAA's members 
successfully complete a number of independent safety audits that are 
designed to evaluate the operational management and control systems of 
an airline. In conjunction with internal evaluations, rigorous 
independent safety audits are an element of safety management which 
subjects airline operations to a systematic, critical evaluation. These 
audits determine whether system processes comply with regulatory 
requirements, whether they are implemented effectively, and whether 
they are suitable to achieve expected results.
    Perhaps the most holistic safety innovation has been the ongoing 
implementation of SMS, which combines numerous safety elements into a 
cohesive company-wide system to proactively manage risk. While it 
includes such programs already mentioned, like ASAP and FOQA, SMS is 
far broader. SMS ultimately focuses an organization's culture around 
safety. Policies, processes, systems, and culture combine to instill 
safety and the objective to minimize risk as a core business value. 
This, SMS, defines the modern regional airline. Most of the RAA members 
proactively implemented SMS as part of a voluntary FAA pilot program in 
advance of the new rule, putting the regional sector in a safety 
leadership role.
    There are many other specific areas of focus for regional airlines, 
including studies and programs to address pilot fatigue, innovations to 
reduce the risks during approach and landing, and a host of other 
initiatives. For example, the regional airline industry has provided 
key support and funding for an independent, four-phased study, 
conducted by Washington State University, on the topic of pilot 
fatigue. While the science supporting duty start time is well 
established, there was a void in the science with respect to the type 
of multi-segment operations typical to regional airlines. Seeking to 
fill that science gap, the RAA and WSU launched the Fatigue Study by 
comparing fatigue experienced by pilots in a duty day with multiple 
take-offs and landings against a duty day of equal duration with a 
single take-off and landing.
    Each of these programs and initiatives independently, as well as 
how they function together as a single enterprise system that governs 
all operational areas, illustrates the tremendous progress and 
continuous improvement the industry has made toward advancing airline 
safety. These programs are the fundamental reason the United States 
enjoys the safest air transportation system in the world.
Impact of First Officer Qualification (FOQ) regulations on Pilot 
        Workforce and Training
    As this Committee knows well, Federal regulations enacted in the 
past six years, alongside industry initiatives, have brought about 
additional, important improvements in aviation safety. In 2010, 
President Obama signed into law the Airline Safety and FAA Extension 
Act, which contained a number of provisions of which this committee is 
well aware. One of the notable rulemakings involved the requirement for 
airline first officers to possess an Airline Transport Pilot (ATP) 
certificate, and 1500 hours in flight, with some credit awarded to 
military and academic structured training, in order to fly in FAR Part 
121 operations. Formerly, the ATP requirement only applied to airline 
captains.
    The RAA believes that rulemaking, implemented in 2013, has provided 
a framework to introduce enhanced knowledge and training for pilots 
entering the cockpits of our airliners. The RAA agrees with the safety 
enhancing rationale behind the rule, and strongly support changes such 
as requiring pilots to undergo training in specific airline conditions, 
like high-altitude and severe-weather operations, and a requirement 
that a pilot spend 50 hours ``in class of airplane'' time. The RAA also 
supported the requirement that first officers in 121 operations hold an 
aircraft type rating. These are just some of the examples of the ways 
this rule has meaningfully advanced safety.
    Moreover, the experience we have obtained since implementation has 
provided us useful insights into how to evolve FOQ further, focusing on 
the unintended consequences the regional airlines are experiencing 
under the rule. As we examine that process, we continue to voice our 
deep concern over a specific element of the FOQ provision requiring 
pilots to amass 1500 hours of flight time before FAA recognizes them as 
being qualified airline first officers. Our job as professionals in 
this industry is to promote continuous learning and improvement in all 
aspects of training and operations. Although we believe the rule has 
carried many benefits, we have identified areas that will benefit from 
continued enhancements to the rule. In particular, regional airlines 
are experiencing unintended consequences from a requirement of 1500 
hours of flight time for first officers. To be sure this is a 
contentious issue, but it need not be. We believe we can all agree that 
the training, knowledge, and skills required under FOQ are beneficial 
to safety. And we believe, as professionals, that this industry--both 
airlines and the FAA--have continually approached challenges 
collaboratively with facts and professional observations. And we have 
always been willing to adapt to improve safety. Again, to be perfectly 
clear--the FOQ rule and the opportunity to enhance it is a safety issue 
for all of us, as is reversing the unintended negative impacts the rule 
has had on pilot supply.
    To that end, I want to discuss our observations related to the 
unintended consequences of FOQ. And I know that anything labeled 
``unintended'' will not be taken lightly in this room--safety is 
intentional and anything that is ``unintended'' must be carefully 
examined. As we do that, I know that any changes must be well thought-
out and part of a package, which, as a whole, further advances safety.
    The stated intent of Congress in modifying the requirements for 
pilots who fly in part 121 operations was to ``ensure that all pilots 
entering air carrier operations have a background of training and 
experience that will allow them to adapt to a complex, multi-crew 
environment in a variety of operating conditions.'' However, the 
reality is that the regional airlines are struggling to fill new hire 
classes with pilots whose experience contains the background consistent 
with the intended requirement. The FOQ provision has had far-reaching, 
unintended consequences. Frankly, the FOQ places an emphasis on flight-
time that favors candidates who have amassed 1500 hours over candidates 
who have undertaken academic pathways through their piloting career but 
have not amassed 1500 hours. This has changed the quality of the 
candidate pool considerably. Those candidates with 1500 hours may not 
have a structured training background at all, and those candidates 
coming from structured training programs are now forced to build 
``unstructured'' hours after graduating. The process of building hours 
takes significant time, and that time away from training is noticeable 
to airlines evaluating new hires' training performance.
    Historically, regional airlines hired qualified pilots directly 
upon completion of an academic aviation program or shortly thereafter. 
We know that this has changed--such pilots must gain either 1000 or 
1250 hours, based on their academic qualifications--and military pilots 
must gain 750 hours. These provisions of FOQ focus on the value of such 
structured training programs. An unintended consequence of the 1500-
hour provision--even with credit for hours from academic credentials--
is a substantial gap in the path of pilot development, between 
graduation and qualification for employment.
    Instead, graduates from university programs seeking a career as an 
airline pilot are now forced to suspend their training at a very 
critical juncture in order to spend one or more years building hours, 
potentially at their own, significant expense. Most of these pilots 
build time in unstructured environments, which do not provide for the 
development of skills relevant to a commercial airline pilot. For 
example, a pilot might work as a crop duster or power/pipe line 
patroller for hundreds of hours. This is generally not time spent 
flying under instrument flight rules, in inclement weather conditions, 
managing complex avionics, or learning to work as part of a team of 
professional crewmembers.
    Other pilots seek to build time by working as flight instructors, 
although, naturally, flight instructor positions will diminish as fewer 
students enter the pilot pipeline. Nonetheless, flight instructing has 
been a traditional path for working toward an airline career, offering 
valuable benefits such as learning leadership and communications 
skills. However, the new rule has now created an unintended problem 
with this path. Pilots are now required to work so many additional 
hours as instructors that the benefits of doing so are outweighed by 
negative impacts. These negative impacts are neither theoretical nor 
insignificant. Rather, they go to the heart of a person's development 
as a professional pilot. In particular, experience has shown that there 
is a point of diminishing value as flight instructors surpass many 
hundreds of hours of instruction. Instructors become increasingly 
removed in time from focusing on their own skill development, have less 
opportunity to fly, and the flights they make tend to be the same 
flight repeated hundreds of times.
The growing pilot shortage has implications for the quality of pilot 
        candidates
    According to the FAA's U.S. Civil Airman Statistics, between 1978 
and 2014, a reduction of 24 percent in active pilot certificates took 
place. Additionally, fewer students are entering the pipeline. In 1978, 
student pilot certificates accounted for 26 percent of the total 
certificates held. But in 2009, this number dropped to just 12 percent. 
Following an FAA rule lengthening the period of time before student 
certificates expire, the percent of total increased to 20 percent, 
without necessarily introducing new student pilots to the mix. 
Consequently, there have been fewer original certificates issued. From 
2009 to 2013, there was a 10 percent reduction in original student 
pilot certificates issued, a 21 percent reduction in original private 
certificates issued, and a 28 percent reduction in original commercial 
pilot certificates issued. When compared to 1990, these reductions are 
considerably more dramatic with 44 percent fewer original student pilot 
certificates issued, 62 percent fewer original private certificates 
issued, and 47 percent fewer original commercial pilot certificates 
issued. Furthermore, surveys of academic aviation program students 
indicate that only about half of these certificate holders intend to 
pursue a career as an airline pilot.
    What's more, according to a recently-released RAND Corporation 
report (Air Transport Pilot Supply and Demand: Current State and 
Effects of Recent Legislation, March 2015) 45 percent of new Commercial 
Certificates are issued to foreign students. Finally, Airline qualified 
pilots are aging: Since 2009, the number of certified pilots (private/
commercial/ATP) older than 59 has increased more than 8 percent. 
Certified pilots aged 20-59 (private/commercial/ATP) are not increasing 
at the same rate, in fact, conversely to the 60+ group, there are 14.7 
percent fewer pilots aged 20-59 in 2014 than in 2009.
    The new hours-building element of the first officer requirements 
contributes further, and significantly, to this growing pilot shortage 
by dramatically increasing education costs and interrupting the 
structured path for future airline pilots. Aviation students no longer 
have a direct path to becoming an airline pilot; they must first 
overcome years of uncertainty as they work to build hours. This creates 
a barrier of entry for recent graduates of highly-regarded academic and 
structured training programs and promotes movement to other industries. 
This new career uncertainty will undoubtedly discourage potential 
aviators from pursuing airline pilot careers. Universities have 
reported that many pilots are simply leaving the career path before 
they finish school, seeing no financial way to bridge the gap in flight 
time to a career with a commercial carrier--regional or otherwise.
    Amidst this challenging recruiting environment, airlines are seeing 
another discouraging trend in newly-hired pilots; fewer and fewer new 
hires have recent piloting experience as flight instructors, military 
pilots, pilots for other airlines, or flying in 91/135 operations. A 
recent survey of the RAA member airlines revealed that the percentage 
of new hire pilots most recently employed as flight instructors dropped 
from 40 percent in 2013 to 32 percent in 2015. In April 2015 alone, 38 
percent of new hires had recent experience other than the 
aforementioned (typically most successful in training) occupations. An 
additional noteworthy outcome from this survey is that 17 percent of 
pilots hired since January 2013 were most recently employed at other 
regional airlines. This last point highlights a lack of new pilots in 
the pipeline.
    Although the regional airline industry has redoubled its recruiting 
efforts, offered substantial signing and retention bonuses, and 
implemented and strengthened existing pipeline programs with the 
country's best universities, this fact remains: the number of pilots 
qualified for hire has shrunken dramatically as airline industry demand 
for pilots continues to rise. Furthermore, not all of these remaining 
pilots can meet individual airline hiring requirements or make it 
through airline training programs.
    Demand, coupled with the changed criteria emphasizing 1500 hours of 
flying time, has also caused different types of candidates to seek 
employment with regional airlines. These pilots may have flown 
recreationally for years, with no or limited commercial experience, but 
they meet the 1500 hour requirement. These candidates are among the 
roster of ATP holders listed, and some have suggested that these 
pilots, who meet the flight-hour requirements, should be able to fill 
pilot vacancies. Experience has shown that this is not often the case.
Unintended Training Outcomes
    Airlines are discovering that pilots with backgrounds comprised 
predominantly by hours of unstructured flying face great difficulty 
adapting to structured airline operations, and the washout rate, an 
industry term for the failure of candidates to pass airlines' initial 
screening processes, has been disappointingly high for these 
candidates.
    The RAA's member airlines are highly selective about the candidates 
they put through their training programs, which require strong skills 
and airmanship. Unfortunately, the new rule is limiting access to the 
best and most proficient aviators. Airlines have observed, since FOQ 
implementation, a distinct change in the percentage of those applying 
and interviewed versus those hired for pilot jobs. By this I mean, we 
are screening far more applicants to find pilots qualified for the job. 
Of course, we will not change our high standards in the face of these 
challenges. One of our airlines has shared its story publicly: seeking 
to hire 800 candidates, the airline successfully attracted 2,700 
applicants. Of those applicants, only 400 met the airline's own 
rigorous requirements.
    Airlines' high evaluation standards are also reflected in training 
failure rates, which have increased, despite enhanced training 
protocols that regional airlines have put in place since the 1500 hour 
provision went into effect. One airline reports a three-month period 
where not one first officer candidate was able to successfully complete 
training at the airline.
    Moreover, carriers report an overall degradation in the quality of 
applicants, citing the forced time-building culture has offered no 
merits other than hours in a log book, and noting the very real concern 
of skills slowly deteriorating over time, with bad habits developing. 
Some pilots who spent time in unstructured flying environments seem to 
have regressed in their instrument flying skills. The RAA member 
airlines have had to expand training in order to bring pilots who have 
been away from their training ``up to speed.'' One member airline put 
it this way: ``proficiency remains a concern, as pilots are spending 
more time building low-quality time and have to be re-trained on 
procedures they learned in the solid aviation program they attended. 
Our training programs are more than capable of bringing them up to 
speed, but it does require more effort from the pilots and instructors 
as valuable proficiency is lost in low-quality flight environments.'' 
Another notes, ``We waste a lot of time in training breaking bad habits 
acquired during time spent trying to quickly get the 1,500 hours.''
    We believe all of this reflects the unintended consequence of the 
1,500 hours provision, with its focus on accumulated flight time. Of 
course, our member airlines have upheld safety despite this additional 
challenge, and have redoubled efforts to counter this observed 
regression in proficiency by incorporating additional training sessions 
for new hires, and, in some cases expanding initial operating 
experience with a check pilot.
    In addition to these shared stories, our airlines are participating 
in ongoing data collection and research on pilot sourcing and 
performance. In order to test whether or not the FOQ ruling improved 
the quality of first officers flying for part 121 carriers as intended, 
a University of North Dakota study (paper currently under review) at a 
regional carrier compared pilots hired prior to the FOQ ruling with 
those hired after the FOQ ruling. The study compared 232 pilots hired 
from 2005-2008 with 184 pilots hired from August 2013-November 2014.
    The pilots were compared in three areas: Total Flight Hours, 
Training Completion and Extra Training Events. The results of the study 
show that, while pilots hired after the FOQ ruling had a significantly 
higher number of total flight hours, that group was more likely to need 
additional training and less likely to successfully complete training 
than those who were hired prior to FOQ. The average total flight hours 
of a new hire pilot pre-FOQ were 1,654 and post-FOQ were 3,095. Prior 
to FOQ, nine percent of new hire pilots required extra training events; 
following the rule, that percentage had more than tripled, with 33 
percent of post FOQ new hires requiring extra training. Additionally, 
prior to the rule, four percent of new hire pilots failed to complete 
training; and following the rule, ten percent of new hires failed to 
complete training. Although more research is needed, the study 
illustrates some of the unintended consequences of the FOQ ruling.
Enhancing the Pathway to Pilot Safety and Proficiency
    It is imperative that the traveling public, from the smallest 
communities to the largest, have confidence that they are flying with a 
well-trained and proficient crew. It is also important that regional 
airlines feel confident about our hiring pool so that we can continue 
to provide safe service to communities large and small. Safety and 
training experts within the airline industry must continue to innovate 
and to suggest ways to enhance the training experience for our crews. 
Our experience since the implementation of the FOQ can inform 
meaningful dialogue for adaptation and change.
    We believe the pathway to becoming a professional aviator works 
best when it allows for a seamless transition between top-notch 
professional aviation programs and the rigorous training programs 
offered by regional airlines. But the building of a professional 
aviator goes further still. A comprehensive approach to all aspects of 
a pilot career--from the time he or she first dreams about flying, 
until a captain's retirement flight--is needed. And mechanisms to 
ensure quality, promote professionalism, and assess, adapt, and evolve 
training based on real data will serve us well.
    The RAA is working on a number of major initiatives and suggesting 
others that we believe are needed to ensure that the goal of putting 
the best possible pilots into the control seats is truly met. These 
initiatives are mutually dependent and constitute a comprehensive 
approach to the pilot training pathway. The intent is to strengthen FOQ 
and provide for even better pilot training. We want to continue to work 
with this Committee, the FAA, and our industry and employee partners 
toward solutions that can accomplish all of these goals.
    Successful solutions will be multi-faceted and include commitment 
on many fronts. We need adjustments to eliminate that lapse of time 
between training and hiring by allowing for addition credits toward the 
1500 hours, overcome the notion that all flying time is equally 
enriching, improve the quality of the new hire candidates at regional 
airlines, and to allow for alternate civilian pathways to a career as 
an airline pilot that permit airlines to hire pilots from structured 
training programs before they begin amassing unstructured hours.
    On our part, regional airlines are striving to promote and support 
the airline pilot profession by showing and encouraging future aviators 
the career is exciting and rewarding. The RAA, our members and their 
stakeholders are involved in a number of different ways generating 
enthusiasm and passion for a career in the sky. We are involved in the 
Organization of Black Aerospace Professionals, Women in Aviation, the 
University Aviation Association, and more, and both our Association and 
individual members are participating in STEM outreach programs in order 
to help introduce youngsters to the technical fields.
    Partnerships between universities and regional airline partners are 
critical. Those partnership are already strong, but getting stronger 
every day. Pilots, mechanics and other aviation leaders are visiting 
campuses each day to talk about their careers and to encourage and 
mentor young students. Regional airlines readily provide samples of 
their operational manuals, training curricula and even training devices 
to schools. By providing airline training curricula, for example, the 
students can be taught from day one with the course structure and 
standards of professional aviators.
    The RAA member airlines are also involved in professional 
development for professors, offering opportunities to serve on their 
staffs during sabbaticals, lending their own perspectives on enhancing 
airline training, and gaining valuable experience in the process. The 
RAA participates in the AABI Industry-Educator Collaboration Committee 
and is continuing to assist in brokering partnerships between academia 
and the regional industry. Regional airlines are now heavily plugged 
into AABI and the collegiate scene, in recruiting, internships, 
advisory boards, research collaboration and professional development, 
with regional people speaking at universities and professors spending 
extended periods of time at airlines.
    We believe in the value of accreditation, for it sets standards 
jointly agreed to by both industry and academia--and it sustains those 
standards in periodic accreditation visits--holding such programs to a 
quality level that is enviable worldwide. The RAA sits on the Board of 
Aviation Accreditation Board International (AABI), which sets and 
maintains the standards for aviation university programs worldwide. 
AABI has always been jointly administered by both industry and academia 
and it has provided superb results for enhancing professional education 
and technical training. While accreditation is a means by which the 
quality of collegiate training organizations can be evaluated, 
providing a way to ensure compliance with appropriate standards and 
outcomes, we also see the value of other structured training providers 
working under the provisions of FAR Part 141. They, too, can provide 
structure, oversight and professionalism to ensure a standardized and 
qualified pilot who completes training. Such training providers could 
well be considered for inclusions into the hour-reduction provisions of 
FAR Part 61.160.
    We must continue to define a clear career path so that those 
already interested in and pursuing the profession see open doors and 
opportunities. And most importantly, we must continue to work together 
to ensure that the best, most qualified pilots are flying in airline 
cockpits today and that airlines can hire from pools of the best, most 
qualified pilots who have no lapse in their structured training 
backgrounds and who are prepared to transition into the complex 
environment of a commercial airline.
    Regional airlines will continue to do our part. We have established 
self-help measures currently in place, such as stepped up recruiting 
efforts, wage increases, signing bonuses, flow-through and bridge 
programs. Our member airlines have built ground-breaking professional 
pathway programs and continue to build others with their mainline 
partners. The RAA encourages and promotes such pathways, for, like any 
profession, a defined path goes far in facilitating career entry to 
aspiring professionals and the families who are contemplating funding 
their training.
    Airlines will have to continue adjusting training programs, 
extending training footprints, and expending additional resources to 
ensure that all cadres of new hire pilots have the knowledge, skills, 
and abilities to move from training into the ranks of qualified, 
competent, and proficient line pilots. The additional training 
resources dedicated by airlines today are often to no avail and result 
in training failures (washouts) when new hire pilots cannot meet the 
airline's standards. Instead, these resources could be dedicated to an 
alternate pathway that guarantees the creation of a highly-qualified 
new pilot.
    We would like to work collaboratively with lawmakers, regulators, 
and stakeholders to develop a comprehensive pilot training pathway that 
truly enhances safety.
    Our job as professionals in aviation is to continue to focus on the 
best training and the timing of that training. By continuing to refine 
FOQ and to consider the enhancements we suggest, we can prevent the 
unintended consequences that have developed in the past few years by 
placing pilots from accredited and structured programs into the 
professional ranks sooner, in a very thoughtful and intentional way. 
And, as we continue to ask for an evaluation of the hour requirement 
for accredited and structured programs, we want you to know that we are 
committed, as an industry, to enhancing the post-hiring environment in 
a way that ensures the highest levels of safety.
An Additional Unintended Consequence is Air Service
    Although we wish to speak primarily about unintended training 
consequences of the 1500 hours provision of the FOQ rule, the Committee 
has asked us to address another unintended consequence of the rule, 
which is unfortunately, already becoming well-known by many 
communities.
    The expected wave of pilot retirements at the mainline carriers is 
formidable, with cumulative retirements projected at more than 16,000 
between now and 2022. To offer perspective, the full contingent of 
pilots in the regional aviation workforce numbers less than 18,000. 
(Air Carrier Financial statements recorded by Bureau of Transportation 
Statistics, Form 41, Schedule P-10, latest available CY2013). The 
network carriers will continue to find the best and brightest pilots 
working at regional airlines. This is how the professional pilot 
pathway is supposed to work and represents a natural career 
progression. However, given such high industry attrition, if the 
commercial airline pilot pool remains static and a comprehensive pilot 
training pathway is not restored, implications for small community air 
service could be far-reaching.
    According to industry analyst Bill Swelbar, Executive Vice 
President for InterVISTAS Consulting, if the commercial airline pilot 
pool remains fixed over time, the regional airline industry will shrink 
to 20 percent of its present-day self within a decade. Swelbar further 
observes that with 302 70 -seat aircraft on order, the industry would 
need to park about 569 units just to staff this larger equipment. 
Facing a scarcity of pilots, many regional airlines will be forced to 
up-gauge to larger equipment in order to ration their flying and stay 
in business. As this committee knows, these smaller jets and turboprop 
aircraft predominantly serve small and medium-sized communities. 
Without sufficient pilots to operate all of an airlines' equipment, 
smaller communities across the Nation will unquestionably lose air 
service. This air service represents a key economic driver by providing 
direct and indirect jobs for Americans as well as ensuring the 
connectivity needed to remain competitive.
    While some stakeholders have referred to this as ``tomorrow's 
problem,'' here are some examples of the 1500 hours provision playing 
out on small community air service today, with carriers reporting new 
constraints on every area of the flying schedules.

  <bullet> One airline has reduced flights scheduled and block hours 
        year-over-year by approximately 20-25 percent.

  <bullet> Another airline reports being 15--20 percent short on 
        pilots, leaving revenue flights uncovered every day.

  <bullet> Other airlines have not yet changed schedules, but have 
        needed to cancel individual flights due to lack of crew.

  <bullet> One airline reports no ability to cover sick calls or spare 
        aircraft protection, given limited crew resources.

  <bullet> Many airlines expect peak seasons to present particular 
        difficulty.

  <bullet> All regional airlines report that recruiting efforts are 
        becoming substantially more difficult.

  <bullet> Several regional airlines have already collectively grounded 
        more than 100 regional aircraft, and have announced plans to 
        remove many additional aircraft in the next 12-18 months, in 
        part due to insufficient pilot availability that meet their 
        stringent, internal hiring criteria.

  <bullet> Another airline was formerly serving 64 cities, but today 
        serves just 32--due to an inability to staff their former 
        schedule with qualified pilots.

    These examples stretch on; these are just a few. And the 
consequences are not limited to just the airlines and communities they 
serve. As industry analysts predict, some airlines have changed their 
fleet plans to account for fewer pilots already, others are still 
evaluating long-term fleet plans. Some airlines are simply in ``growth 
hold mode'' for now, despite plentiful new service opportunities, 
because they cannot hire sufficient pilots. Airlines have even begun to 
pull management and training pilots from their regular duties to 
fulfill revenue flying, and the cascading effects have impacted 
training throughput and focus on management initiatives. The effects on 
small and medium-sized communities across America have been articulated 
in the statistics, too. It is clear that small-town America is losing 
its connectivity. In 2004, 862 U.S. airports had scheduled domestic 
departures. In 2014, only 642 airports had scheduled domestic 
departures, marking a 25.5 percent reduction in airports served. (T-100 
Domestic Segment U.S. Carriers). Overall, since 2004, there has been a 
19 percent reduction in domestic passenger departures performed.
    And of course, even as pressures mount on small community air 
service, no new communities may be added to the Essential Air Service 
roles under the current statute in the event a community loses air 
service altogether. And, among current EAS communities, the dearth of 
Air Transport Pilots resulting from the rule change has pushed some 
existing Essential Air Service communities into single-engine aircraft 
that are operated in the program only by exemption from a multi-engine 
requirement--a requirement imposed in EAS statutes because multi-engine 
aircraft offer redundancy in case of engine failure. Because single-
engine aircraft do not require the pilot-in-command to hold an Air 
Transport Pilot certificate, and multi-engine aircraft do, the new rule 
creates an incentive for airlines to down-gauge service from multi-
engine to single-engine aircraft.
Pilot Wages
    Before I close, I want to discuss pilot compensation. The 
marketplace and, to a great extent, collective bargaining, determines 
pilot pay. We are seeing the marketplace react in a number of areas, 
with significant signing bonuses for new hires that, effectively, are 
increasing compensation throughout the sector.
    Generally, influences on pilot pay scales include position 
(captain, first officer), seniority, the revenue potential of the 
aircraft and market, passenger price sensitivity, structured fee-for-
departure agreements with major airline partners, and other external 
constraints. Notably, most regional airline wages are governed by 
collective bargaining agreements. Unions negotiate and then ratify 
these agreements on behalf of all their members, including first 
officers. Collective bargaining agreements determine how existing 
salary resources are allocated among senior and entry-level pilots, 
often favoring higher pay for captains at the expense of lower pay for 
first officers. For example, in some cases, pilot groups have rejected 
tentative labor agreements that would have improved first officer wages 
or enhanced flow-up to a major airline.
    It is typical at both regional and network airlines to see wages 
for first officers in their first year notably lower than subsequent 
years. At regional airlines, on average, first officer pay increases 32 
percent between year one and year two, and on average 52 percent by 
year five. Additionally, in year one, regional airlines make 
additional, significant financial investments in a new hires, providing 
airline systems and safety training, which represents an investment of 
between $25,000-35,000 per pilot--during the first year. Notably, this 
training is portable; the pilot will use it for the duration of his or 
her career. Finally, elements of total compensation that should not be 
dismissed include retirement benefits and 401K matching, medical 
benefits, and profit sharing.
    More to the point, most regional airline salaries have already been 
increasing, and many airlines have offered significant signing bonuses, 
yet, the problem persists. One regional airline has offered industry-
leading wages--wages that are higher than some mainline counterparts--
but nonetheless reports difficulty in attracting qualified candidates. 
Even after instituting these dramatic pay increases, the carrier is not 
fully filling new hire classes.
The RAA Supports the Swift Implementation of a Comprehensive Pilot 
        Records Database
    This Committee has worked hard to drive improvements to pilot 
recordkeeping, and the RAA thanks the Chair, the Ranking Member, and 
the Committee for its interest in the pilot records database issue. The 
RAA strongly supports Section 203 of the Airlines Safety and FAA 
Extension Act of 2010 (Pub.L. 111-216), which directs the FAA to 
establish a comprehensive pilot database. The Association urges the 
Committee to continue its oversight of, and support and encouragement 
for, the creation of a comprehensive pilot records database.
    The RAA has long supported this initiative. In fact, the RAA 
requested that FAA create a single, integrated database of pilot 
records in the summer of 2009. The RAA stands ready to assist on this 
effort and stands as a resource as we urge FAA to safely and swiftly 
implement this important safety tool.
Conclusion
    Regional airlines have continually embraced the industry-wide focus 
on raising the safety bar and have seen considerable advancement in 
recent years. We are proud that regional airlines have contributed in 
important and essential ways to the extraordinarily safe industry we 
are today. We are grateful for the steady oversight and contributions 
this Committee has made to partner with us toward that end.
    Thank you for the opportunity to testify today.

    Senator Ayotte. Thank you, Ms. Black.
    And we will now hear from Mr. Mark Baker, President and CEO 
of the Aircraft Owners and Pilots Association.
    Mr. Baker.

STATEMENT OF MARK BAKER, PRESIDENT AND CEO, AIRCRAFT OWNERS AND 
                       PILOTS ASSOCIATION

    Mr. Baker. Thank you, Chairman Ayotte, Ranking Member 
Cantwell, members of the Subcommittee. And thank you for 
inviting me here today.
    As mentioned, my name is Mark Baker, and I'm President and 
CEO of the Aircraft Owners and Pilots Association, a not-for-
profit individual organization representing over 350,000 
general aviation aircraft owners and pilots.
    My testimony today will make three key points: first, that 
general aviation is a national asset which is struggling partly 
as a result of an overly prescriptive regulatory environment; 
second, general aviation safety has improved significantly, and 
can improve further if industry and government work together; 
and third, general aviation is at a critical juncture where 
regulatory and certification changes, medical reform, and 
grassroots efforts can strengthen this important industry.
    In 2013, general aviation, or GA, produced $219 billion in 
economic output and support of 1.1 million American jobs. But, 
GA has experienced a significant decline in recent years, 
losing an average of 6,000 pilots per year. At the same time, 
the number of single-engine piston aircraft produced in the 
U.S. has fallen dramatically, from 14,000 in 1978 to just 700 
in 2014. AOPA and others are working to reverse this trend, but 
we need the support of Congress to create an environment that 
fosters growth.
    GA safety has dramatically improved in recent decades. We 
strongly believe it will continue to improve through education 
and technology, rather than more stringent government policies 
and regulations.
    Sixty-two percent of GA accidents result from three causes: 
loss of control, controlled flight into terrain, and engine 
failures. AOPA, along with the Air Safety Institute and 
government and industry partners, is working to address these 
causes. The AOPA Safety Institute provides free education, 
analysis, and research regarding GA safety.
    ASI produces the Nation's premier safety report, the annual 
Nall Report, and offers more than 300 safety-educated products. 
In 2014, the ASI educational outreach exceeded 2 million 
interactions.
    AOPA holds a leadership role on the General Aviation Joint 
Steering Committee, which works to improve safety through data-
driven risk-reduction efforts. AOPA co-chaired the Joint 
Steering Committee's two most recent working groups on loss of 
control, and developed comprehensive safety enhancements that 
are being implemented by government and industry.
    Changing technology has made integrating UAS drones into 
the flight environment increasingly important. AOPA has worked 
closely with the FAA to ensure that the regulations protect 
pilots, passengers, and bystanders. We appreciate the FAA's 
current regulatory efforts and, last week, provided formal 
comments designed to close some gaps in the proposed 
rulemaking. We look forward to working with FAA to address 
other types of UAS operations, including providing additional 
education for recreational UAS operators.
    The AOPA and others have also recognized the need to better 
train and test new GA pilots. Following a multi-year industry 
and government project, FAA's written tests are now being 
reworked to ensure they are relevant in addressing knowledge 
and skills in risk management.
    Safety can be further enhanced with better and smarter 
aircraft. A Cessna 172 manufactured today is, other than 
avionics, essentially the same airplane that was designed and 
produced in 1955. For good reason, Ford and Chevy no longer 
produce 1955 fleets. But, the costs of certification and 
economies of scale have slowed aircraft advancements.
    Since 2008, FAA and Congress and the industry have been 
working to streamline and simplify Part 23 certification 
standards, which cover the manufacturing and alteration of 
aircraft. Because the average age of the general aviation fleet 
is now 45 years--compare that to a car that was built in 1970, 
before safety features like airbags and crumple zones--we must 
also make it easier to bring the new safety equipment into 
older aircraft. Although change is underway, it's moving very 
slowly.
    General aviation is a critical point, as evidenced by the 
trends I have presented here. Of the utmost importance to GA's 
future is third-class medical reform. More than 3 years ago, 
AOPA and the Experimental Aircraft Association petitioned the 
FAA to expand a policy used successfully for more than a 
decade. The fact that it has taken so long for the FAA and DOT 
to review what is simply a limited expansion of an existing 
standard highlights the need to reform the FAA's procedures. To 
date, 100 bipartisan Members of Congress, including many of 
you, have recognized the need for the reform, and have 
cosponsored the legislation which would expand FAA's successful 
sport pilot medical certification standard.
    I'd like to say thanks to Senators Inhofe, Manchin, Ayotte, 
Boozman, Casey, Daines, Donnelly, Heitkamp, King, Kirk, 
Fischer, Hatch, Heller, Moran, Murkowski, Rand, Roberts, 
Rounds, Shaheen, Sullivan, Tester, Ward, Wicker, and Wyden.
    In summary, GA needs your help. We look forward to working 
with you on the Pilot's Bill of Rights 2 and the upcoming FAA 
reauthorization, both of which stand to put our industry in a 
much needed climb.
    Thank you.
    [The prepared statement of Mr. Baker follows:]

         Prepared Statement of Mark Baker, President and CEO, 
                 Aircraft Owners and Pilots Association
Statement Highlights
1.  General Aviation (GA), a national asset, has experienced decades of 
        decline. An aging fleet of aircraft coupled with a decreasing 
        pilot population has put the future of GA at risk.

2.  GA safety has experienced significant improvements over the past 
        few decades but we must work together to further mitigate the 
        known risks. Industry is leading several initiatives that have 
        the potential to positively transform aviation safety.

3.  The future of GA is at a critical juncture. Years of decline can be 
        reversed through a right-sized regulatory environment as well 
        as grassroots programs that lower the cost of participating in 
        general aviation and encourage more people to become involved.

    The Aircraft Owners and Pilots Association (AOPA) has more than 
350,000 members nationwide. As a not-for-profit individual membership 
organization, AOPA's mission is to effectively represent the interests 
of its members as aircraft owners and pilots concerning the economy, 
safety, utility, and popularity of flight in general aviation (GA) 
aircraft.
General Aviation, a national asset, has experienced decades of decline
    General aviation is a quintessentially American industry that 
comprises all flying outside of military and airline operations. In 
2013, 255,000 full-and part-time workers were directly employed in 
general aviation. Including indirect, induced, and enabled impacts, 
general aviation, in total, supported 1.1 million jobs and $219 billion 
in output. General aviation activity takes place from 5,200 public-use 
airports, including 3,380 that are part of the National Plan of 
Integrated Airport Systems and are eligible to receive Federal funding, 
as well as some 13,000 privately owned landing facilities.
    A national asset, GA must be not only protected but encouraged, 
promoted, and fostered. Yet, far too often, it is viewed as unsafe, 
only for the Nation's elite, or marred by those who operate well 
outside the bounds of the existing regulatory structure or even common 
sense. I'm here to tell you that GA is absolutely something to be 
enjoyed by all--people of all ages and professions, from every walk of 
life, background, culture, and location. But I will also tell you that 
we are at a critical point if we are to ensure the future health of GA.
    In a 1995 Notice of Proposed Rulemaking (NPRM), the FAA published a 
policy statement on General Aviation. In it, the FAA Administrator 
recognized that the general aviation industry is a critically important 
part of the Nation's economy and the national transportation system. He 
went on to state that----

        General aviation plays a crucial role in flight training for 
        all segments of aviation and provides unique personal and 
        recreational opportunities. It makes vital contributions to 
        activities ranging from business aviation, to agricultural 
        operations, to Warbird preservation, to glider and balloon 
        flights. Accordingly, it is the policy of the FAA to foster and 
        promote general aviation while continuing to improve its safety 
        record. These goals are neither contradictory nor separable. 
        They are best achieved by cooperating with the aviation 
        community to define mutual concerns and joint efforts to 
        accomplish objectives. We will strive to achieve the goals 
        through voluntary compliance and methods designed to reduce the 
        regulatory burden on general aviation.

    But since that statement was made, those goals have been separated 
and the mandate to foster and promote general aviation no longer 
exists. We at AOPA and our partners in industry have since taken the 
baton, but we must acknowledge that the removal of the dual mandate 
has, inevitably, had negative consequences for our industry.
    Over the past decade, the private pilot population has declined at 
a rate of more than 6,000 pilots per year. In 2004, the FAA estimated 
that there were 235,994 active private pilots. In 2013, the last year 
for which we have data, that number had dropped to 180,214, a reduction 
of more than 23 percent.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    At the same time, the number of new single-engine piston-powered 
aircraft being produced has fallen dramatically, from 14,398 in 1978 to 
just 716 in 2014. As the number of new aircraft being produced has 
declined, the purchase price has risen steeply while the value of the 
aging fleet has fallen. Today, more than 81,000 of the 188,000 
certified piston-powered aircraft on the FAA registry are worth $40,000 
or less, and those aircraft have a weighted average value of $25,800, 
yet a new, single-engine airplane will cost a pilot in excess of 
$500,000--well outside the reach of most American families.
    The numbers speak for themselves but AOPA and others are working 
hard to turn the tide and once again grow general aviation.
Safety continues to improve
    General Aviation safety continues to improve. Our community has 
made great strides over the past several decades, and we will continue 
to work collaboratively toward making our already safe system even 
safer.
    Unfortunately, we continue to see accidents resulting from similar 
causes, many of which are easily preventable. We at AOPA strongly 
believe that GA safety has and will continue to improve through better 
education and technology advancements rather than as a result of more 
stringent government oversight, policies, or regulations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Starting in 1940, GA had an accident rate of 7.30 fatal accidents 
for every 100,000 hours flown. Fast forward to 1960 and the rate was 
cut by more than half to 3.27 fatal accidents per 100,000 hours flown.
    Although many state that the GA accident rate is stagnant, even 
over the past 10 years we've seen marked improvement. In the 2004 
Fiscal Year, the FAA put the accident rate at 1.26 with a total of 
1,617 accidents, 314 of which were fatal. In FY 2013 those numbers 
improved to 1.11, one of the lowest rates ever recorded, with a total 
of 1,299 accidents, 259 of which were fatal.
    The majority of GA accidents, 62 percent, have three causes--(1) 
loss-of-control (LOC), (2) controlled flight into terrain (CFIT), and 
(3) engine failures. Loss-of-control alone accounts for more than 40 
percent of the total accidents and has been a targeted focus of AOPA 
and our government and industry partners, including the National 
Transportation Safety Board, for the past several years.
    We've made improvements but we must work to prevent similar 
accidents from occurring in the future.
AOPA's Air Safety Institute
    The AOPA Air Safety Institute (ASI) serves as a resource to all 
pilots--not just AOPA members--by providing free safety education 
programs, analyzing safety data, offering the premier study of general 
aviation safety in the form of the annual Nall Report, and conducting 
safety research.
    A trusted and respected resource, no other entity has the breadth 
and reach of the Air Safety Institute. ASI offers more than 300 online 
safety education products for free, including courses, videos, quizzes, 
and reports and works with industry and government partnerships to 
provide educational materials on critical topics. In 2014, ASI's 
educational outreach exceeded 2 million interactions with the pilot 
community worldwide through various channels, including online courses, 
accident case studies, publications, live seminars, and videos--all of 
which help pilots take advantage of the collective wisdom of the GA 
community.
General Aviation Joint Steering Committee
    The General Aviation Joint Steering Committee (GAJSC) was launched 
in 1997 as part of the industry-government Safer Skies initiative to 
improve aviation safety. The program, which was revitalized in 2011, 
works to improve general aviation safety through data-driven risk 
reduction efforts that focus on education, training, and enabling the 
installation of new equipment in general aviation aircraft.
    GAJSC participants include the Federal Aviation Administration and 
industry stakeholders including pilot organizations, instructors, 
mechanics, builders and manufacturers.
    AOPA has maintained a leadership role in the GAJSC since its 
inception and co-chaired its two most recent working groups focused on 
loss-of-control accidents. Using proven and effective data-driven 
processes, the working groups developed comprehensive safety 
enhancements that are actively being implemented by both government and 
industry.
    Harmonizing with the recent NTSB focus on loss of control, these 
safety enhancements have the greatest potential to prevent similar 
accidents from occurring in the future. Additionally, they represent a 
partnership between government and industry to focus our limited 
resources and come to an agreed upon strategy to best mitigate and 
manage identified risks.
Integrating Unmanned Aircraft into Our Airspace
    Unmanned aircraft systems (UAS) or drones have dramatically 
increased in numbers in recent years. Safely integrating UAS into our 
airspace in ways that will not compromise manned aircraft is a critical 
issue now facing our community.
    AOPA has worked closely with the FAA to ensure that regulations 
governing the operation of drones protect pilots and their passengers 
by adhering to key principals, including see-and-avoid requirements. 
The FAA's notice of proposed rulemaking for small commercial UAS 
includes important provisions to ensure safety, including limiting 
aircraft to line-of-sight operations, limitations on altitude and 
access to airspace, pilot certification and knowledge testing 
requirements, and aircraft registration requirements.
    AOPA appreciates the FAA's current regulatory efforts and last week 
provided formal comments to the proposed rule that are designed to 
close gaps in the NPRM. In its comments, AOPA asked the FAA to lower 
the maximum altitude for small commercial UAS operations from 500 feet 
to 400 feet to provide a small buffer between manned and unmanned 
operations. AOPA also asked that UAS be excluded from operating in 
Class G airspace near airports and that UAS meet certain equipment 
requirements, such as having an altimeter, in order to help operators 
comply with restrictions.
    Taken together with the rules proposed by the FAA, AOPA believes 
its recommendations will help minimize the potential for conflicts 
between manned and unmanned aircraft. At the same time, however, much 
work remains to be done on the issue of UAS operations. AOPA looks 
forward to working with FAA to address other types of unmanned aircraft 
and operations, including providing additional education for the 
operators of recreational UAS.
Airman Certification System
    Although there are many strategies and initiatives in place to 
better reach, educate, and inform the existing pilot community, AOPA 
and others recognized the need to better train and test new pilots. 
Often viewed as a hurdle to get over on the path to a pilot 
certificate, the FAA knowledge test encouraged rote memorization 
without a solid understanding of why the material is important and how 
it contributes to safety.
    To act upon an Aviation Rulemaking Committee's recommendations, 
AOPA and industry leaders embarked on a multi-year, multi-phase project 
to fundamentally transform the way we train and test future pilots--
creating a holistic, integrated system which links the pilot 
certification standards, guidance, and testing.
    As a result of that process, FAA tests are currently being reworked 
to ensure they are relevant and meaningful to today's aviator and 
technology. Each new certification standard will incorporate all the 
knowledge a pilot must have with the skills he or she must demonstrate 
along with the risk management elements for each task which will give 
the applicant the critical tools and knowledge needed to safely manage 
known risks. Future pilots will clearly understand what is expected of 
them for any certificate or rating.
Part 23 Reform
    Although we, as pilots, need to ensure our flying skills are sharp 
before each and every flight, we must also acknowledge that we can, and 
must, design and produce better, smarter aircraft. The Cessna 172 being 
manufactured today is, other than avionics, essentially the same 
airplane that was designed and produced in 1955. For good reason, Ford 
and Chevy are no longer producing their 1955 fleets. But the costs of 
certification and economies of scale have slowed aircraft design 
advancements and improvements.
    Since 2008, the FAA, Congress, and industry have been working to 
streamline and simplify Part 23 certification standards, which cover 
the manufacturing and alteration of aircraft. Although change is under 
way, it is moving slowly. Last year, the FAA announced that it would 
not meet the deadline set by the Small Airplane Revitalization Act 
(SARA). SARA requires the FAA to reform and streamline Part 23 by Dec. 
15, 2015.
    FAA regulations with regard to the manufacture and modification of 
general aviation aircraft are highly prescriptive and designed to 
address, in exhaustive detail, very specific situations or 
circumstances. As a result, they offer little or no flexibility to 
adapt to evolving technologies and new situations.
    To illustrate the complexity of these rules, note that between 1994 
and 1996, approximately 800 rule changes to Part 23 were enacted. These 
changes largely addressed the needs of sophisticated aircraft, but 
simultaneously added regulatory layers to the compliance process, which 
increased the cost to certify a simple airplane while limiting the 
possibility of introducing innovations or new technologies.
    In part because of the increasingly complex and expensive 
regulatory requirements facing manufacturers, the number of single-
engine piston-powered aircraft produced in the United States each year 
has fallen precipitously. In 1978, U.S. manufacturers shipped 14,398 
aircraft. In 2014, that number was just 716. By contrast, approximately 
1,000 new experimental amateur built aircraft, which do not have to 
comply with Part 23 regulations, are currently being registered each 
year.
    Because so few new aircraft are being produced each year, the 
majority of the general aviation fleet does, and will continue to, 
consist of older, legacy aircraft. In fact, the average general 
aviation aircraft is now 45 years old. To envision how safety 
technology has changed, imagine a car built in 1970, long before safety 
innovations like airbags, crumple zones, and backup cameras were 
standard equipment. To fully realize the benefits of increased safety 
and reduced certification costs that Part 23 reform is intended to 
achieve, the regulations, orders, and policies for retrofitting 
existing aircraft with new equipment must also be streamlined and 
transformed. Making modern safety equipment more widely available to 
the owners and operators of older aircraft will have a significant 
impact on safety.
    While there are upgrade and modernization options available today, 
most require extensive and lengthy FAA approval for design, production, 
and installation into certified aircraft. Manufacturers must acquire 
these approvals for individual makes and models of aircraft, 
significantly increasing the cost and reducing the availability to the 
consumer.
    As an example of how regulatory requirements can slow the adoption 
of safety equipment, consider that it took nearly three years for the 
FAA to release a recent policy that streamlines the approval of angle 
of attack (AOA) indicators for existing aircraft. An AOA indicator is 
an important safety technology that could help reduce the number of 
accidents caused by loss of control. Retrofit of this technology has 
been slowed by the high cost, which in turn, has been largely driven by 
regulations.
General Aviation's Future
    General aviation and its future are at a critical point, evidenced 
by the numbers and trends I have presented to you today. It not only 
provides real economic value to our Nation but also offers the unique 
experience of flight--an experience that brings delight to ``kids'' of 
all ages.
    AOPA is pushing hard on several fronts to turn around the downward 
trend and, once again, start to grow general aviation.
    Of the utmost importance to AOPA, our members and GA's future is 
third-class medical reform. In 2013, the FAA issued 99,268 third class 
medical certificates, down from 135,969 in 2004, which cost pilots more 
than $23.5 million with little direct benefit to either aviation safety 
or general health.
    That money and time could be better spent in ways that have proven 
safety benefits, including additional training and installation of 
safety equipment in existing aircraft. By better educating pilots on 
how to properly self-assess their medical fitness to fly and fostering 
open and honest relationships with primary care doctors, third-class 
medical reform will enhance aviation safety.
    Under current rules, private pilots flying recreationally must 
undergo an exam by an FAA Aviation Medical Examiner (AME) once every 
five years for pilots under the age of 40 and once every two years if 
the pilot is 40 or older. Although virtually all medical applications 
are ultimately granted, thousands of applications are initially 
deferred for additional review each year. Affected pilots must then go 
through extensive testing and wait, often for months, for the FAA's 
Medical Branch to review and approve their applications. This process 
can cost pilots thousands of dollars in additional medical testing and 
months of time grounded while they wait. The difficult and costly 
process deters thousands of pilots who would ultimately be deemed 
medically fit to fly from even applying for a medical certificate. Many 
of these pilots stop flying altogether, further eroding the general 
aviation pilot population and our industry.
    Members of Congress, including many of you in this room, recognized 
the need for reform and introduced legislation in both the House and 
Senate, known as the Pilot's Bill of Rights 2 (PBR2)--S.571/H.R. 1062--
which would, among other things, expand the FAA's successful sport 
pilot medical certification standard so that more pilots flying more 
types of aircraft could take advantage of this standard which has been 
in place for more than a decade.
    Many in the aviation community have attested that medical reform 
has the potential to improve safety by keeping pilots in the airplanes 
they are most familiar with, giving them tools to assess their fitness 
to fly, and fostering more honest and open interactions with their 
primary care physicians.
    We at AOPA and our members appreciate the support Congress has 
given to initiate third class medical reform and we look forward to 
crossing the finish line together.
    In addition to third class medical reform, AOPA has several 
initiatives to grow the pilot population and increase participation in 
the fun side of aviation.
    We are currently building a program that will launch aircraft and 
pilots into the skies to carry the message of our ``You Can Fly'' 
program. Bright yellow, fully restored Cessna 152s will be piloted 
throughout the country by AOPA Ambassadors who will help flying clubs 
and schools obtain the resources they need to build new pilots and keep 
existing pilots engaged in aviation.
    Lastly, in order to help create the next generation of scientists, 
aeronautical engineers, aircraft designers, and innovators, AOPA is 
developing a program to introduce an aviation specific science, 
technology, engineering, and math (STEM) curriculum into our Nation's 
high schools. With only 16 percent of American high school seniors 
proficient in mathematics and interested in a STEM career, we are doing 
our part to present aviation as a viable career choice.
Conclusion
    In summary, I have come here today to seek your help and 
assistance. General Aviation and our industry need your help to right-
size the regulatory environment and create one that fosters innovation, 
encourages participation, and inspires the next generation of aviators 
while ensuring that safety remains our top priority. On behalf of the 
more than 350,000 members of AOPA, we appreciate your leadership and we 
look forward to working with you on the Pilots Bill of Rights 2, and 
the upcoming FAA reauthorization,--both of which stand to put our 
industry into a much needed climb.
    Thank you for the opportunity to appear before this subcommittee.

    Senator Ayotte. Thank you, Mr. Baker.
    Ms. Gilligan, I wanted to ask you for an update on the 
progress of the Pilot's Records Database and when that--where 
the initiative stands and what we can expect, in terms of it 
moving forward.
    Ms. Gilligan. Thank you, Senator.
    Development of this database has proven to be quite a 
technical challenge. We have run a proof-of-concept, so we do 
know, conceptually, what it is we need to do in order to meet 
the requirements of the bill. What we've run into is that the 
amount of records that the bill would have us incorporate into 
the single pilot database is really creating the challenge.
    Many records, now and going forward, will be automated 
records, but the bill calls for the complete history of every 
pilot who is currently in the commercial system. Many of our 
pilots have been in the system for quite a long time, and their 
records are on paper or microfiche, or a number of other media 
that some of us may even remember, but most young people have 
never heard of. Figuring out how to merge all of that data has 
really created a challenge for us. In addition, the cost of the 
system is going to be something that FAA will have to look at 
as we go into future budget years, as well.
    Having said that, I think we're making good progress on 
trying to understand what are those challenges. In addition to 
the mix of records, many of the records have personally 
identifiable information, which we need to assure we are 
protecting. Obviously, we want to build the security 
protections against cyber attack in--for this database. So, as 
we layer on all of these requirements, it has just been an 
extreme challenge that we and the technical folks in FAA are 
grappling with. We expect to have a proposal in executive 
review, hopefully in the near future.
    Senator Ayotte. Thank you for the update. And we look 
forward to, as you put that proposal together, you know, 
sharing what the plans are with the Committee, as well, as we 
put together the authorization. So----
    Ms. Gilligan. Thank you, Senator.
    Senator Ayotte.--I appreciate it, thank you.
    I wanted to also follow up with you on--you know, one of 
the things from the hearing we had last week on certification--
and this goes to Mr. Hart, as well--one of the things that the 
certification process allows us to do is to ensure all the 
technical and procedural steps are taken with the--obviously, 
the airframes and everything that we need to do to make sure 
there's aviation safety. At the same time, one of the things we 
heard from stakeholders is that certification, itself, and 
potentially long delays of getting new equipment, can actually 
mean that pilots fly without the latest innovation in safety 
equipment. So, how--can you comment on this? And how do you 
approach the need to get our pilots the best tools while still 
ensuring that we have the adequate review of that equipment? 
But, to the extent we can use technology to improve the--what 
our pilots are using, I think it's important that they have the 
best technology at their hands.
    Ms. Gilligan. Yes, Chairman, we agree. I think Mr. Baker 
really hit on it. For the general aviation community, we are 
actively pursuing opportunities to introduce current technology 
into some of these older aircraft. One of the examples is the 
angle-of-attack indicator. It's a piece of equipment that 
allows a pilot to have much better situational awareness and, 
we believe, will dramatically reduce loss-of-control types of 
accidents. We worked with the community to find a way to assure 
that it provided the pilot with an appropriate level of safety 
without having to go back through the extensive certification 
that some of those systems have historically required. We're 
looking at the same approach for helicopters and rotocraft, to 
be able to add what we're calling non-required safety 
equipment. So, we don't require, by regulation, that it be on 
the aircraft. We agree that the level of certitude we need to 
provide is substantially less than we've had for required 
equipment. And bringing that together, I think we're going to 
see some good improvements.
    Senator Ayotte. Great. Thank you.
    I wanted to follow up on this issue of the pilots and the 
pilot shortage issue, that there seems to be, obviously, a 
little bit of a debate here on what's driving the shortage or 
lack of shortage. And I also serve on the Armed Services 
Committee, and one of the things we've heard from, for example, 
the Air Force, is that they're worried that they're going to 
see a shortage of pilots, going forward, in terms of making 
sure that we can meet our needs on the military side, as well.
    So, I wanted to get your thoughts, Captain, on--How do we 
ensure--I know many of your counterparts probably came from the 
military, and then, not all of them, but many of them, have 
gone from military to commercial, and--so, how do we deal with 
this issue to make sure that the junior pilots have the right 
training coming through and the pipeline--it seems to me that 
what you say on the pay issue, obviously that's something that 
is an important issue, but, in the interim, we've got this 
immediate issue that I think needs to be addressed. So, I just 
wanted to get your thoughts on training, on how we get that new 
talent pool coming in faster.
    Captain Sullenberger. Chair, I certainly will address that. 
May I just say one more thing before I answer?
    I have in my hand a letter written by Anthony Foxx, 
Secretary of Transportation, to the Buffalo News on March 12, 
about safety standards, and are they, or not, creating a pilot 
shortage. While I acknowledge that some view our pilot training 
and qualifications rules as the sole or even the principal 
reason for pilot shortages, I do not. We believe that low wages 
and the scarcity of certain types of planes are likely the most 
significant causes, not high safety standards. I just wanted to 
get that on the record.
    There are, and have always been, many pathways to 
qualified, experienced pilots. And there continues to be. I 
learned to fly in high school, at the age of 16. I became an 
Air Force fighter pilot and served for six and a half years, 
and then became an airline pilot for 30 years. Of course, that 
pathway still exists. But, there are fewer military pilots than 
there used to.
    Senator Ayotte. I'm married to a Air Force pilot, so I 
understand.
    Captain Sullenberger. Yes, of course you do.
    But, one of the most encouraging things that we've seen 
since the Airline Safety Act of 2010 was passed, since the 
enhancements were made, is the partnerships--the effective 
partnerships that have developed between aviation schools, 
between regional airlines and their major affiliate carriers. 
For example, we have guaranteed interviews with regional 
airlines for graduates of approved schools. We have flowthrough 
agreements from the regionals to the majors. So, there are 
clearly defined paths. We just need to make sure that, when we 
set standards, that they are appropriate.
    As I said in my earlier remarks, historically it's quite an 
aberration for airlines to hire people with only a minimum 
amount of time. Typically, we've had thousands of hours of 
experience before you're considered even to be an airline 
pilot. So, we need to fight this false dichotomy of quality or 
quantity. We need to have people who have both. And there are 
existing ways to do that.
    Senator Ayotte. Thank you. My time is up. And I know--so I 
appreciate it.
    Ranking Member Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    And I'm going to continue, Captain Sullenberger. And I want 
to say, I think that your testimony guided the debate as 
skillfully as you guided that plane to land in the Hudson, and 
that is that this issue is about a broken economic model and 
about whether we're going to pay pilots enough money. I think 
that's the bottom line of your statement, is that, if you pay 
them, they will come, and the fact that you hit on so many of 
the issues that concerns me about the regional carriers who 
take a brand name from a major corporation, everybody thinks 
they're meeting the same standards as the brand. They're not. 
They think that they are meeting the same qualifications. They 
may not be. And this, to me, I think, is--we're here because 
some people are suggesting that we take the 1,500-hour 
requirement that is now required for pilots and for those who 
want an airline transportation pilot certificate, and reduce 
that. Prior to Colgan Air, we were at 250 hours. So, if you 
could maybe talk a little bit about why it's so important to 
have 1,500 hours, maybe that would help people understand. I 
think people are trying to say, ``You know what? I've got a 
business model. I've got to, like, drive down my price, so I 
think the copilot ought to have a lot less hours.'' So, just 
tell us why that's wrongheaded.
    Captain Sullenberger. Again, a history lesson. It has been 
80 years since there were apprentices in airline cockpits. For 
every decade since then, we have had two fully qualified pilots 
in the cockpit. And let me tell you from very personal 
experience, for me and my first officer, Jeff Skiles, on that 
sudden challenge-of-a-lifetime flight to the Hudson River, had 
Jeff been less qualified, people would have died. Had he not 
been so highly qualified that, in that intense moment, where 
there wasn't time, in those 208 seconds we had from the time we 
lost thrust in the engines until we had landed, to have a 
conversation about what had just happened and what we must do. 
I had to rely upon him, based upon his own long experience, 
based upon having deeply internalized these well-learned 
fundamental skills, having developed his own judgment and 
understanding of our airline system and our machines and our 
profession, to intuitively and immediately understand this 
developing situation as I did, and then know what he should do 
to assist me, with--I didn't have time to direct his every 
action. So, we were able to do something that, outside the 
industry, people find hard to understand. We collaborated 
wordlessly. That's what I'm talking about.
    If Air France 447 taught us anything, is that we must have 
a pilot in each seat throughout the flight who is not a 
multicrew pilot-licensed pilot, MPL, who's not a cruise pilot, 
who's able to quickly and effectively intervene when things 
suddenly go wrong after thousands of hours of them going right. 
That's the challenge that we faced. How did we--what's the 
secret sauce? And, as I said, there are no shortcuts here. We 
must--we know what we must do. We just have to have the 
integrity and the courage to follow through and make sure that 
we do it.
    When we don't do it, people die. It's----
    Senator Cantwell. Thank you.
    Captain Sullenberger. It's really that simple.
    Senator Cantwell. Thank you. I don't think I could have 
said it better. But, I do want to point out, the same situation 
happened with the Colgan Air flight. A young woman was the 
copilot from Seattle, very little training, flew all night, I 
think was even sick, ended up on that flight. And, you're 
right----
    Captain Sullenberger. I'll----
    Senator Cantwell.--in a disastrous moment, the pilot has to 
decide, the copilot has to help, and neither one of them 
probably were prepared enough to help in that situation.
    Captain Sullenberger. They were not. And I'll give you 
specific reasons why. On the cockpit voice recorder, we hear 
her say that she hadn't been in these kind of icing conditions 
before. Colgan Air trained them on a flight simulator that was 
not equipped to replicate an important safety device, the 
activation of the stick pusher, a device that pushes their 
controls forward to lower the nose when they approach a stall. 
That obviously surprised Captain Renslow. He reacted 
inappropriately.
    And, in terms--I wanted to follow up on one more thing, 
too, that was said earlier about the Regional Airline 
Association advocating that people with fewer hours get credit 
and go straight into a regional airline seat so they can 
continue their education, continue their on-the-job training. 
The captain on the Colgan Air flight was hired by Gulfstream at 
600 hours, bypassing critical vetting processes at other 
carriers, at other jobs, leading to a career of repeated 
trained deficiencies and failures, and ultimately, a needless 
and preventable tragedy.
    And, for those who say that these rules in 2010 were the 
result of a single crash, again, historically, not correct. 
There was a whole litany of regional crashes--Kirksville, 
Missouri, in Kentucky, and others--leading up to this. This was 
just the most recent, most egregious one that finally helped us 
to achieve the public awareness and the political will to 
finally act to solve this series of systemic problems.
    Senator Cantwell. Thank you, Captain Sullenberger.
    My time is expired, Madam Chair.
    Senator Ayotte. Thank you.
    Senator Nelson.
    Senator Nelson. Ms. Black, is it true that first officers 
on regional airlines, for a starting salary, are paid $16,000 a 
year?
    Ms. Black. According to the industry statistics that I 
have, the first-year first-officer wages are at an average of 
between $22,000 and $24,000 per year.
    Senator Nelson. Do any regional airlines pay a starting 
salary of $16,000?
    Ms. Black. I'm not aware that they do.
    Senator Nelson. Well, I've been told that they do. And I 
just wanted to point out that 138 percent of poverty, which 
makes someone eligible for Medicaid, is just a little over 
$16,000 for an individual. And to think that that's who we 
would be putting into the right seat of the cockpit on a 
regional airline does not build confidence, in the traveling 
public.
    Madam Chairman, what I want to do is let our members--I 
just want to ask the Captain. Birds are attracted to water, and 
many airports are next to water. Why don't we have more 
accidents with birds, which you have encountered and have 
become such a hero?
    Captain Sullenberger. And, of course, Senator, that's 
especially true in Florida and places like that.
    Senator Nelson. Correct.
    Captain Sullenberger. As populations of birds have grown, 
and as the numbers of flights has increased, we are seeing 
increasing numbers of bird strikes. Most bird strikes involve 
only one or two usually small birds. Of course, what happened 
to us what an entirely different event. We encountered a large 
flock of large birds, migrating birds--Canada geese, several 
dozen. We saw them about 2 and a half or 3 seconds before we 
struck them, but clearly not enough time to avoid them. And 
they struck the airplane all across the leading edges of the 
wings, the nose, and into the center, the core, of both jet 
engines, damaging them, it turns out, irreparably.
    It's a matter of chance, quite frankly. Most of the 
warnings that we get at airports are general in nature, and not 
particularly useful. And, of course, migratory birds can 
essentially be anywhere.
    There are things that we can do, though. The good news is 
that, for resident birds, that when they roost and flock in a 
specific place, we can discourage them from being near 
airports. That's by, you know, avoiding food sources, not 
allowing large bodies of water, marshlands, wetlands to be near 
an airport, sources of food, that sort of thing.
    The problem in this country is that, while we have a 
national air transportation system, airports typically are 
owned and administered locally. And so, our entire safety 
system for wildlife mitigation really is dependent upon local 
authorities having the ability to stand up to powerful 
interests, sometimes developers and others, who might want to 
put incompatible uses near airports. And that's an ongoing 
issue, and continues to be so, of great concern.
    Senator Cantwell [presiding]. Thank you.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Well, thank you very much.
    Let me follow up on the issue of pilot training 
requirements. And I realize safety is paramount. But, at--a 
number of constituent groups out there are asking how much is 
enough, and how much training is--amounts to a disincentive and 
a hindrance to the smaller areas.
    In 2013, FAA issued a final rule requiring all airline 
industry pilots and first officers hold Airline Transport 
Pilot, ATP, certificates. This requires 1,000 hours. 
Previously, it was 250 hours of flight time.
    GAO observed that fewer students are entering pilot 
training programs and that other opportunities, whether 
overseas, in the military, or in corporate aviation, may be 
steering pilots away from positions with the lower-paying 
regional carriers.
    So, Ms. Black, as a representative of the Regional Airline 
Association, help us understand your perspective there. Of 
course, realizing that safety is paramount, what types of 
solutions could the Federal Government, whether the FAA or 
Congress, implement to increase the number of pilots available 
for hiring by regional airlines?
    Ms. Black. Thank you.
    What I think we need to focus on is a holistic approach, 
really providing for the intent of getting the well-trained, 
proficient first officers into the cockpits of our commercial 
airliners. And that starts by looking at the kids when they're 
children, and STEM outreach. And our organization has started 
to do that. And, as Mr. Sullenberger reflected, some of the 
other things that are important are bridge programs and 
flowthrough programs that give a student a career--defined 
career path with certainty from the beginning, when he first--
he or she first dreams of flight, until the retirement flight. 
But, what's missing right now is a seamless pathway. Certainly, 
the pilot certificates that the FAA are issuing are declining. 
There are fewer students entering. There are fewer coming out. 
And we are seeing that, at the regional airlines.
    And now, since the rule--again, this very narrow portion of 
it that requires 1,500 hours in flight--this has meant that, 
after pilots graduate from their structured training program, 
that they've got to go out and build additional time. And they 
must do so at their own time and their own significant expense. 
And so, this introduces more uncertainty. And so, we think it 
has worsened a growing pilot shortage.
    So, what we propose is to take the students earlier in 
their time, after they graduate from these structured training 
programs and build some time, and put them into the right seat 
of our commercial airliners.
    Now, I want to be clear, this isn't education. We're not 
teaching them to fly. They come to us knowing how to fly. But 
training is ongoing. Training is ongoing at both regional 
airlines and mainlines. Training is constant when you upgrade 
on equipment. And it's done right, and it's done 
professionally. And regional airlines have world-class training 
programs that rival that of our mainline partners.
    So, we look to restore the pipeline--again, from the first 
flight--to provide more certainty until the pilot is placed 
into our well-structured airline safety and systems training 
programs. And we think that that will restore a great deal of 
career confidence for young people, looking forward.
    Now, to be clear, the marketplace has to react. And we've 
seen that. Pilot wages are increasing. We've got one airline 
who has first-year signing bonuses and a retention bonus that 
effectively raises their starting salary to higher than some 
mainline airlines. And yet, that particular airline is still 
unable to fill its new-hire classes right now. So, when I hear 
that this is just an economic model, I think that economics 
play a role there, and that's part of it, but we need to look 
beyond that. We need to develop the pilot pipeline, and restore 
it, and keep it seamless.
    Senator Wicker. OK. Well, thank you.
    I only have half a minute remaining. Ms. Gilligan, I think 
I'll just submit a question on the record for you about the 
Contract Tower Program, and stress that the Senate and the 
House continue to strongly support the FAA Contract Tower 
Program on a bipartisan basis, and request you to comment on 
the record about any recommendations FAA may have for a 
reauthorization bill to ensure that this program is enhanced 
and protected.
    Thank you, Madam Chair.
    Senator Ayotte [presiding]. Thank you, Senator Wicker. I 
think, certainly after our hearing last week, it's important. 
Many members of the Committee share their support for the 
Contract Tower Program, so I look forward to the answer to 
Senator Wicker's question. Thank you.
    And now I would like to call on Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much, Madam Chair. 
A lot of interest in the hearing. I'm pretending those are 
lines of people trying to get in, that you just heard. But, 
thank you so much.
    And I also wanted to welcome the Colgan Flight 3407 people 
that are here today, the members of the families. We've worked 
with you especially on the bill on pilot fatigue.
    And, Captain Sullenberger, I thought I would start with 
that. I want to thank you for your continued attention to 
improving the fatigue standards. And can you share your 
perspective on why we should not continue to have two levels of 
safety regulations for passenger and cargo planes?
    Captain Sullenberger. Thank you, Senator. I'd be glad to 
address that.
    Just as much as the 2010 airline safety bill was a 
regulatory success, the cargo carve-out, the exclusion of cargo 
operators from the improvements in the new fatigue rule, is as 
much a regulatory failure. And it's one that's hard to 
understand. It's one that's clearly the result of economic 
pressures, and not a safety argument.
    We have learned, in the last decades, much about the 
science of fatigue. We know how predictable it is, as 
predictable as the sunrise and the sunset, obviously. And it 
results in predictable negative effects on human awareness, 
attention, short-term memory, performance, and judgment.
    It's ironic in the extreme that the pilots who are doing 
the flying, that require the most protection from fatigue, are 
the ones who are specifically excluded from the rule. Every 
night, all night, and much of the day, cargo pilots share the 
same airspace, the same airports, with commercial passenger 
flights. They fly all over the whole country, over each of our 
houses at 2 a.m., 3 a.m., 4 a.m., 5 a.m., looking for the 
airport. We owe it to every American to right this wrong, to--
--
    Senator Klobuchar. Thank you so much, Captain.
    And, Ms. Gilligan, is there any thought with the FAA of 
changing this? I know that, basically, that wasn't the case 
when you looked at this. But, is there any case of 
reconsidering this after the decision was made to exempt cargo 
pilots before?
    Ms. Gilligan. Senator, we actually think there are other 
ways that we are expecting the cargo carriers to address the 
risk that's posed by fatigue. The bill itself required that all 
carriers, including cargo carriers, have a fatigue risk-
management plan that required that the carrier look 
specifically at their schedules and, using the current science 
that we have for fatigue, determine if any elements of their 
schedule provided the possibility that the pilots would be 
fatigued. And they are required, through that plan, to address 
that risk.
    In addition, we now have the requirement for Safety 
Management Systems, which is also applicable to the cargo 
carriers. That broader system will require that they identify 
whatever risks they have--in this case, the risk of fatigue.
    Now, because cargo operations are very different from 
passenger operations and the scheduling is very different, we 
believe that the Safety Management Systems approach will 
actually assure a better level of safety for the cargo 
carriers. They will analyze their schedules. If any of those 
fall into the red, they will have to address that risk.
    Senator Klobuchar. OK, thank you. And, again, we'll 
continue to pursue this with you.
    Mr. Baker, I know you touched on this in your opening 
statement, and I just want to let you know we--you know, 
Senator Murkowski and I--did the bill on the Small Airplane 
Revitalization Act. We're so happy it passed, signed into law. 
And I'm as frustrated as you are that we don't have the FAA 
meeting the timeline to get those rules out. They're very 
important. I have Cirrus in my state, as you know. And we think 
there are safety benefits. So, I just want you to know that 
we're continuing to pursue that.
    I just actually had one last question that I just sort of 
came up with after being on a flight recently next to someone 
who was a little bigger than me. And I know that there has been 
some issues with some of the planes having smaller spaces. I 
guess I'd ask you, Ms. Gilligan, about this. And we have rules 
for space for pets, and we have no rules for space for humans. 
And, over the past decade, seat pitch has decreased from 34 to 
28 inches, as you know. When the FAA is testing the safety of 
new aircraft, does the FAA also test for a variety of seat 
sizes, particularly if it impacts the ability to evacuate an 
aircraft? And is the FAA or the Department of Transportation 
taking any action to examine any potential risk from limited 
seat sizes on commercial aircraft?
    Ms. Gilligan. We have done research on both seat size and 
seat pitch. We do it based around what's called ``queuing 
theory,'' the ability for people to get out quickly. We do set 
those standards to assure the most even flow of passengers out 
of the aircraft in the event of an emergency. So, any of the 
aircraft that are approved do meet those standards.
    Senator Klobuchar. And so, has there been any renewed look 
at this, given that it appears that there are some smaller seat 
sizes that we're starting to see lately?
    Ms. Gilligan. I'm not aware that the seat sizes are 
smaller. Whatever is installed does meet the standards that are 
required to provide the appropriate level of safety for 
emergency evacuation. And all of those seat----
    Senator Klobuchar. And including the--well, we just--I 
guess they've changed in the last decade, so--from 34 to 28 
inches.
    Ms. Gilligan. But, each new design must be tested to assure 
that emergency evacuation can be accomplished.
    Senator Klobuchar. All right. Thank you.
    Senator Ayotte. Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Chairwoman, thank you very much.
    Ms. Gilligan, the FAA's 2004 sport pilot rule allows 
private pilots to fly small aircraft without a third-class 
medical certificate under certain safety restrictions. The 
issue I want to explore is altitude. Is there a clearly defined 
safety benefit for one altitude over another? I think the 
theory is that pilots maybe can fly lower than the 18,000 feet 
that's the floor for Class A airspace. What should we know 
about safety, based upon ability to fly at various altitude 
levels?
    Ms. Gilligan. Well, Senator, I think there are a couple of 
elements to that. And I'm sure Mr. Baker can expand upon it, as 
well. The one that you point out is that the structure within 
the airspace tends to separate aircraft based on the technical 
abilities of the aircraft. Lower airspace is not as conducive 
to jet operation, for example, or to commercial operations. 
Higher altitudes allow the aircraft to be more efficient. So, 
there are some elements of the airspace design that suggest 
separation of operations by altitude. There's also----
    Senator Moran. My question is, Can we make safety 
considerations different at lower altitudes because larger 
commercial aircraft are at--flying at higher altitudes?
    Ms. Gilligan. Well, of course, all of the commercial 
aircraft pass through those lower altitudes, at least for 
departure and arrival. But, there are some differences that we 
do apply within those different airspaces, depending on exactly 
what the operations are that are in that environment. Is that 
helpful?
    Senator Moran. It's helpful, although I guess what I was 
trying to find is, What difference does it make whether the 
threshold is 14,000 feet or 18,000 feet or 10,000 feet on these 
safety considerations for private pilots?
    Ms. Gilligan. One of the safety considerations is related 
to 10,000 feet and below, because, at those altitudes, the 
aircraft does not need to be pressurized. And so, you don't add 
the added risk that you would lose pressurization and the pilot 
would lose consciousness. That's separate from the airspace 
issue that you raised initially.
    So, there are some elements of the airspace design that 
address safety risks, and there are some elements related to 
altitude that assure the pilot a little more protection from 
what might be a safety risk.
    Senator Moran. Thank you very much.
    Mr. Baker, anything you'd like for me to know about this 
topic?
    Mr. Baker. Well, to be more clear about it, I think the 
idea that you need supplemental oxygen above 12,500 for any 
length of time--and supplemental oxygen can be just cannulas in 
your nose--to safely fly up to 18,000 feet. And then, above 
18,000 feet, you're required to have a pressure mask on so 
there's full-on oxygen as your supplemental. You can still fly 
up to 27,000 or 30,000 feet with supplemental oxygen, but it's 
a different type of mask.
    So, I don't see any safety issue, as long as you're doing 
what's required today, which is supplemental oxygen below 
18,000 feet, pressurized or non-pressurized, as a safety issue.
    Senator Moran. OK, thank you.
    Let me turn to--I want to go--let me come back to you, Mr. 
Baker. We're hearing about pilot shortage. What is it that AOPA 
and others--what can pilot schools--what are we doing to 
promote--when I was a kid in high school, we had Civil Air 
Patrol, and all of us kids got interested in Civil Air Patrol. 
I know it still exists. But, what is it that can be done for 
another generation to address some of the issues that--that get 
excited about flying and can address some of the issues about 
pilot shortage and compensation? How do we make this a career 
path for additional Americans?
    Mr. Baker. It's a great question. And we're testing a 
couple of programs now, called the You Can Fly Program, which 
will be--150/152 Cessnas. If you've ever been around them, 
that's what most people learned how to fly in--called the J-3--
--
    Senator Moran. I know those.
    Mr. Baker. Yes. The J-3 of our generation. And we've got a 
number of those in states right now. We're trying to get people 
actively involved in joining a flying club. But, even starting 
a little bit earlier in the game, working with a number of high 
schools, we have a program that we call STEM-A--you know, 
Science, Technology, Engineering, Math, and Aviation. And so, 
we've found some best practices that we're trying to share with 
educators that gets people involved in education--career 
decision or, frankly, if it's recreation flying, as well. But, 
we want to get really involved with the high school training 
programs and start sharing what we know what works around 
certain parts of the country, and then remind people that they 
can afford to fly with these flying clubs. It makes flying very 
affordable if they just want to do it for recreation, as well. 
So, we look at ourselves as a role to try and reenergize 
general aviation.
    Senator Moran. Well, if you--your organization or others 
are interested, we'd love--Wichita, Kansas, other places in 
Kansas--to be a part of that process. If I can help encourage 
STEM-A and encourage people to have an interest in becoming 
pilots, professionally or as a hobby, a sport, for personal 
enjoyment, please include me in it, if there's any way I can be 
of assistance. And----
    Captain Sullenberger. Senator, may I quickly add? This is--
--
    Senator Moran. Yes, I'm sorry.
    Captain Sullenberger. My first officer on the Hudson 
flight, Jeff Skiles, and I, for 4 years immediately after our 
famous flight, were co-chair of the EAA Young Eagles Program, 
which is a worldwide program to encourage youth to be 
enthusiastic about flying and, in fact, to get them a first 
flight with a volunteer pilot, you know, to connect the dream 
with the reality. So, that's something we're very familiar 
with, and EAA Young Eagles is a big program that encourages 
thousands to do just that.
    Senator Moran. Captain, great to know that. And you'd have 
the standing, the stature that would excite young people today, 
and I appreciate your----
    Captain Sullenberger. Thank you.
    Senator Moran.--interest and involvement in that program.
    My time is expired.
    I would only say, in concluding, Ms. Black, that the issue 
of reliability of air service by regional companies in my state 
of Kansas and, I assume, across the country, it's a serious 
challenge. It's hard for people to make decisions about flying 
a regional jet. I've been a champion of Essential Air Service 
since I came to Congress. There was a commitment made to many 
of my communities in our state, and we go out and fight, here 
in Congress, for the financial support of Essential Air 
Service, but, if we have a regional carrier that fails to 
provide the reliability, the reliable service--people are 
having a difficult time deciding whether to buy a ticket on 
some scheduled regional airlines, with the uncertainty of 
whether or not that flight is actually going to take off. And, 
you know, the explanation is often that there's a pilot 
shortage, but it sure makes it difficult for us to continue to 
advocate for regional service, and Essential Air Service that's 
a component of that, without that reliability.
    Ms. Black. I think when we restore--may I respond?
    Senator Moran. Yes, ma'am.
    Ms. Black. I think when we restore some certainty to the 
pipeline, and we can get a little bit more stability on pilot 
supply, a lot of those issues will be resolved. Frankly, we 
have one major EAS carrier that formerly served 64 communities, 
and is now serving 32 because it cannot staff all of its 
flights. That's just one example of the impact of the pilot 
shortage in those communities.
    This is something that we're seeing--it's not just the EAS 
carriers, but all of our carriers. Every day, carriers are 
canceling revenue flights because of the pilot shortage. And we 
know that impacts the reliability. I'm very close to the EAS 
Program, and a shared advocate. And we think it is really 
important. We know that that ability to use the service, and to 
know that the flight is going to take off when you want it to, 
for businesses especially, is essential. And so, I think that 
this is critical--this is a very critical issue for Essential 
Air Service.
    Another issue that we have is, given the pilot supply 
issues, carriers are unable to even bid on those routes. So you 
get more and more carriers that are bidding under the Alternate 
EAS Program. And so, in that case, you now have carriers who 
aren't even required to meet the ATP regulations, fulfilling 
this contract flying, because the other carriers who do have to 
meet the ATP requirements can't fill the flying anymore.
    Senator Moran. Thank you.
    Thanks, Chairman.
    Senator Ayotte. Senator Manchin.

                STATEMENT OF HON. JOE MANCHIN, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Madam Chairman.
    And thank all of you for being here.
    And, to all the family members and those of Flight 3407, 
thank you for not wavering at all in trying to help us make the 
skies safer. So, I thank you for being here.
    Let me just say this. On the Pilot's Bill of Rights, 
Senator Inhofe and I have introduced that, and I think, Mr. 
Baker, you're very familiar with that. We've been working on 
that for quite some time. And, you know, one of the fundamental 
problems we tried to fix with the original Pilot's Bill of 
Rights, was a flawed appeals process. So, I would just ask you, 
since you've been working on this so hard: are the pilots today 
getting a fair and unbiased review of the FAA decision in U.S. 
District Court?
    Mr. Baker. If I understand the question correctly, and as 
you know, the process of appeals through the NTSB, a number of 
years ago, was quite a bit worse, but has improved pretty 
steadily. So, I'm still concerned, and not a lawyer, that there 
are still some people hung up in the system and there should be 
some type of circuit breaker, if you will, in how we approach 
those kinds of legal issues. I think there's still room for 
more improvement.
    Senator Manchin. Well, being a pilot, myself, I have 3,000 
hours, but, my hours were accumulated, Captain, over 40-some 
years. So, I would ask, as far as from a safety standpoint, the 
time, the 1,500 hours, I don't think--I have to agree with you, 
I--going backward would not be a way for us to--respect for Ms. 
Black--I'd just agree with the direction you're going on this, 
from a safety standpoint. I know the decisions I've had to make 
over the many years, but I'm asking, Does simulator time count? 
Do they count simulator time toward 1500 hours?
    Captain Sullenberger. No.
    Senator Manchin. No simulator at all.
    Captain Sullenberger. I think there's some credit for 
university experience, classroom experience.
    Senator Manchin. OK. Does the 1,500--do you accumulate when 
you're a co-pilot, flying second seat? Does that accumulate?
    Captain Sullenberger. It's----
    Senator Manchin. Is it all pilot in command--1,500 hours 
pilot in command?
    Captain Sullenberger. Go ahead.
    Ms. Gilligan. There are some circumstances where taking the 
second seat can be counted as that flight time. It depends on 
how the aircraft is designed and certified. So, if it is 
certified for a two-man crew, that time does count. If it is 
certified for a single pilot only, even though they may have a 
second pilot, that time does not always----
    Senator Manchin. Is it 1,500 hours----
    Ms. Gilligan. I'm sorry.
    Senator Manchin.--in the type they're flying, or just----
    Ms. Gilligan. No.
    Senator Manchin.--1,500 hours flying time?
    Ms. Gilligan. You must have 1,500 hours of flight time 
before you can apply for the----
    Senator Manchin. So, I could apply.
    Ms. Gilligan.--airline transport pilot----
    Senator Manchin. I could apply, with the hours I have.
    Ms. Gilligan. Correct.
    Senator Manchin. OK. I don't think you want me in the left 
seat right now----
    [Laughter.]
    Senator Manchin.--flying around----
    Captain Sullenberger. You also----
    Senator Manchin.--around the country.
    Captain Sullenberger. You also need a type rating now.
    Senator Manchin. Yes, a type rating, OK.
    The other thing is, Is there any time period? So, a period 
of time--1,500 hours within what period of time?
    Ms. Gilligan. No, sir. The rules--the----
    Senator Manchin. So, again----
    Ms. Gilligan.--neither the statute----
    Senator Manchin.--I've got 3-----
    Ms. Gilligan.--nor the rule limit that.
    Senator Manchin. I've got 3,000 hours. And if I go back and 
get type rating, I could----
    Ms. Gilligan. So--the 1,500 hours qualifies you to take the 
airline transport pilot test, along with some additional 
specific training in high altitude and----
    Senator Manchin. I gotcha.
    Ms. Gilligan.--and weather operations that you must 
demonstrate that you had, as well. And then you must pass those 
tests. And then, if you were to be hired by the airline, you'd 
then receive training on the aircraft type and receive your----
    Senator Manchin. No problem, I----
    Ms. Gilligan.--type rating.
    Senator Manchin.--I understand all that.
    To both of you two, and I'll--Captain, I'll go to you 
first. I know that you're saying that there's no pilot 
shortage. There's people coming into the system. We'll call it 
``into the queue,'' basically. They could be doing that. And 
you're saying that the regionals are not paying the price to, 
basically, get those quality of people in there. And I think 
Ms. Black is saying completely different, because she's not 
getting the pilots she needs, and she has to lower that 
criteria for them to get the pilots. Am I correct in where I 
heard both of you?
    Ms. Black. No, we are not--if I could just----
    Senator Manchin. Real quick, and then we'll----
    Ms. Black.--recharacterize----
    Senator Manchin.--have the Captain. OK.
    Captain Sullenberger. Yes. There are, Senator, 110,000 
pilots in this country with the airline transport pilot 
certificate. There are another 65,000 who could quickly get it. 
Really, the issue has been, for several years, that there are 
some companies that just aren't good places to work. And the 
word has gotten out. And the first officer on the Colgan Air 
flight was making $16,400 a year. She was based in Newark, 
could not afford an apartment, even to share one, where she was 
based. She was commuting from her parents' home in Seattle, on 
poverty-level wages, probably qualified for food stamps. That--
--
    Senator Manchin. But, was that even----
    Captain Sullenberger.--that is the--that's the reality of 
that life.
    Senator Manchin. OK. Even more disturbing than that is, 
they put her on a flight where she had known icing conditions, 
flying in winter weather, and not prepared. I can't--it's 
unfathomable, for me, to think that----
    Captain Sullenberger. Well, the--it's----
    Senator Manchin.--that the----
    Captain Sullenberger. To the extent that there----
    Senator Manchin.--that anyone would--regional would put her 
in that situation, knowing she wasn't----
    Captain Sullenberger. Right.
    Senator Manchin.--she even knew she wasn't qualified for 
that, correct?
    Captain Sullenberger. She obviously didn't feel comfortable 
with that.
    Senator Manchin. Yes, that's tough, because----
    Captain Sullenberger. And so, the----
    Senator Manchin.--she was flying a----
    Captain Sullenberger--to the extent that there's a problem, 
the--it has been self-inflicted by the industry for paying low 
wages and having bad working conditions for so many years that 
there is a perception that, if you want to have a successful 
career, you might look elsewhere, in the financial world, for 
example, and not become----
    Senator Manchin. That's right.
    Captain Sullenberger,--a pilot.
    Senator Manchin. Ms. Black, giving you the final on that, 
if you can.
    Ms. Black. Thank you.
    Senator Manchin. Explain to us why--or have they changed 
their criteria of the quality of the pilot and what they're 
prepared to fly in, what type of weather?
    Ms. Black. I'm sorry?
    Senator Manchin. Do you make determinations--I mean, are 
you looking at the person's qualifications, how they got the 
hours, where they accumulated the hours? Did they do it all 
down in Florida and not up in the Northeast? Where the weather 
conditions--I mean----
    Ms. Black. Well, I think that question really speaks to the 
heart of the matter. And, first of all, I want to say we do not 
want to roll back safety. We do not want to move backwards. 
We're proposing an alternative pathway. And we're doing so, in 
large part, because we are seeing negative, unintended 
consequences from the 1,500 hours provision, because flight 
time does not equal experience. And so, when I hear that you 
want to hire an experienced pilot, I agree, but I don't agree 
that 1,500 hours in an unstructured environment, where you're 
largely flying in fair weather, is going to provide experience. 
And it actually speaks to the point.
    Senator Manchin. What makes a difference if it's 1,000 or 
1,500 or 500? They're going to get accumulated the same way, 
quickly as they can.
    Ms. Black. Well, we're seeing some data emerge that show 
that, after about 500 hours or so, there is negative learning. 
So, folks pick up bad habits when they're trying to fly----
    Senator Manchin. You survive 1,500 hours, you had to make 
some decisions.
    Ms. Black. Indeed, you do. Indeed, you do. But, there is no 
guarantee that that 1,500 hours is actually spent in a 
scenario-based environment.
    Senator Manchin. Yes.
    Ms. Black. They're really--it's not contributing to what 
you see in a commercial airline cockpit.
    Now, that said, what I think we can do is propose an 
alternate pathway that takes advantage of the scenario-based 
training that you get through structured training. This 
certainly does include some flying. But, that flying is done in 
a structured environment. There is a room for flight 
instruction. There's a room for the traditional pathway. But, 
at some point, after around 500 or 750 hours, if you are away 
from your time in training, you've come out of these great 
structured training programs, and then we say to you, ``Now, 
you now have to spend a year just building flight time, away 
from your training'' I find it surprising that there is 
disagreement--certainly seems commonsensical that one would 
lose skill over time. It seems natural that one would--your 
skills would deteriorate. And we're seeing that.
    Our airlines are seeing a diminished quality of the 
applicants. This is a very real situation. It gets to the heart 
of a pilot's professional development. We're prepared to make 
the investment. The characterization that we are trying to cut 
costs or don't want to make the investment is just not correct. 
Safety is an investment we willingly make, but we need to 
restore a pathway that makes sense, that takes a pilot from 
structured training, and prepares them, not just, as Ms. 
Gilligan says, to respond to an emergency, but prevent it in 
the first place.
    Senator Manchin. Sure. You can understand if there's a 
person who's been in the left seat for 20,000 hours telling us 
one thing, and you're representing an organization, you would 
think that maybe we might lean a little bit toward the 
experience?
    Ms. Black. I would ask you to look at the data.
    Senator Manchin. I understand that, but, I mean----
    Ms. Black.--don't take my word for it, look at the data.
    Senator Manchin.--I'm a pilot, too, so I understand.
    Ms. Black. Right.
    Senator Manchin. And as--no disrespect. But, you know, 
we're going to be leaning in that direction, probably, a little 
bit more. Sorry.
    My time is up. And I'm so sorry, Madam Chairman.
    Senator Ayotte. We might forgive you this time. Thanks, 
Senator Manchin.
    [Laughter.]
    Senator Ayotte. I would like to call on Senator Fischer.
    Thank you.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Madam Chairman.
    Ms. Gilligan, you noted in your testimony that, between 
1998 and 2008, the fatality risk for commercial aviation in the 
United States fell by 83 percent. And I commend the FAA and the 
aviation industry for this tremendous accomplishment. Can you 
provide the Committee details on how the FAA has cooperated 
with industry and other stakeholders to reach this goal? And 
what has the role of technology been in reaching this goal?
    Ms. Gilligan. Thank you, Senator.
    We believe that the Commercial Aviation Safety Team, which 
is a partnership between FAA, NASA, DOD, and the commercial 
aviation industry, had a large role to play in the safety 
improvements that we've seen. It's always very hard to say, as 
an industry, we implemented X, and, because of that, we saved 
this many accidents. You can't make that direct correlation. 
But, we do know that, voluntarily, we and the industry 
implemented a number of safety enhancements in that time 
period. And we believe that the record speaks for itself, that 
that kind of partnership, where you look at the data, you 
understand where the hazards are, you agree on what will 
mitigate the risks, and then implement and measure that 
implementation, is what accounts for the improvements that 
we've seen. Many of those safety enhancements included 
technology improvements. Technology does allow the opportunity 
for the pilot to be better informed, have better situational 
awareness, and oftentimes provides additional time for the 
pilot to respond to the hazardous event that's occurring. So, 
that's been important. But, pilot training, standard operating 
procedures, all of those pieces of the system have helped to 
reach that record.
    Senator Fischer. OK, thank you.
    Mr. Baker, in your written testimony, you mentioned that 
one of the major causes of general aviation accidents is loss 
of control, which represents nearly 40 percent of all general 
aviation accidents. So, how is the general aviation community--
how are you working to address the loss-of-control accidents? 
And what specific challenges would you face in that?
    Mr. Baker. Well, as Ms. Gilligan mentioned early on, one of 
the great devices, I would call it kind of the first test 
device on how we're going to make sure we move through the 
pathway, is angle of attack. Angle of attack is a very simple 
device that tells you if you're about to lose control of the 
aircraft. While it has never been required in light GA 
aircraft, they've now developed a product, for a couple 
thousand dollars, that you can put into an airplane--that can 
give you indications--if you're getting close to the stall, 
either electronically or physically. So, it's a device that 
we've been waiting for a long time. And then, we believe our 
role is also continued training and reminding people that stall 
training is really important, and fundamental to aviation. And 
we've, as I mentioned before, had over 2 million, call it, 
``hits'' on our site to make sure that we're really at the 
forefront of training pilots and reminding them that that's the 
number one issue.
    Senator Fischer. OK, thank you.
    Ms. Black, we've heard about the challenges for regional 
airlines in recruiting pilots. I hear that all the time from my 
airports in Nebraska. And what are some of the ways that the 
regional airlines are working to recruit and retain pilots who 
are returning from military service? Have you focused on that 
at all? Are you looking at trying to bring those military 
people into jobs within the industry?
    Ms. Black. We have. And the first step toward that----
    Senator Fischer. And what--I guess I would ask you, you 
know, If you're doing it, what do we need to do, and how 
Congress can help, and maybe what changes need to happen within 
the FAA on that, as well?
    Ms. Black. Well, certainly the rule and Congress reflects 
the--you know, the importance and the great structure of 
military training, by giving military training the 750 hours 
credit. And so, I think that that has been helpful. 
Unfortunately, there are fewer military pilots coming out. I 
think there are more of those who are there that are staying in 
the military for longer, and just fewer military pilot 
operations, in general. So, we're seeing that.
    In terms of our efforts as an industry looking at ways to 
get more military pilots, the first step is really identifying 
where our carriers are hiring the pilots. And so, we're in that 
process now. And so, we'll reach back out to you as we get a 
little further along.
    Again, I think, with all pathways, to have certainty for 
it, just so the aviator knows, coming out of a structured 
training program, that they can go into the right seat of an 
airline and flow through is going to be very important. We 
talked earlier just a little bit about some of the flowthrough 
programs that we have. We're proud of them. They're effective. 
But, we need a little bit more help with the pathway.
    Senator Fischer. OK. I hope you'll be in contact with my 
office and let us know if we can help you in any way in getting 
the former military personnel into that.
    Thank you.
    Ms. Black. We certainly will.
    Senator Fischer. Thank you, Madam Chair.
    Senator Ayotte. Thank you.
    Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Madam Chair.
    Mr. Baker, I'm a sponsor of the Pilot's Bill of Rights 2. I 
do believe that a third-class medical reform will help reverse 
this trend of a declining general aviation pilot population 
while also maintaining the appropriate level of safety for 
pilots who are flying for both private and recreational 
purposes.
    Your testimony mentions that medical reform has the 
potential to improve safety by keeping pilots in the airplanes 
they're most familiar with. Could you expand on that a little 
further?
    Mr. Baker. Yes. The FAA, about a dozen years ago, started 
down this path with testing what we call light sport aircraft, 
aircraft that are designed to be flown at under 1,320 pounds. 
And, in many cases, some old airplanes, like the J-3 Cub of the 
1930s, qualifies as a light sport aircraft. And then it evolved 
into a large number of aircraft that were built with that 
purpose in mind, just to be under 1,300 pounds. In many cases, 
those airplanes are fine and they do well, but, in bigger 
wind--and you get wind in Montana, I know--it's a little harder 
to control those aircraft. So, we're forcing a pilot population 
with the number-one most popular airplane, a 172--if a person 
chooses not to go down the medical path and get it done, they 
move downstream into a light sport aircraft, in an aircraft 
they're not as familiar with, potentially, and not as capable 
of an airplane to fly in conditions.
    Senator Daines. That helps.
    Do you think this will help prevent the decline of a pilot 
population, which I believe is averaging about 6,000 pilots per 
year?
    Mr. Baker. I do. You know, there are over 350,000 pilots 
under age 75 that are on the sidelines today. And there are a 
number of reasons. Could be economic, could be family, could be 
all kinds of--we believe a significant percentage of them would 
stay in the game and play in the game longer if they weren't 
burdened with this outdated regulatory issue.
    Senator Daines. Thanks, Mr. Baker.
    Ms. Gilligan, I want to shift gears now and go out to 
eastern Montana. We had Administrator Huerta here recently, and 
we were discussing the ongoing safety concerns from our general 
aviation pilots relating to the expansion of the Powder River 
Training Complex in eastern Montana, the MOA, that's a part of 
Ellsworth Air Force Base. As the Administrator in charge of 
safety of the FAA, I'd like to discuss the safety of the 
airspace surrounding the Baker Airport in Montana. I think when 
this idea was originally launched years ago, Baker was a pretty 
sleepy little part of southeast Montana. Well, it has been 
waking up with the energy boom, the Keystone Pipeline routes 
right through the middle of it. The Baker on-ramp, which will 
be 100,000 barrels a day of oil, is right there near the Baker 
Airport. The FAA said they would take an adaptive management 
approach to the implementation of this airspace. Could you 
describe what ``adaptive management'' means? Maybe that's 
something that's described at the FAA. What does ``adaptive 
management'' look like?
    Ms. Gilligan. Well, sir, I'm not fully familiar with all of 
the details of this particular project. And we certainly can 
provide that to you and your staff, to make sure that you have 
a full understanding of it.
    Ms. Gilligan. But, what we are looking at is how we can 
best manage the airspace to accommodate both growth and assure 
the appropriate levels of safety at the same time. Growth is a 
risk factor. And so, we need to understand how the airspace--
air traffic, whatever--can manage that growth to assure an 
appropriate level of safety. And the Air Traffic organization 
does its safety risk analysis to be sure that that's being 
properly handled.
    Senator Daines. Yes, that Baker Airport has over 7,000 
annual operations and I think that's the concern, where it's 
all headed, with the growth. Would radar coverage, real time 
communication between air traffic control military and civilian 
aircraft, help reduce some of the risk, as I think about this 
adaptive management approach?
    Ms. Gilligan. It may well, sir. That's what the safety risk 
analysis would have to address. I believe a safety risk 
analysis either has been completed or is underway for that 
particular project. And, through that, we'll identify if risks 
or hazards are being introduced, and what the mitigations would 
be required to address them.
    Senator Daines. Along the lines, your testimony highlights 
the FAA's proactive nature in identifying and addressing risks 
to prevent accidents. As part of the flying public, I thank you 
for that.
    Specifically, the successful Commercial Aviation Safety 
Team, the CAST model, which uses data to develop an 
understanding of the best actions or interventions to prevent 
accidents, do you know, and this may be getting in the weeds, 
here, with the Power River MOA, but, do you know if the CAST 
model has been used in active military operation areas, MOAs?
    Ms. Gilligan. Well, the Department of Defense is a member 
of the Commercial Aviation Safety Team. But, again, sir, we 
tend, at that group, to look at systemic, broader issues that 
perhaps individual members of the team can't really address on 
their own.
    Senator Daines. Would they----
    Ms. Gilligan. So, that particular issue is not something 
that the Commercial Aviation Safety Team has taken on.
    Senator Daines. They're not necessarily taking that 
methodology and using that with MOAs, that you know of?
    Ms. Gilligan. I'm not aware that they are.
    Senator Daines. OK. All right. Thank you.
    I'm out of time.
    Senator Ayotte. Thank you.
    Senator----
    Captain Sullenberger. May I quickly add? I used to fly F-4 
Phantoms out of the Nellis Air Force Base range complex. And, 
while it was often restricted areas, as well as MOAs, I think 
that realtime traffic that was provided, the realtime use 
statistics of the airspace often made it available to 
civilians. I think the Nellis Air Force Base range complex 
would be a model that you might want to consider taking a look 
at.
    Senator Daines. Thank you for that.
    By the way, I texted my son. I said I was in a hearing with 
you. And he texted me back and said, ``A true American hero.''
    Captain Sullenberger. Thank you. Thank you.
    Senator Daines. That's saying something from a son I'm very 
proud of. Thank you, Captain.
    Senator Ayotte. Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Madam Chair.
    And I would echo Senator Daines' comments. This is actually 
a great panel. So, really, really appreciate everybody's 
testimony. Very, very informative. It just--wide variety of 
views. I really appreciate what you're doing. I think that 
we're all in agreement on the importance of safety for our 
citizens, for the flying public. You've made some very 
important contributions already.
    I want to talk about the issue of regulations with regard 
to how we do this in a way that's most effective. And, Ms. 
Gilligan, I want to start with you. We had a hearing last week 
with regard to infrastructure, in terms of aviation. And, as 
you know, a key part of safety is aviation infrastructure, 
whether it's updates to runways and things. One of the things 
that has been, I think, for many Americans, many Members of 
Congress, a frustration, is just how long infrastructure 
projects now take. We had the manager of the Seattle-Tacoma 
Airport testifying last week, it took 15 years to permit an 
additional runway at that airport, not the building--took 3 
years to build it--15 years to permit it, simply permit it. Do 
you think that the aviation infrastructure delivery process 
needs reform, particularly on the upfront regulatory side? And 
would you be willing to work with this committee on suggested 
streamlining, particularly of infrastructure projects that 
relate to aviation? We need those out there. And yet, we have a 
system that pretty much inhibits the ability to do that.
    Ms. Gilligan. Well, sir, as you're aware, we have an Office 
of Airports, which is responsible for setting those design and 
safety standards. But, I can assure you that the FAA is willing 
to work with this committee and with your staff on any 
initiatives that you believe are important to consider in the 
reauthorization proposal. So, I am not as familiar with what 
some of those safety and design standards are, as----
    Senator Sullivan. Right.
    Ms. Gilligan.--are airports organization. But, certainly 
we'll be willing to work with the Committee on those kinds of 
questions.
    Senator Sullivan. Great. Thank you.
    I had a follow-up question for you and Mr. Baker. It is 
relating to the ADSB plan. And, you know, that is something, 
particularly--in many ways, was pioneered in Alaska and, right 
now, leaves approximately one-third of Alaska without coverage 
with regard to altitudes that our general aviation pilots fly. 
I know it's not practical to have full coverage. But, do you 
believe that there is a minimum operational network that we 
could have with regard to ADSB coverage in the state that is 
something that would provide safety but also a target to shoot 
for, given, again, how important safety is, but also, 
obviously, how large the state of Alaska is? I'd welcome 
comments from either of you.
    Mr. Baker. Senator Sullivan, I've flown in Alaska a number 
of times, myself, in small airplanes, and I've seen the 
advantages of ADSB, where it works, and the traffic, and other 
things, and the weather that you can now see. So, I'm a big 
supporter of ADSB. We want to get down the path. And we've now 
started to encourage our members to start equipping in the 
Lower 48. But, we also want to work with the FAA on pockets and 
places as we go down the line----
    Senator Sullivan. Right.
    Mr. Baker.--that really need attention. But, we're fully on 
board with supporting the growth of ADSB; and whatever it takes 
to fill in the last pieces, we're going to be pushing for that.
    Senator Sullivan. Great. And do you think that there is--I 
mean, that we could get to a minimum operational network in a 
place like Alaska, where obviously you're not going to have a--
you're not going to have coverage over the entire State, but 
shooting for that kind of minimum that's helpful, in terms of 
safety?
    Ms. Gilligan. Well, Senator, as you point out, Alaska has 
been a leader in ADSB and other technologies to enhance the 
level of safety in those very difficult environments, like 
Alaska. I don't know that we've committed to a particular level 
of network service. And we certainly can provide that 
information back to the Committee.
    Again, we're always willing to work with any initiatives 
that will enhance safety and make the system more efficient.
    Senator Sullivan. Good. We would like to work on that and--
with our pilots on that initiative.
    Finally, Mr. Baker, you mention in your testimony a lot--
you talk a lot about the importance and success of the 
industry, working with the FAA to address many of the safety 
issues. One of the things that struck me is that you're doing 
that in a way that I think is very useful, but also doesn't go 
through the rather formal and cumbersome rule process that can 
take--again, back to my original question--years. Can you 
highlight some of the examples where we--you've been working on 
a more informal basis with the FAA to make progress on some of 
the safety issues that get proper input from industry?
    Mr. Baker. I think we've worked together well on a number 
of issues including the angle of attack indicator, which we've 
pretty much covered here today, as a device that will show if 
you're near or close to a stall of your aircraft, and we are 
excited about that technology. But, now, when you think 
forward, you know, we've got over 40,000--almost 20 percent--of 
our total airplanes that were built before 1965.
    Senator Sullivan. Wow.
    Mr. Baker. And so, we need to think further ahead about 
safety devices, like inexpensive autopilots, that should be 
part of the thinking as we go down the line. You know, iPads 
have changed the way we think about navigation situational 
awareness. And how we're using them today in the cockpits, it's 
completely changed, you know, the old way of unfolding maps. 
So, as we work through the future, we've got to think about the 
inventory of these airplanes out there that are very important 
transportation devices, in many cases, and certainly important 
recreation. So, we've got a number of meetings set up to 
determine how do we equip, further down the line, after we get 
past ADSB.
    Senator Sullivan. Right.
    Thank you, Madam Chair.
    And I want to thank the panel again for your excellent 
testimony. Thank you.
    Senator Ayotte. Thank you.
    I'm going to call on Senator Cantwell, who has an 
additional question.
    Senator Cantwell. Thank you, Madam Chair.
    I know we're trying to wrap up, here. And I just wanted to 
get in a few things I wanted to be clear on.
    Mr. Hart, you believe that we should close this loophole as 
it relates to cargo pilots on the sleep rule. Is that correct?
    Mr. Hart. That's correct. Medical fitness for duty is one 
of our Most Wanted items, and a huge part of medical fitness is 
fatigue. Fatigue applies to everybody who's operating complex 
equipment.
    Senator Cantwell. And, Miss Gilligan, did the FAA make this 
recommendation before? And then it didn't get through the 
process at OMB, or something of that nature?
    Ms. Gilligan. The notice of proposed rulemaking in the 
change to flight duty and rest rules did include the cargo 
community. As we completed the process for that rule, it was 
determined that we could not justify that requirement. But, as 
I've pointed out, we do believe that there are other ways that 
that risk is being fully addressed. Our inspectors are working 
with the cargo carriers to make sure that, through their safety 
management systems, the cargo carriers are looking at their 
schedules to determine whether, in fact, fatigue is an element 
of risk, and, if so, that they address----
    Senator Cantwell. But, the FAA made the recommendation 
before, right? So, it's just a matter of--we have NTSB, who has 
made the recommendation, believes that we should make all 
pilots under the same fatigue rules, and the FAA, you're 
saying, is looking at this--had previously looked at closing 
this loophole.
    Ms. Gilligan. We had proposed it that way, but, as I said, 
we could not sustain that proposal through the final rule. 
Again, Safety Management Systems require that the carrier look 
for risk. They have to identify if they have any part of their 
operation where there's a hazard. When they find that, they 
must address it. They'll do that----
    Senator Cantwell. And what are we----
    Ms. Gilligan.--in conjunction with our inspectors.
    Senator Cantwell. And what are we supposed to think about 
this issue that popped up in Seattle? A man falling asleep in 
the--you know, the issue of outsourcing maintenance and 
possibly, you know, saving dollars or something of that nature, 
and finding somebody who falls asleep in the cargo hold. Should 
we be looking at the entire maintenance crew and their 
operations and their systems?
    Ms. Gilligan. Again, through the safety----
    Senator Cantwell. Mr. Hart?
    Ms. Gilligan. Oh, I'm sorry, ma'am.
    Senator Cantwell. Mr. Hart?
    Mr. Hart. Our fatigue recommendations are broad in their 
application. It's not only pilots. It's maintenance, it's air 
traffic controllers, it's everybody in the system.
    Senator Cantwell. OK. Thank you.
    Ms. Gilligan, sorry, did you want to add something?
    Ms. Gilligan. I'm sorry.
    But, again, with the safety management system, the new rule 
that we have that's going into place, the carriers will have 
that responsibility. They need to analyze where they have 
hazards in their system, whether it's a specific rule or it is 
some operating procedure or process that they have which is 
introducing a hazard. So, if there is fatigue in how they're 
scheduling their maintenance workers or how the maintenance 
work is completed, they will need to analyze that and correct 
it.
    Senator Cantwell. Well, it's certainly a wake-up call. And 
people--I think we need to ask these questions. And FAA just 
recently said to United Airlines, ``We have concerns about what 
you're doing.'' So, I think we've got to make sure that 
everybody is complying with what we believe are the best 
conditions for flying.
    Captain Sullenberger, did you want to add a comment to 
that?
    Captain Sullenberger. I certainly do. SMS and fatigue risk 
management systems are important, but they are additional 
layers, additional safeguards. What we need to do is close the 
loophole, solve the fundamental problem, ensure that the cargo 
carriers have to build schedules that comply with Federal 
Aviation regulation 117, which is the fatigue rule that the 
passenger airlines have to comply with, and not try to fix it 
later with, quite frankly, a bandaid approach. We need to solve 
the problem. Fatigue is fatigue, whether you're carrying 
passengers or packages.
    Senator Cantwell. And maintenance?
    Captain Sullenberger. And maintenance.
    Senator Cantwell. OK, thank you.
    Captain Sullenberger. Thank you.
    Senator Cantwell. Thank you, Madam Chair.
    Senator Ayotte. Thank you.
    I would like to call on Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Madam Chair. And thank you, 
Ranking Member Cantwell, for holding this hearing. And 
certainly it has been a fascinating hearing, and I enjoyed the 
conversation from our panelists.
    I know there has been quite a bit of discussion on the 
required hours and pilot experience prior to being a co-pilot. 
So, I wanted to explore that a little bit further, if I may.
    Ms. Black, you talked about the pay structure of regional 
airlines in the $22,000 to $24,000 starting salary. How does 
that compare to one of our major airlines? What do they pay 
their pilots?
    Ms. Black. I'm not as familiar with the mainline pay 
scales. I can say that I have one airline that is paying more 
than some mainline counterparts. But, at both regionals and 
mainlines, that first-year pay is often lower. It jumps, in 
both cases, by--or at least in the regional case, by about 32 
percent by year 2, and then about 50 percent by year 5.
    Senator Peters. Now, for most of these folks who are coming 
out--because, as we've talked about earlier, we don't have as 
many military pilots as we once had, which was a source of 
pilots with significant hours--we now have folks who are 
basically training themselves, in the fact that they have to 
seek out training and pay for it on their own dime. Do you have 
any numbers as to the amount of debt the average student has 
when they come out after they've completed training?
    Ms. Black. I don't, but I know that our university partners 
do. And so, I'd like to get that back to you.
    [The information referred to follows:]

                               Regional Airline Association

Hon. Gary Peters,
United States Senate,
Washington, DC.

Dear Senator Peters,

    On April 28, during the Senate Commerce Committee, Subcommittee on 
Aviation Operations, Safety, and Security hearing entitled ``FAA 
Reauthorization: Aviation Safety and General Aviation,'' you inquired 
into the costs of flight training and the average debt a student 
carries when they have completed training.
    While the Regional Airline Association (RAA) does not collect this 
information, during that hearing I offered to get the information from 
the University Aviation Association. Unfortunately, the University 
Aviation Association does not collect this information either, so we 
extrapolated some cost estimates on our own.
    Based on an examination of four year programs at six public and six 
private Aviation Accreditation Board International (AABI) accredited 
universities meeting the requirements of 14 CFR Sec. 61.160, we 
determined a total cost of $220,557 for private universities and, 
assuming out-of-state tuition, $176,328 for public universities. These 
totals include four years of room and board rates and do not reflect 
financial aid or scholarships.\1\ The above totals also include the 
flight fees at these universities, which equate to an average of 
$56,917 at private universities and $58,809 at public universities.
---------------------------------------------------------------------------
    \1\ Assumptions & Notes: Only 4 year AABI accredited bachelor's 
programs meeting Sec. 61.160(b) included; 6 public and 6 private 
universities included; Half of the universities include CFI, half do 
not; When universities provided ranges as estimates, the high end of 
the estimates is assumed; Assumed no prior flight experience, all 
certificates and ratings earned at university; For public institutions, 
assumed out-of-state tuition; Included room & board rates for 4 years 
(8 semesters); Some universities include FAA examination fees in 
tuition, others do not; Assumed no financial aid (scholarship or 
otherwise).
---------------------------------------------------------------------------
    We hope that these estimates are helpful, and we are happy to 
answer any follow-up questions concerning methodology or otherwise.
            Sincerely,
                                       Faye Malarkey Black,
                                                 Interim President,
                                          Regional Airline Association.

cc: The Honorable John Thune, Chairman
Senate Committee on Commerce, Science, and Transportation
United States Senate

The Honorable Bill Nelson, Ranking Member
Senate Committee on Commerce, Science, and Transportation
United States Senate

    Senator Peters. Well, I'd like to know that.
    Captain Sullenberger, you've had a long history in the 
airlines. Do you have any idea the differential in pay between 
a regional airline and somebody coming into one of the majors?
    Captain Sullenberger. I would imagine at least 50 percent.
    Senator Peters. A minimum of 50 percent----
    Captain Sullenberger. Yes.
    Senator Peters.--coming in.
    Captain Sullenberger. And I would add that this widespread 
perception that jobs--entry-level jobs at the regional carriers 
are not good ones is deserved. And it's become more widely 
known. And I think, to the extent that there are people who are 
making other life choices for themselves and for their 
families, it's because of that. This is something that they've 
done to themselves, and it's easily reconcilable if they simply 
offer starting wages and working conditions that will attract 
qualified candidates, which are out there, but who are 
currently doing other things.
    Senator Peters. Ms. Black, it looks like you want to 
respond.
    Ms. Black. Yes, if I may. Regional airlines are part of the 
natural career progression. I think that's a natural fact. 
First-year first officer wages, in particular, are lower, for a 
number of reasons. First of all, the marketplace; second, as 
you know, in many cases, they are collectively bargained. I 
have to point out, when we talk about wages, we have several 
examples of regional airlines who attempted to unilaterally 
raise first-year first entrant pay, and they were rejected by 
the union. So, when we talk about pay--and I think we should--
we do need our labor partners to acknowledge that they share a 
role in that process, too. We agree that it's important to 
raise those salaries.
    The good news is, we have raised the salaries. The 
marketplace is reacting naturally, I think. And so, as part of 
the natural career progression, pay jumps again and again. And 
it's a--meant to be a seamless progression from regionals to 
mainlines.
    Senator Peters. But, still, I mean, with--the reason why a 
young person's going to question whether or not to go into the 
career, it's not because they don't love flying, because it's 
a--I would have loved to have been a pilot, myself, but I wear 
glasses; it was difficult to do, as a young man. It's changed, 
I think, now. But, it's because of the economics. That is--very 
expensive process. You have to pay for the structured flight 
training. And what is the number of hours you come out of 
structured training?
    Ms. Black. Yes, between about 350 and 550.
    Senator Peters. So, then you need to get----
    Ms. Black. I mean, you----
    Senator Peters.--another 1,000 hours of----
    Ms. Black. That's----
    Senator Peters.--flying time. And if you----
    Ms. Black. That's true.
    Senator Peters.--and if you are flying, you're probably--
well, different aircraft; you're not going to be flying a jet, 
you're probably going to be an instructor and--does that 
impact--Captain Sullenberger, does that impact--even though 
someone may have 1500 hours, you know, if they're paying for it 
on their own dime and they know they've got to minimize their 
cost because they're not going to make a lot of money when they 
first come out, does that alter the aircraft choice or the job 
opportunities for them? And is that really adequate training 
when you step into the cockpit of a jet?
    Captain Sullenberger. There are several things I want to 
make clear here. First is that pilot passion will only carry 
you so far, the same as passion for any profession will. At 
some point, like everyone else, like all of us, we are going to 
want to be able to buy a car or have a family or eventually buy 
a house and have a life. And we need to have career path that's 
going to enable us to do that. That's why the regional airlines 
have had so much trouble, because they've been offering, for so 
many years, a substandard set of wages and working conditions 
to try to continue to make fit in the real world a broken 
economic model. So, simply by correcting that, the--all that 
follows from it will be much better.
    Let me also set the record straight. A lot has been talked 
about structured versus unstructured training. They make it 
seem that there are two things out there that exist that really 
don't. And one thing that doesn't exist, it doesn't matter. 
First of all, the regional airlines, as compared to the majors, 
in spite of the improvements that they've made that have been 
essentially forced on them by the Airline Safety Act of 2010, 
still are not up to the same level as the large major airlines, 
in terms of their training. They just don't have the same kind 
of environment that the majors do.
    The majors also depend upon having pilots show up who have 
the qualifications. Again, it's important that everyone who 
gets in the first officer's seat of a regional airliner or a 
major airline as a pilot is fully qualified from the outset.
    The other thing I want to clear up is that there's somehow 
something wrong with having other flying jobs and having real-
world experience. Let me explain to you the difference between 
the structured, you know, hand-holding training environment and 
the often ambiguous and messy real world of operational flying. 
In the real world of operational flying, you have to develop 
the judgment, you have to have the skills, you have to have the 
knowledge to do the job. And that is something that's built 
over a period of time. That's as important as having the 
training environment, which is really a much more sterile 
environment. And when you--you aren't as able to make those 
judgments, aren't as able to develop that skill.
    So, both are important. Again, we're back to the false 
dichotomy that they're trying to impose on this debate of 
quality versus quantity. And, of course, we need, we must, we 
can have both.
    Senator Peters. Right. Thank you.
    I think my time is expired. Thank you.
    Senator Ayotte. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you.
    I appreciated your comment just now, Captain Sullenberger, 
about the difference between the real world and the training 
environment and the qualities that are necessary to deal with 
the real world, as there are in many endeavors and challenges, 
which are different from what can be experienced in the 
artificial environment in training. And you mentioned those 
skills and experience and the passion for flying. And I think, 
you know, one quality that sort of pervades all of them is 
mental health. And I don't know whether you have given 
thought--and I would invite the rest of the panelists, as 
well--to whether there should be better screening for mental 
health periodically, just as we do for physical health, because 
mental health can impact those qualities of readiness and skill 
and even fatigue. We're here today, in part, because, in 2009, 
the tragic crash of Flight 3407 in Buffalo was the result of, 
in part, fatigue. But, fatigue often masks mental health 
issues.
    So, my sort of open-ended question to you--and, by the way, 
I appreciate that Beverly Eckert's sister is--Nancy--is here 
today from--Beverly Eckert, of Stamford, perished in that 
crash.
    My question to you and maybe the other panelists, if they 
wish to answer, is whether mental health should be a subject of 
screening, whether it should be not only an issue that's put to 
the pilot or co-pilot, but also to his fellow pilots and co-
pilots, because they're the ones who are likely to get to know 
him or her and see whether that person continues to have a 
passion for his or her work, a focus and concentration, a real 
ability to function in those demanding circumstances when the 
challenges are greatest.
    So, I invite you to address that topic.
    Captain Sullenberger. Senator, thank you. I'd be glad to.
    This obviously is something I have not only thought about, 
but I've recently written about. In fact, the Germanwings 
crash--a shocking, horrific event that's unimaginable to 
professional pilots; it flies in the face of everything that we 
stand for, everything that we believe--is illustrative in 
several ways. First of all, this particular pilot, who had just 
over 600 hours, I believe, probably an MPL pilot, could not, 
under current standards, have been an airline pilot in the 
United States. Didn't have the requisite experience. And the 
downside of not having had the requisite experience is that he 
wasn't vetted repeatedly by a series of different employers in 
a series of different flying jobs. He wasn't observed for a 
longer period of time. And the 149 people on that airplane paid 
a horrific price for those failures.
    It's also important that we realize that, in any domain--
and we've known now for 40 years, in having a history of using 
aviation safety self-reporting systems, that there is some 
critical safety information that can only be gleaned by self-
reporting, and from no other source.
    So, whatever choices we make, whatever improvements we 
suggest, based upon whatever the findings are, ultimately, of 
this crash, we need to be careful that we do not decrease self-
reporting. Because my understanding of medical knowledge is 
that it doesn't quite yet enable us to predict when some one 
person may have a break. In spite of the fact that we do 
screening, we have regular medical examinations, and we're 
required, on a regular basis, as part of our recurrent 
training, to demonstrate our knowledge, our skill, our 
judgment. And, in spite of how close the working relationship 
is in a cockpit, where you're literally elbow's length from 
each other, you spend sometimes 14 or more hours per day locked 
in this little cockpit closet, where no interaction goes 
unnoticed, it's really difficult to know exactly who that other 
person is. In spite of the fact that we have professional 
standards committees at our pilots unions, or we can go to our 
peers, who are trained to intervene in cases like this, we can 
go the official route, go to the chief pilot, the FAA can pull 
someone in for a special evaluation, really self-reporting is 
one of the most powerful ways, whether it's another pilot or 
it's a family member or whether it's the person, themselves.
    Senator Blumenthal. So, self-reporting really has to be 
preserved and encouraged. The----
    Captain Sullenberger. Yes. So----
    Senator Blumenthal.--consequences for self-reporting, 
should not deter self-reporting.
    Captain Sullenberger. Yes, sir. Yes, Senator. So, what that 
means is, we have to create and maintain a just culture, and 
not a punitive one. There needs to be a clear pathway for the 
pilot to say, ``I need help,'' to get the help they need; when 
the condition is resolved, that then be able to get recertified 
and eventually come back to work. But, pilots who are not fit 
to fly should not fly.
    Senator Blumenthal. Thank you.
    Senator Ayotte. Thank you, Senator Blumenthal.
    And thank you, to the panel's witnesses, for being here 
today. We appreciate it very much.
    The record will stay open for 2 weeks. My colleagues are 
free to submit written questions, and we hope you'll comply in 
answering them in that time period. I know I plan to submit a 
couple to the FAA and Mr. Hart.
    So, again, thank you, to all the witnesses. I know you'll 
continue to follow our work on this issue.
    We're adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Prepared Statement of Thomas L. Hendricks, President and CEO, 
                National Air Transportation Association
    Chair Ayotte, Ranking Member Cantwell, members of the Aviation 
Subcommittee, thank you for the opportunity to submit comments on the 
Subcommittee's review of aviation safety and general aviation. My name 
is Thomas L. Hendricks and I serve as President and CEO of the National 
Air Transportation Association (NATA).
    NATA represents the interests of the general aviation business 
community before the Congress as well as federal, state and local 
government agencies. Representing nearly 2,300 aviation businesses, 
NATA's member companies provide a broad range of services to general 
aviation, the airlines and the military. Our members range in size from 
large companies with international presence to smaller, single-location 
operators that depend exclusively on general aviation for their 
livelihood. Smaller companies account for the majority of NATA's 
membership and most of our members have fewer than 40 employees and are 
designated as small businesses by the U.S. Small Business 
Administration.
    As a result of the last FAA reauthorization bill, NATA member 
companies have been able to confidently proceed with their own 
investment plans, but that confidence to invest will be undermined by a 
protracted reauthorization process.
FAA Structure/Funding
    We understand the major reauthorization issue the Subcommittee will 
consider this year is whether and how we might alter the FAA's 
organization and funding stream. This is certainly an appropriate 
discussion to have in light of the recent sequesters, government 
shutdown and criticisms of the FAA's modernization plans.
    NATA urges lawmakers to build on its work that began in the last 
reauthorization and continue to assist the agency toward a more 
efficient operating structure. However, changes in the relationship 
between the agency's air traffic control operation and its safety 
regulatory component should be carefully viewed in terms of the problem 
to be addressed, and whether the solution will continue to maintain a 
stable, safe and efficient system that protects access for all users of 
our system.
    While NATA supports the injection of more private sector practices 
into the FAA, there is no safer air traffic control system in the world 
or more efficient means of general aviation taxation than that already 
in place. As Administrator Huerta has observed, we need to ensure there 
are no unintended consequences from moving too quickly. NATA cannot 
support any de facto ``leap of faith'' proposals that would put general 
aviation's fate in the hands of undefined management structures or 
leave unresolved its contribution to the system.
Consistency of regulatory interpretation
    NATA appreciates the Subcommittee's review last week of 
certification issues and hopes its reauthorization legislation will 
also consider the impacts to aviation businesses created by the 
inconsistent interpretation of FAA regulations. Aviation businesses are 
constantly confronted by the varying requirements of eight FAA regions, 
10 aircraft certification offices, and 80 flight standards district 
offices, each of which issues individual approvals for a wide range of 
maintenance and operational requests. When the FAA grants approval for 
a certificate or process to one aircraft operator or maintenance 
facility without giving the same approval to a similar business in 
another area of the country, it directly affects the competitiveness of 
companies. The 2012 FAA reauthorization created an FAA/Industry 
Committee, the ``Consistency of Regulatory Interpretation Aviation 
Rulemaking Committee (CRI ARC)'' to address this issue. It is important 
the panel's recommendations, particularly the creation of a Master 
Source Guidance System, be implemented as quickly as possible.
Maximizing use of existing FAA resources in support of aviation 
        business
    Regardless of the resolution of the debate about the FAA's current 
organizational structure and funding discussed above, it is unlikely 
the regulatory functions of the agency can expect to see dramatic 
increase to its funding. As a result, the agency must maximize the use 
of its existing resources.
    For example, the FAA uses Certificate Management Units (CMUs) and 
Certificate Management Offices (CMOs) to provide a comprehensive 
certificate management structure for monitoring airline operations. The 
FAA should establish policy defining the criteria under which this 
concept will apply to repair stations and other certificate holders. In 
addition, Part 135 on-demand air carriers now face difficulty in 
securing FAA inspectors to certify pilots. Expanded use of delegation 
authority would better meet the needs of aviation businesses and free 
up resources. Realigning the Flight Standards Service regional offices 
to specialized areas of aviation safety oversight and technical 
expertise, similar to the Aircraft Certification Service, would be 
better aligned with the policy organizations in Washington D.C., and 
provide for a more direct, streamlined flow of communication regarding 
policy implementation.
Pro-Aviation Business Tax Policy
    Finally, while not strictly within the Committee's direct purview, 
there are issues of tax policy that also impact aviation businesses 
that we offer for your consideration.
    Clarify the Status of Aircraft Management Services--In March of 
2012, an IRS Chief Counsel opinion concluded that aircraft owners 
employing aircraft management services that allow the use of the 
aircraft for occasional charter operations should be assessing the 7.5 
percent commercial ticket tax on amounts paid for those management 
services. Aircraft management services typically include hiring, 
training, and scheduling pilots and other personnel; fueling the 
aircraft; conducting weather and flight planning; and overseeing key 
safety standards. The IRS interpretation is unprecedented as all 
aviation taxes are movement based. If an owner is using an aircraft for 
personal reasons, the fuel tax is assessed. The same aircraft, used by 
a management company for charter services, assesses the commercial 
ticket tax (i.e., Federal excise tax (FET)) on the charter customer.
    After a significant number of operators successfully appealed audit 
findings assessing the FET to aircraft management services, in May of 
2013 the IRS suspended assessment collections based on that opinion. 
Since then NATA has been in constructive dialogue with Treasury and IRS 
and the issue has been placed on the agency's priority guidance list 
for a second consecutive year. However, the Treasury/IRS is not 
committing itself to a timeline for resolution and though the IRS has 
put audit assessments on hold, these small businesses are still 
vulnerable to potentially enormous assessments. Last Congress, Senators 
Brown and Portman and Representative Tiberi introduced legislation to 
address the issue and will reintroduce the legislation later this year. 
We urge Subcommittee members to join Senators Brown and Portman's 
efforts by becoming original cosponsors of this important legislation.
Cease Aviation Trust Fund Diversions
    Since 2005, the tax rate applied to nearly all jet fuel sales is at 
the highway fuel tax rate of 24.4c per gallon and all collected funds 
are deposited into the Highway Trust Fund instead of the Airport and 
Airway Trust Fund (AATF). The change was based on a suspicion of fraud 
due to a slightly lower aviation fuel tax rate compared to the highway 
tax and a belief that jet fuel could be used in diesel trucks. This 
policy has increased Highway Trust Fund revenues at the expense of 
those in the Airport and Airway Trust Fund.
    The IRS provides no avenue for a noncommercial general aviation 
end-user to apply for the refund. A fuel vendor may apply for refunds, 
but only after completing an arduous IRS registration process and then 
managing the substantial administrative burden to maintain records for 
the IRS. There is no requirement for fuel vendors to register with the 
IRS; it is purely voluntary and most fuel vendors are not participating 
due to the additional workload. Thus the AATF receives no revenue from 
the majority of non-airline jet fuel sales because noncommercial end 
users are not permitted to apply for the refund themselves. NATA 
believes the premises that led to enactment of this provision should be 
reviewed as a precursor to its repeal.
    Investment Policy--NATA recently provided Senate Finance Committee 
Chairman Orrin Hatch (R-UT) and Ranking Member Ron Wyden (D-OR) with 
views on how to best stimulate aviation business investment. We urge 
lawmakers to develop legislation that includes the full and immediate 
expensing of capital investments.
    NATA is one of the leading supporters of permanently extending 
bonus depreciation and Section 179 expensing for small businesses at a 
level of $500,000 and supports the ongoing efforts of the House of 
Representatives to make these two pro-growth provisions permanent. 
However, comprehensive tax reform legislation provides the opportunity 
to go even farther. Many economists support NATA's belief that while 
accelerated depreciation is helpful to investment and the overall 
economy, the ultimate goal should be to fully write-off business 
investment expenses immediately.
    Thank you for your consideration of our views. While maintaining 
the status quo risks our Nation's supremacy in aviation, it is equally 
true that radical change to the FAA's management structure and funding 
poses equal risks, including to the safe and stable nature of the 
world's best air traffic control system. We look forward to working 
with the Subcommittee and agency toward continuing to operate the 
world's safest and most efficient aviation system.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                           Margaret Gilligan
    Question. Ms. Gilligan, as you know, both the Senate and House 
continue to strongly support the FAA contract tower program on a 
bipartisan basis. This support stems from the belief that this program 
is a cost-effective and proven way to enhance air traffic safety at 
over 250 smaller airports across the country, including seven in my 
state.
    Members of Congress and the industry consistently point to this 
program as one of FAA's most successful government/industry partnership 
programs.
    Given the program's successful track record, will the FAA have any 
recommendations for the reauthorization bill to ensure this program is 
protected and enhanced?
    Answer. The FAA remains committed to the Federal Contract Tower 
(FCT) Program as an important component of how we deliver safety and 
efficiency in the NAS. There is a general consensus that the program 
has been successful and it has created measurable efficiencies in the 
system for both commercial and general aviation operators, while 
delivering safety benefits to the traveling public. As such, the FAA 
does not have any specific recommendations for the reauthorization bill 
regarding the FCT Program.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                           Margaret Gilligan
    Question. Florida state law permits businesses and other entities 
where food allergens may be present to possess and allow trained staff 
to administer epinephrine auto-injectors to treat potentially fatal 
anaphylactic reactions. Since food allergens are present frequently on 
commercial airline flights, and an estimated 15 million Americans have 
food allergies, would the FAA be open to exploring the inclusion of 
epinephrine auto-injectors in airborne emergency medical kits?
    Answer. Since 1986, all major passenger carrying air carriers have 
been required to carry epinephrine in on-board Emergency Medical Kits. 
Part 121, appendix A, required two quantities of epinephrine (1:1000) 
in ``single dose ampule or equivalent.''
    The FAA also requires that crewmembers must be trained regarding 
location and use of the emergency medical equipment. However, we do not 
require that air carriers or crewmembers provide medical assistance to 
passengers. The emergency medical equipment and training requirements 
provide air carriers the option of limited in-flight medical 
assistance. The FAA does not have the authority, nor are the FAA 
regulations intended, to mandate or regulate health care on board 
commercial air carriers.
    Additionally, in December 2002, the FAA published Advisory Circular 
(AC) 121-36, ``Management of Passengers Who May be Sensitive to 
Allergens. In the AC, we discuss the use of epinephrine to mitigate the 
effects of an allergic reaction. The AC may be found here: http://
www.faa.gov/documentLibrary/media/Advisory_Circu
lar/AC121-36.pdf
    However, there is no regulation that would prevent air carriers 
from voluntarily carrying an epinephrine auto-injector on each flight 
as part of the emergency medical kit. Additionally, there is no 
regulation that would prevent an air carrier or its agents from 
voluntarily choosing to provide care to passengers.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Steve Daines to 
                           Margaret Gilligan
    Question. Ms. Gilligan, in a previous hearing I discussed with 
Federal Aviation Administration (FAA) Administrator Michael Huerta 
steps the FAA is taking to address rural airports' safety concerns 
surrounding the expansion of the Powder River Training Complex (PRTC) 
in eastern Montana. This has included a commitment by the FAA to remain 
engaged with local general aviation stakeholders and to provide the 
appropriate communications and radar equipment necessary to ensure a 
high level of aviation safety. The term ``adaptive management'' 
continues to be used by the FAA. Would you please define ``adaptive 
management'' and explain how it will be implement in the airspace 
around PRTC?
    Answer. The FAA remains committed to the Federal Contract Tower 
(FCT) Program as an important component of how we deliver safety and 
efficiency in the NAS. There is a general consensus that the program 
has been successful and it has created measurable efficiencies in the 
system for both commercial and general aviation operators, while 
delivering safety benefits to the traveling public. As such, the FAA 
does not have any specific recommendations for the reauthorization bill 
regarding the FCT Program.

    Adaptive Management for PRTC is managed by the U.S.A.F. and is not 
an FAA initiative. The FAA is not responsible for the development or 
implementation of the ``Adaptive Management'' program.

    Background:

    The Air Force is adopting an ``adaptive management'' approach for 
the mitigation of airspace issues, which includes provisions for 
determining the success of mitigation measures, as well as procedures 
for making necessary adaptations to those measures. As part of this 
approach, the Air Force would develop a process for communicating, at 
least annually, with requesting agencies and organizations, including 
those involved with airport operations (state aeronautical commissions, 
local airport authorities, and fixed base operators); aviation, energy 
and agro-business (e.g., air ambulance operations, energy and pipeline 
operations, cloud seeding, aerial application and crop dusting, 
ranching, flight training); and other activities (e.g., local units of 
government, real estate organizations, tourism organizations, and 
educational institutions). According to the Air Force's environmental 
documentation the Air Force would ``strive to negotiate agreements that 
include the flexibility to adapt to changing situations'' and 
``collaborate with key aviation interests in the region to establish 
professional lines of communication to minimize impact and balance the 
needs of commerce and military readiness.''
    The mitigations will be assessed as a part of the normal and 
regular base outreach program. Ellsworth Air Force Base is the using 
agency of the existing Powder River A & B Military Operations Area 
(MOA). The base uses established practices of outreach to communities 
and ranching operations to identify critical times and locations of 
events that would be disrupted by overflights, such as existing steps 
to avoid locations of branding, calving and weaning. The base will post 
informational flyers and posters at public airports underlying the 
airspace with annual updates by the safety office as a part of the Mid-
Air Collision Avoidance Program. For Large Force Exercises (LFE) the 
base will publish scheduling and other information 30 days prior to the 
exercise. The base's practices would also include establishment of 
avoidance areas as necessary for airports, airfields, and communities 
under the proposed airspace. These efforts encourage community 
involvement to identify concerns, wherein the base adjusts the flight 
operations procedures based on the results of these interactions. 
Members of the affected communities can provide feedback to the base at 
any time.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
